<html>
<title> - IMPROVING PRE-SCREENING OF AVIATION PASSENGERS AGAINST TERRORIST AND OTHER WATCH LISTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  IMPROVING PRE-SCREENING OF AVIATION
                    PASSENGERS AGAINST TERRORIST AND
                           OTHER WATCH LISTS

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2005

                               __________

                           Serial No. 109-27

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                    U.S. GOVERNMENT PRINTING OFFICE
26-959                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006

                               __________



                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic security Infrastructure protection, and Cybersecurity.     1
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection, and Cybersecurity    40
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................    34
  Prepared Opening Statement.....................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    71
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................     7
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    44
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    38
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    41
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    68

                               WITNESSES
                                Panel I

The Honorable John B. Anderson, Former U.S. Representative to 
  Congress from the State of Illinois:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. James X. Dempsey, Executive Director, Center for Democracy 
  and Technology:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. James C. May, President and Chief Executive Officer, Air 
  Transport Association:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Paul Rosenzweig, Senior Legal Research Fellow, Center for 
  Legal and Judicial Studies, The Heritage Foundation:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13

                                Panel II

Mr. Justin Oberman, Assistant Administrator, Secure Flight and 
  Registered Traveler, U.S. Department of Homeland Security:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48


                       IMPROVING PRE-SCREENING OF
                      AVIATION PASSENGERS AGAINST
                    TERRORIST AND OTHER WATCH LISTS

                              ----------                              


                        Wednesday, June 29, 2005

                          House of Representatives,
                    Committee on Homeland Security,
                 Subcommittee on Economic Security,
               Infrastructure Protection, and Cybersecurity
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 210, Cannon House Office Building, Hon. Dan Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Cox, Linder, Pearce, 
Jindal, Thompson, Sanchez, Markey, Dicks, DeFazio, Lofgren, 
Jackson-Lee, and Pascrell.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security's Subcommittee on Economic Security, Infrastructure 
Protection, and Cybersecurity will come to order.
    The subcommittee is meeting today to assess the 
effectiveness of the systems and policies employed by the 
Transportation Security Administration for pre-screening air 
travelers.
    I would like to welcome everybody to today's hearing. This 
morning, we will continue our oversight of the TSA by examining 
its aviation passenger pre-screening initiatives. By now, 
everyone should be acquainted with the current systems being 
used by the airlines to pre-screen passengers: The Computer-
Assisted Passenger Pre-screening System, or CAPPS, and the no-
fly list.
    CAPPS is a rule-based system which flags air travelers for 
additional screening based on travel and ticket purchase 
habits. The specific elements of the program are classified, 
but many of the criteria are widely known and discussed.
    Since the federal government mandated the use of CAPPS for 
airline passengers in 2001, we estimate that over 150 million 
passengers have been tagged by the system's overly broad system 
and unnecessarily subjected to the inconvenience and indignity 
of intrusive pat-downs and additional wandings.
    We have all personally learned of many instances where TSA 
has aggressively searched grandmothers, disabled veterans, 
small children, and others who appear to pose minimal risk to 
the homeland security of this country as a result of CAPPS.
    The watch lists, which are the focus of today's hearing, 
also have their own problems. By some estimates, 2 out of every 
100 flyers have been misidentified as persons on these lists. 
If true, that is a lot when we are dealing with 1.8 million 
passengers every day. The system of watch lists currently in 
use does not have an adequate redress process for those who 
have been misidentified time and time again. None of the watch 
lists used by TSA utilizes the complete set of databases 
available within the federal government.
    To some of us, the current regime seems to make little 
sense. It appears to hassle travelers, waste resources and has 
no measurable benefit to aviation security, at least not a 
benefit that TSA has demonstrated to us yet. TSA has been 
working for some time to replace CAPPS and improve watch list 
matching with some progress, but TSA's latest effort to secure 
flights seems to be running into difficulties that will delay 
its implementation.
    This is not good because the longer we delay, the longer we 
have the current system, which is certainly not as good for our 
security, our privacy or our pocketbooks.
    I am also concerned that TSA has no plans to make CAPPS 
more effective and less of an imposition on the traveling 
public even after a Secure Flight is in place, when it is in 
place.
    TSA must continue its development of an effective targeted 
passenger pre-screening system to improve its aviation security 
operations and reduce costs. It must also integrate all pre-
screening initiatives to minimize redundancy and enhance 
efficiency. Congress must do the oversight along the way as 
well. We must make sure we are not standing in the way of 
getting this new system in place as quickly as possible.
    Today, we will hear from two distinguished panels of 
witnesses to gain the insight of passengers, airlines, other 
stakeholders and the Department itself about the problems with 
the current system of passenger pre-screening and how we can 
improve it.
    Mr. I thank all of our witnesses for appearing before us 
today, and I recognize the ranking member of the full 
committee, Mr. Thompson, from Mississippi, for any statement he 
wishes to make.
    Mr. Thompson. Thank you very much, Mr. Chairman. I look 
forward to the testimony of the witnesses today on this very 
important subject.
    Millions of Americans flying this summer continue to be 
screened under CAPPS I, the behavior-based terrorist screening 
system run by the airlines that is designed to root out 
terrorists before they board commercial aircraft. The airlines 
will likewise continue to use TSA's no-fly and selectee list as 
an additional tool to keep passengers safe.
    But change is supposedly coming to improve and perhaps 
replace these systems. TSA has set a deadline to begin a test 
run of the new Secure Flight Program this August. Secure Flight 
will check all passengers against TSA's consolidated watch 
list, a watch list that fuses together numerous federal 
terrorist watch lists.
    The TSC watch list is supposed to represent the most up-to-
date listing of known and suspected terrorists, but a recent 
report by the Department of Justice's IG's Office raises 
significant concerns as to how accurate and complete the TSC's 
watch list actually is. If the TSC's list cannot be trusted, 
then Secure Flight may not work either.
    Another concern in recent weeks has been a possible 
violation of the Privacy Act by TSA. In September, TSA said 
that it would, on a very limited basis, test the use of 
commercial data against a secure flight record system. TSA also 
indicated that it would not store the commercially available 
data that it would use for testing. Several weeks ago, we 
learned that neither of these representations were true.
    Finally, we recently learned that even if the Secure Flight 
issues are addressed, TSA may require the airlines to continue 
running CAPPS I Program, a burden the airlines I believe should 
not have.
    I hope that Mr. Oberman will address these issues. 
Furthermore, I hope that he can discuss whether money is going 
in Secure Flight and what we have gotten in past funds spent. 
For example, $71.5 million was paid to a contractor for the pay 
of CAPPS II Program, and another $8.2 million was paid for its 
work on Secure Flight before it stopped working on the program. 
If the Department had only listened to Congress and built 
privacy into CAPPS II, it probably could have saved a lot of 
this money.
    In short, I am very concerned, Mr. Chairman, that Secure 
Flight may be off track. According to the GAO, Secure Flight 
was supposed to have a final concept of operation and 
definition of requirements, including whether it was going to 
use commercial data, by March and April, respectively. The date 
by which Secure Flight was supposed to be fully operational on 
two carriers has already slipped by 4 months. We need serious 
answers where this program is going. If we do not get answers, 
Secure Flight may suffer the same fate similar to CAPPS II. It 
may never leave the gate.
    Mr. Chairman, I yield back.
    Mr. Lungren. I thank the gentleman.
    Other members of the committee are reminded that opening 
statements may be submitted for the record.

    Prepared Opening Statement of the Honorable Christopher Cox, a 
Representative in Congress, From the State of California, and Chairman, 
                     Committee on Homeland Security

    Thank you, Mr. Chairman.
    Screening passenger manifests for potential terrorists is one of 
the most important and potentially most effective aspects of our 
aviation security system--because instead of focusing on knifes, nail 
clippers, and other countless potential weapons, or children and 
grandmothers, we are focusing on the more finite universe of known and 
suspected terrorists. The problem is not with the concept--but with its 
execution to date, which is carried out not by TSA, but by the airlines 
under difficult circumstances.
    According to TSA, roughly two percent of all travelers have names 
that are on or closely resemble names on the Terrorist Screening Center 
watchlists. In other words, more than 13 million passengers annually--
or some 36,000 per day--are misidentified by the current system, and 
are inconvenienced by costly and time-consuming extra security 
procedures or completely prevented from flying. That does not even 
count the millions more who are flagged for secondary screening not 
because of their name, but because they purchased a ticket in a manner 
that TSA has determined raises a suspicion of terrorism--the system 
known as CAPPS.
    The poor souls who wish to have their good names cleared from the 
watchlists have to navigate mountains of TSA red tape and bureaucracy 
to get on a ``cleared'' list that may or may not prevent them from 
being flagged as terrorists by the airlines on future flights--
depending on the particular airline's particular procedures. One of our 
witnesses, former Congressman and Presidential candidate John Anderson 
understands this problem all too well--since he is one of those unlucky 
passengers whose name matches or closely resembles a name on the 
terrorist watchlist. With a name like that, I assume there are 
thousands of other John Anderson's facing this problem on a daily 
basis.
    While these facts alone should be enough to question the efficacy 
of the current system, further examination shows that the airlines are 
not provided the most comprehensive terrorist watchlist due to security 
concerns. They also do not receive certain related information on these 
suspected terrorists that could help reduce misidentifications and more 
promptly resolve close matches.
    As a result, we have a system that flags millions of innocent 
people for extra screening or security procedures without cause, and we 
may actually be missing some people with terrorist affiliations.
    Over the past year, TSA has been attempting to address these 
inadequacies through the development of the Secure Flight program, as 
mandated by Congress in an overwhelmingly bipartisan fashion last year. 
Under this system, TSA will assume from the airlines the responsibility 
for managing the terrorist watchlist matching function.
    From what we can tell, TSA is mostly on the right track. Secure 
Flight will rely on expanded passenger name records, improved name-
matching software, and the TSC's full database of known or suspected 
terrorists. It will also have improved passenger redress capabilities, 
making this function more expedited and more uniform. These steps 
should significantly minimize the ambiguities that have resulted in the 
thousands of daily false positives, while also improving our ability to 
find real terrorists.
    While there remain a host of important issues involving Secure 
Flight to be worked out, Congress must be mindful not to let the 
perfect be the enemy of the good--or the enemy of the worse. The 
current system is a terrible waste of resources, is an unjustified 
imposition upon passengers' privacy rights and freedoms, and is of 
questionable security benefit. Secure Flight must be implemented as 
quickly as possible, with appropriate safeguards, so we can move beyond 
what is in place today.
    I would like to thank the witnesses for appearing today and for 
providing their insight on this important issue.

    Mr. Lungren. We are pleased to have two expert panels of 
witnesses here today to give testimony on this important topic. 
Let me please remind the witnesses that your entire written 
testimony will appear in the record, and we ask you to limit 
your oral testimony to the 5-minute period allotted.
    The Chair now with pleasure recognizes the Honorable John 
Anderson, the distinguished former member of the House of 
Representatives, candidate for the presidency in 1980, may I 
just say that during my first tour of duty here in Congress, he 
was one of the first members of the leadership that I met. It 
seems like it was just yesterday, although it was 1979.
    Congressman Anderson, it is our pleasure to have you speak 
now.

      STATEMENT OF THE HONORABLE JOHN ANDERSON, A FORMER 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Anderson. Thank you very much. And I also appreciated 
very much the statement read just a moment ago by the chairman 
of the full committee with respect to the importance of the 
hearing that you are holding this morning.
    I am here to present some anecdotal evidence of a personal 
experience that is relevant I think to the scope of your 
inquiry.
    Earlier this year, I made two trips abroad on the 23rd of 
March without any trouble. I boarded a flight in Fort 
Lauderdale, Florida and flew to Amsterdam on a personal family 
visit with a daughter who resides there and then returned after 
10 days to begin preparations for a trip that was organized by 
former Members of Congress and coordinated by the Council on 
Excellence in Government, designed to bring former members like 
myself to universities in other countries, in this case 
Germany. And they had scheduled a flight from Washington to JFK 
and from JFK to Frankurt Am Rhein and then a schedule that 
would bring us to about five different German cities to 
converse with members of the faculty and the student body of 
those institutions.
    Shortly before the second flight was about ready to go, I 
was told, ``You will have to go to the airport personally some 
days in advance because you are on the watch list. You are one 
of those suspected of possible terrorist activity and of 
interest to the government, a person of interest.'' Well, 
flattering as it is to be a person of interest, I was a little 
bit shocked to find myself included in that group.
    So my first thought was for the first time in 25 years, I 
will seek the aid of my congressman who now happens to be Clay 
Shaw. I am a legal resident, registered independent voter in 
the State of Florida. I went to Clay's office and he promptly 
undertook an investigation and very shortly produced a 
satisfactory result.
    But I was encouraged to appear this morning to--well, I 
should tell you what I had to do. It was not quite just as 
simple as talking to Clay Shaw and his staff, although they 
were most helpful.
    I supplied, with the assistance of the staff, four items of 
identification, including my registered voter's card from the 
State of Florida, my driver's license, issued by that state, my 
U.S. passport, which was in good order, and then hopefully also 
my former Member of Congress card would throw some weight into 
the balance, and some days later received a communication from 
the Office of the Ombudsman saying that following the receipt 
of my passenger identity verification form, PIV, and their 
subsequent investigation, the TSA has verified your identity, 
and, accordingly, we have provided sufficient personal 
information to the airlines to distinguish you from other 
individuals in the system in issuing your boarding pass more 
efficiently.
    Then there was a paragraph that followed that said, 
``Notwithstanding, you should have certain documents, one or 
more, to help expedite receipt of a boarding pass,'' and that 
the airline ``might require a brief period of time to verify 
your information. The process should not result in extensive 
delay.''
    On the day the flight was scheduled to leave, I very 
pessimistically arrived 3 hours ahead of time at Delta 
Airlines. Fortunately, since I was a business class traveler, I 
could luxuriate in the surroundings of a nice lounge but 
finally boarded.
    My concern today is for less fortunate travelers without a 
congressman and his staff to get through quickly to the right 
person in TSA. Suppose it was someone who was booking a last-
minute flight in response to a family emergency. You wanted to 
be at the bedside of a dying mother or other family member. How 
well could that hypothetical traveler cope with the kind of 
requirements that apparently now are sufficient to put you on 
this list?
    I raise these questions, and this is not in high judgment 
and high designation. I appreciate what the chairman said, it 
is important to identify terrorists before they board an 
aircraft, and there have to be some procedures in place, but 
should not the TSA have procedures in place that anticipate the 
difficulty that I have only cursorily outlined, and have they 
kept this committee and others who have a valid interest 
properly informed as to what criteria they employ to put a 
person's name on a list of a possible suspect of terrorist 
activity?
    All kinds of lists in this country, best dressed people, 
most highly compensated chief executives, but when the 
government starts preparing lists, they ought to be very 
careful, it seems to me, any government agency, who it is they 
include.
    And, believe me, this is the first time I have ever done 
this. Last night, I just had the idle thought cross my mind, I 
wonder, oh, what Google would say about me. So I said to my 
wife sitting there at the home desktop computer, ``Google in 
John B. Anderson and see what comes up.'' Well, I have sheet of 
papers here, I think there are 16 pages in all, about John B. 
Anderson, me--the books that I have written, the articles that 
I have written, the places I have visited, et cetera, et 
cetera, more than you would ever want to know.
    So if I could find that out that quickly, why should not 
some simple Googling of it--and I appreciate the fact that I 
have a common surname. This has bothered my son who has had to 
suffer some of the indignity because he is John B. Anderson, 
Jr. But if we can that easily acquire a load of information 
about who we are and distinguish us from other John Andersons 
and when I have closed a real estate deal in Washington from 
time to time, I have had to endure the fact that there are few 
John Andersons with judgments against them that I had to 
explain.
    So I can see that there is a problem with people with a 
fairly common surname, but I think the ease with which I was 
able to produce the kind of information that ought to help the 
Agency decide whether or not to include that name along with a 
lot of other people on the no-fly list probably needs some 
reexamination.
    Thank you, Mr. Chairman.
    [The statement of Mr. Anderson follows:]

              Prepared Statement of Hon. John B. Anderson

    Mr. Chairman, Ranking Member Thompson and members of the 
Subcommittee, I am pleased the Committee has undertaken this review of 
the Transportation Security Agency's establishment of a no-fly list in 
its regulation of air transportation.
    Earlier this year, I accepted the invitation of the Former Members 
of Congress Association, a group of which I am a member, to travel to 
the Federal Republic of Germany under a program which they were 
conducting with the aid of the German American Marshall Fun and 
coordinated with the assistance also of the Council on Excellence in 
Government.
    Our itinerary embraced cities like Frankfurt Am Rhein, Cologne, 
Bonn, Frankfurt Am Oder and Berlin. It involved visits to German 
Universities and contacts with both their students and faculty.
    Some days before our departure on April 23, 2005, the group 
arranging my ticketing notified me and travel arrangements that I was 
on a no-fly list and Delta Airlines would not issue the ticket prior to 
the departure date until my status was clarified.
    As a registered voter for some years now in Florida, I contacted 
Congressman Clay Shaw's office, went to his office on Capitol Hill and 
with the help of his staff,submitted four items of identification 
including, voters card, drivers license, passport, former Members of 
Congress identification card and some days later received a 
communication from the Office of the Ombudsman saying that following 
the receipt of my Passenger Identity Verification (PIV) Form and their 
subsequent investigation ``the TSA has verified your identity.
    Accordingly, we have provided sufficient personal information to 
the airlines to distinguish you from other individuals and assist them 
in issuing your boarding pass more efficiently.''
    The following paragraph said that not withstanding this you should 
have certain documents, one or more, to ``help expedite receipt of a 
boarding pass'' and that the airline ``might require a brief period of 
time to verify your information but the process should not result in 
extensive delay.''
    My concern today is for less fortunate travelers without a 
Congressman and his staff to get through quickly to the right person at 
TSA. If the flight booking was in response to a family emergency or for 
some other reason where delay would be serious, how well can that 
hypothetical traveler cope? If the person with a common surname arrives 
at the airport ticket counter without the availability of the 
expeditious advance work of someone like my friend Congressman Shaw, 
how well would they fare? Should TSA have procedures in place that 
anticipate the difficulty I have only cursorily outlined. Why should 
not persons identified by TSA as being ?of interest, and possible 
connections with terrorist activities be forewarned? Has TSA kept this 
committee and others who have a valid interest properly informed as to 
the standards they employ in describing someone as a person of interest 
to law enforcement authorities, and therefore a candidate for the ``no-
fly list''?
    Mr. Chairman, I again appreciate this opportunity to provide 
written testimony.

    Mr. Lungren. I thank the gentleman for his testimony.
    I might just mention to the gentleman for the record that 
we were contacted by the congressional office in your 
particular case, and the lady sitting directly behind me, Ms. 
Winsome Packer, handled that, but I might say she worked on it 
for about a week with TSA to go through all the steps. And as 
you suggest, I doubt most Americans would have that ability or 
time to do that sort of thing, particularly under the 
circumstances you mentioned.
    Mr. Dicks. Would the chairman yield just for a comment?
    Mr. Lungren. Yes, I will.
    Mr. Dicks. As I understand it, even after you do all that--
I have had three of four constituents of mine with very similar 
names, Thompson, for example, and even once you have gone 
through all it, which you have done, you still have to go in 
early and report to the desk because they have got to go 
through this and check you out again the next time you fly.
    Mr. Anderson. I think that is true. The letter from TSA 
suggests as much, that you should be prepared with one or more 
forms of identification, which to me indicates that I probably 
would still have some delay, but hopefully they say it is not 
going to be extraordinary.
    Mr. Lungren. Well, the good news, John, is you are not 
forgotten.
    [Laughter.]
    Mr. Anderson. That I appreciate.
    Mr. Lungren. I thank you for your testimony.
    The Chair now recognizes Mr. James May, president and chief 
executive officer of the Air Transport Association, to testify 
in his statement for 5 minutes.

STATEMENT OF JAMES MAY, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                   AIR TRANSPORT ASSOCIATION

    Mr. May. Thank you, Mr. Chairman.
    In 2001, the Air Transport Association pledged its support 
of appropriate government efforts to utilize available 
information to improve the effectiveness and the efficiency of 
passenger pre-screening. As we said then, we believe that a 
security system premised on looking at people, not at things, 
is most likely to produce the results that we all need.
    Four years later, things have not progressed as far as any 
of us would have hoped. The list of programs that never quite 
came to fruition goes on as we keep circling the same issues: 
CAPPS I, CAPPS II, Registered Traveler, Secure Flight. We could 
go on with a long list of those programs that have not yet 
quite come to fruition.
    And so I think it is time for this committee to push TSA to 
either fish or cut bait and make the changes that are necessary 
to these programs.
    We are cautiously optimistic that TSA reports of progress 
in the development of Secure Flight, however. We see Secure 
Fight as improving both the quality of security and the 
passenger experience, and I think it has the potential, at 
least, to reduce the number of times that Mr. Anderson would 
have to go through an unfortunate experience, as he did.
    There remain some very challenging implementation issues 
ahead, but I think the picture does hold promise. This can only 
be made to work, however, if there is real leadership from this 
committee, the Congress and the administration as to what it 
will take. Let me give you a couple of thoughts on the 
challenges.
    First, I think we need agreement on data collection, not 
just for Secure Flight, but across the entire spectrum of 
Department of Homeland Security agencies. We need consistent, 
not duplicative or competing requirements. If CBP, the Customs 
and Border Patrol people, are going to collect information for 
one program, then TSA ought to have a very consistent 
collection format for their programs.
    Secondly, I think it needs to be understood that this is a 
massive undertaking and that sufficient time and resources need 
to be made available to resolve any of an array of technology, 
operational, economic and policy questions which are presented, 
not the least of which is privacy.
    And third, action has to be taken by government to 
eliminate the unnecessary selection of passengers due to poorly 
maintained and poorly vetted lists. That is exactly what Mr. 
Anderson talked about.
    Finally, in order for Secure Flight to succeed, TSA must 
negotiate some extremely challenging privacy issues, as it 
looks to developing information management as a tool against 
the threat of aviation terrorism. To assist the process, 
Congress should be clear as to precisely what privacy issues 
need to be addressed, and there must be a clear and effective 
resolution of international privacy concerns.
    As I said, we are optimistic about the potential for Secure 
Flight. We think it warrants real support, but there are many 
challenges ahead.
    Having said that, while we believe there could also be 
merit in a voluntary traveler identification program, we are 
not persuaded of the merits of what has become the Registered 
Traveler, or RT Program. And I think the problem is that TSA 
has never been able to provide a definition of program 
participation benefits. They remain ambivalent as to whether or 
not this should be a true security program or some type or 
passenger perk program. In our judgment, to be successful, we 
need to know what exactly the program will provide 
participants, and it must be a true security program as well. 
Without that information, I think RT is going to be a non-
starter.
    And, finally, I would like to address the issues presented 
by the concept that has come to be known as APIS-60. Under this 
program, passenger passport data is batched and transmitted to 
the government within 15 minutes of departure of U.S.-bound 
international flights. Now, that information is used to vet 
passengers prior to arrival.
    In the post-9/11 world, DHS and others have expressed a 
strong interest in receiving APIS data 60 minutes prior to the 
flight's departure. We have been engaged with CBP and others to 
improve that process.
    I will not go into the complexities, but the bottom line is 
that if we are required to present information 60 minutes in 
advance of departure when we frequently only get it a half hour 
in advance of departure for many connecting passengers, it is a 
program that is doomed to fail.
    We have looked for alternatives that will address both 
security and operational concerns, the most desirable approach 
in our view would be to develop a real-time interactive ``go/
no-go process.'' There is a program that the Australians and 
the New Zealanders have had in effect, the Canadians are about 
to adopt it, that we think provides the model.
    In conclusion, Mr. Chairman, I would like to emphasize 
three critical points. First, the airlines industry commitment 
to security is absolute. Second, we applaud and endorse 
Congress' recognition that aviation security is national 
security and ought to be funded accordingly.
    Third, and finally, we urge this committee to push 
aggressively to streamline, simplify and consolidate the 
multiple, diverse but heretofore uncoordinated programs 
requiring collection of passenger information. These programs 
must be harmonized in order to best leverage the available 
information and investment. We would also encourage a review of 
the Privacy Act restrictions to be certain they provide an 
appropriate framework for dealing with post-9/11 and security 
concerns.
    Thank you.
    [The statement of Mr. May follows:]

                   Prepared Statement of James C. May

    In November of 2001, the Air Transport Association pledged its 
support of appropriate government efforts to utilize passenger 
information and available government and public data to improve both 
the effectiveness and the efficiency of passenger pre-screening. As we 
said then, and have heard echoed repeatedly since, we believe that a 
security system premised on ``looking at people and not things'' is 
most likely to produce the results we all need. At that same time, we 
called for the establishment of voluntary traveler-identification 
program to further expedite security processing for those opting to 
participate. We remain convinced that both programs have significant 
potential in terms of further improving the level of security, 
maximizing the utility of Transportation Security Administration (TSA) 
resources and enhancing passenger convenience.
    Now, however, almost four years later, while we remain committed to 
these goals, it is no secret that things have not progressed as far as 
any of us would have hoped. CAPPS II, Secure Flight, Known Traveler, 
Registered Traveler--the list of programs that never quite come to 
fruition goes on, as we keep circling the same issues. In our view, it 
is time as they say ?to fish or cut bait.?
    We are cautiously optimistic at TSA reports of real progress in the 
development of Secure Flight. We see Secure Flight as a very valuable 
addition--improving both the quality of security and the passenger 
experience. There remain, by universal acknowledgement, some very 
challenging implementation issues ahead but the picture right now holds 
promise. This can only be made to work, however--to come to a different 
end than its multiple predecessors--if there is real leadership from 
this committee, the Congress and the administration. We are committed 
to a successful Secure Flight program--but we must have the leadership 
commitment to getthis done.
    As to what it will take to make this work, let me provide you with 
a few thoughts on the challenges:
    First, we need agreement on data collection--not just for Secure 
Flight, but across the spectrum of Department of Homeland Security 
(DHS) agencies. We need consistent, not duplicative or competing, 
requirements and it must be clear that all participants in the 
reservation process share data-collection obligations, including travel 
agents and Global Distribution Systems;
    Second, it must be clearly understood that this is a massive, very 
challenging undertaking and that sufficient time and resources must be 
available to bring a successful outcome; this includes a complete and 
cooperative analysis and implementation agreement treating an array of 
technological, operational, economic and policy questions that must be 
resolved by both government and industry before any final decisions are 
made. This cannot work with unreasonable timelines or mandates;
    Third, whether we are dealing with names of interest under an 
eventual Secure Flight program, or the current Watch List system, 
action must be taken by the government to eliminate the unnecessary 
selection of passengers due to poorly maintained and poorly vetted 
lists. Names on any list should only be there with good and sufficient 
reason. Steps in this direction are currently underway, however, this 
process must be completed and institutionalized going forward; and 
finally, in order for Secure Flight to succeed, TSA must negotiate some 
extremely challenging privacy issues as it looks to developing 
information management as a tool against the threat of aviation 
terrorism: To assist the process, Congress should be clear as to 
precisely what privacy issues need to be addressed to fully protect 
legitimate passenger interests and yet still permit appropriate uses of 
data. On a related front, there must be a clear and effective 
resolution of international privacy concerns before implementation.
    As I said, we are cautiously optimistic about the potential for 
Secure Flight and see it as a vast improvement over the current Watch 
List protocols--from a security perspective, from a service perspective 
and from a privacy perspective. In our judgment, it warrants real 
support.
    Having said that, while we believe there could also be merit in a 
voluntary traveler identification program, we are not persuaded at this 
point of the merits of what has come to be called ``Registered Traveler 
(RT).'' The problem is fundamental--the TSA has never been able to 
provide a definition of program participation benefits. TSA remains 
ambivalent as to whether this should be a true security program or some 
type of passenger ``perk.'' In our judgment, to be successful, we need 
to know exactly what the program will provide participants. Those 
benefits must be interoperably available at all airports and it must be 
a true security program. Until it is known exactly what is intended, 
with specificity, it is not possible to quantify the value of an RT 
program--or, as a result, get any real understanding of the appropriate 
size of any investment in its development. Without this information, RT 
is a non-starter and warrants no further attention until these 
fundamental questions are answered.
    Finally, I would like to address the issues presented by the 
concept that has come to be known as APIS-60. For those not acquainted 
with this issue, it arises from a long-established legacy Customs and 
Immigration Advanced Passenger Information System program. Under that 
program, passenger passport data is batched and transmitted to the 
government within fifteen minutes of departure of U.S.--bound 
international flights, for vetting prior to arrival.
    In the post-9/11 world, DHS and others have expressed strong 
interest in receiving this data--which would be cross-checked with 
various watch lists--sixty minutes prior to a flight's departure. Since 
we first learned of the government's interest in such a program in 
March of 2004, we have been engaged in extended discussions, testing 
and exploration of the issue with DHS and its Customs and Border 
Protection experts.
    While in the interest of time, I will not detail the complexities 
of this issue, at an elementary level the problem is that the airlines 
typically do not have reliable passenger passport data until the 
passenger presents his or her documents at check-in. Uninformed or 
unrealistic demands for this information prior to departure could be 
exceptionally destructive.
    While many international travelers do arrive two hours or more in 
advance of a flight, late-arriving passengers, particularly connecting 
passengers, may not present themselves until minutes before departure. 
As a result an APIS-60 requirement would significantly impact industry 
operations and economics on a global scale, either through massive 
schedule inefficiencies or, more likely, by ``disconnecting'' 
passengers on a wholesale basis.
    Because of these functional realities we have looked for 
alternatives that will address both security and operational concerns. 
The most desirable approach, in our view, would be to develop a real-
time, interactive, ``go/no-go'' process that would permit passport data 
to be swiped and transmitted, and an answer provided on the spot--not 
unlike approval of a credit-card transaction. The Australian government 
utilizes a process along these lines for pre-approving passengers 
traveling to Australia from anywhere in the world. While, without 
question, the scale of travel to and from the United States is orders 
of magnitude larger, and a U.S. system would be significantly more 
complex, we believe this real-time approach would be infinitely more 
practical than any alternative. Should that prove unworkable, however, 
we believe that other alternatives should be explored including 
``rolling'' transmissions of APIS data as a flight builds to 
departure--leaving only a modest percentage of passengers for last-
minute clearance or, conceivably, an earlier collection of APIS data. 
We recently advised Secretary Chertoff of our commitment to working 
with the department to develop a practicable solution and, we remain 
committed to this goal.
    In conclusion, I would like to emphasize three critical points:
    First, the airline industry's commitment to security is absolute--
we fully recognize that the security and safety of our operations must 
be unquestionable; at the same time, we are committed to the protection 
of our customers' legitimate privacy interests.
    Second, we recognize that, particularly with regard to security, 
Congress's recognition that aviation security is national security 
necessitates the government's integral involvement in our business. 
This in turn, necessitates our common reliance on strong professional 
leadership that understands the imperative for fully integrating 
security into the complex, but essential, provision of air 
transportation. Fortunately, with the leadership team in place at the 
Department of Homeland Security and the anticipated return of Mr. 
Hawley to direct TSA, we have the administration?s leadership team 
uniquely well-positioned and;
    Third and finally, we urge this committee, working with the full 
Congress and the administration, to push aggressively to streamline, 
simplify and consolidate the multiple, diverse--but heretofore 
uncoordinated--programs requiring collection of passenger information 
to facilitate one or another security goal. These programs must be 
harmonized in order to best leverage the available information and 
investment, and they may also warrant consideration of a review of 
Privacy Act restrictions to be certain they provide an appropriate 
framework for dealing with post-9/11 privacy and security issues.
    Thank you for the opportunity to appear before you today. I will be 
happy to respond to questions.

    Mr. Lungren. Thank you, Mr. May.
    The Chair would now recognize Mr. Paul Rosenzweig, the 
senior legal research fellow at the Heritage Foundation, for 
his testimony.

  STATEMENT OF PAUL ROSENZWEIG, SENIOR LEGAL RESEARCH FELLOW, 
             CENTER FOR LEGAL AND JUDICIAL STUDIES

    Mr. Rosenzweig. Thank you very much, Mr. Chairman, and 
thank you for the invitation to appear.
    As a lookout, I should note at the beginning that I also 
serve on the Department of Homeland Security's Data Privacy and 
Integrity Advisory Committee, but nothing I say here is that 
Committee's view. I speak for myself only.
    I would like to step back a minute and reflect where we 
were 20 years ago. Twenty years ago, you could get on a shuttle 
flight to New York from Washington and fly without showing any 
identification and pay cash. You could fly anonymously, 
essentially. I think it is impossible to imagine returning to 
that system for obvious national security reasons, and aviation 
is, as Mr. May said, part of national security.
    So the bottom line is we need to identify people who fly, 
and we do that today. The question is whether or not we are 
doing it the right way and whether or not we can do it better. 
Today, I would submit we are doing it in a way that is no 
longer terribly effective. We have a CAPPS I system that uses 
behavioral rules that, as the chairman said in his opening, are 
fairly well known outside of TSA and thus fairly ineffective 
and fairly easy to avoid. And we have a no-fly list watch 
matching system that, as Mr. Anderson's experience shows, is 
ineffective and catches the wrong people.
    Why does the current system not work? Well, first, because 
of national security concerns, we cannot share the full TSC 
watch list with the airlines who are currently responsible for 
doing the matching. Second, each airline administers the watch 
list differently, and so there is no single common standard for 
defining what is in fact a watch list match.
    Third, each airline uses different automated matching 
programs, they use different computer programs and different 
systems. So there is actually a high variability in who gets 
matched. Who gets matched at Delta may indeed be different than 
who gets matched at American, and certainly amongst the smaller 
airlines.
    And, finally, because the lists are administered in the end 
by the airlines, there is no single system or standard list of 
cleared passengers so that they cannot propagate the list of 
clearances--like the clearance for Mr. Anderson--cannot 
propagate out to the airlines effectively.
    The current system that we have in place of the no-fly list 
is inefficient, both because it inconveniences innocent 
travelers like Mr. Anderson but also because it is a waste of 
resources. Every time we spend time clearing Mr. Anderson again 
or subjecting someone in his situation to additional secondary 
screening, we are wasting time and money of TSA screeners that 
ought to be directed at those who are truly ambiguous on 
potential threats.
    Thus, I think that the testing program that we are 
undertaking now to see whether or not a more refined watch list 
can be used is the right way to go. Preliminary results are at 
least suggestive of success. With the addition of a simple date 
of birth field, it is estimated that we can reduce the number 
of matches on the watch list by roughly 60 percent. If that is 
true, if that actually proves to the be the case, that would be 
a huge success. It would reduce from roughly 35,000 to 14,000 a 
day the number of people who are in this close match list, not 
secondary screenings but for people who are really people of 
interest. And if we can do that, that would be a great thing.
    Now, the system is obviously undergoing testing. We have 
not determined yet whether or not this proof of concept can be 
implemented in a broader range, addressing 1.8 million 
passengers per day, and we also need to get right issues like 
Privacy Act notice disclosures, like Mr. Thompson mentioned, 
and a fully integrated redress procedure so that when Mr. 
Anderson goes through the process once and gets cleared, that 
should be the end of it.
    We need to develop the technological system of tethering 
information back to its original source so that when the 
correction is entered, Mr. Anderson, with the addition of his 
date of birth or some other uniquely identifying number, 
becomes a cleared person who can sail through without any 
additional clearing.
    That is technologically possible, I believe, and it is 
ahead of us. Are we there yet? I do not think so. But is the 
Secure Flight Program a promising alternative to our current 
system, which I think everyone agrees is only somewhat 
functional? Absolutely.
    So I commend the committee for its attention to the 
program, and I commend it for staying on top of TSA in 
monitoring its implementation of the program as we go through 
testing.
    Thank you very much, Mr. Chairman.
    [The statement of Mr. Rosenzweig follows:]

                  Prepared Statement of Paul Rosenweig

                        The Heritage Foundation

    Good morning Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to testify before you today on the challenge of 
maintaining the balance between security and constitutionally protected 
freedoms inherent in responding to the threat of terror, in the 
particular context of the Transportation Security Administration's 
(TSA's) proposed Secure Flight system.
    For the record, I am a Senior Legal Research Fellow in the Center 
for Legal and Judicial Studies at The Heritage Foundation, a 
nonpartisan research and educational organization. I am also an Adjunct 
Professor of Law at George Mason University where I teach Criminal 
Procedure and an advanced seminar on White Collar and Corporate Crime 
and I serve on the Editorial Board of the Journal of National Security 
Law and Policy.
    I am a graduate of the University of Chicago Law School and a 
former law clerk to Judge R. Lanier Anderson of the U.S. Court of 
Appeals for the Eleventh Circuit. For much of the first 13 years of my 
career I served as a prosecutor in the Department of Justice and 
elsewhere, prosecuting white-collar offenses. During the two years 
immediately prior to joining The Heritage Foundation, I was in private 
practice representing principally white-collar criminal defendants. I 
have been a Senior Fellow at The Heritage Foundation since April 2002.
    I should also note that I serve as Chairman of the Department of 
Homeland Security's Data Privacy and Integrity Advisory Committee. This 
group is constituted to advise the Secretary and the DHS Chief Privacy 
Officer on programmatic, policy, operational, administrative, and 
technological issues within DHS that affect individual privacy, as well 
as data integrity, data interoperabilty and other privacy-related 
issues.
    Nothing in my testimony, oral or written, reflects the views of the 
Privacy Advisory Committee or any other member of the Committee. My own 
views, however, are certainly informed by my service on that Committee 
and the information I learn there. We heard testimony earlier this 
month, for example, at a hearing in Boston, about many of the 
Department's screening programs, including Secure Flight.
    More broadly, my perspective on the question before you is that of 
a lawyer and a prosecutor with a law enforcement background, not that 
of technologist or an intelligence officer/ analyst. I should hasten to 
add that much of my testimony today is based upon a series of papers I 
have written (or co-authored) on various aspects of this topic and 
testimony I have given before other bodies in Congress, all of which 
are available at The Heritage Foundation website (www.heritage.org). 
For any who might have read portions of my earlier work, I apologize 
for the familiarity that with attend this testimony. Repeating myself 
does have the virtue of maintaining consistency--I can only hope that 
any familiarity with my earlier work on the subject does not breed 
contempt.
    In this testimony, I want to do four things: summarize the history 
of the Secure Flight program; discuss the anticipated utility of Secure 
Flight and the most controversial aspect of its architecture, the 
possible use of commercial data to verify identity; discuss privacy 
impact compliance as a necessary condition for implementation; and 
finally, discuss the question of redress.

I. A Bit of History
    One common critique offered by skeptics of new initiatives to 
combat terrorism is the concern that advances in information technology 
will unreasonably erode the privacy and anonymity to which American 
citizens are entitled. They fear, in effect, the creation of an 
``electronic dossier'' on every American. Attention to this issue has 
particularly focused on TSA's proposal to use an enhanced information 
technology program to screen airplane passengers. That program, known 
as Secure Flight, is intended to identify every passenger to determine 
his or her presence on a watch list for screening or to be denied 
access to the plane.
    Since September 11th the aviation industry has undergone many 
changes to strengthen airport security. The TSA was created and placed 
in charge of passenger and baggage screeners (who are now federal 
employees). It has been using explosives detection systems on 90 
percent of checked baggage and substantially expanded the Federal Air 
Marshal Service. However, little has been done to determine whether a 
person seeking to board an aircraft belongs to a terrorist organization 
or otherwise poses a threat. In order to meet this objective, the 
Transportation Security Administration is developing the Secure Flight.
    Most of the changes made in airport security have focused on 
looking for potential weapons (better examination of luggage, more 
alert screeners) and creating obstacles to the use of a weapon on an 
aircraft (reinforced cockpit doors, armed pilots, etc). A computer-
aided system would improve the TSA's ability to assess the risk a 
passenger may pose to air safety.
    CAPPS I: The original, limited CAPPS I system was first deployed in 
1996 by Northwest Airlines. Other airlines began to use CAPPS I in 
1998, as recommended by the White House Commission on Aviation Safety 
and Security (also known as the Gore Commission).\1\ In 1999, 
responding to public criticism, the FAA limited the use of CAPPS I--
using it only to determine risk assessments for checked luggage 
screening. In other words, between 1999 and September 2001 CAPPS I 
information was not used as a basis for subjecting passengers to 
personal searches and questioning--only for screening checked bags. As 
a consequence even if CAPPS I flagged a high-risk passenger he could 
not be singled out for more intensive searches.
---------------------------------------------------------------------------
    \1\ See White House Commission on Aviation Safety and Security 
(Feb. 12, 1997) (avaiable at http/ /www.airportnet.org/depts/reguatory/
gorefinaL.htm).
---------------------------------------------------------------------------
    After September 11 CAPPS I returned to its original conception and 
is now again used to screen all passengers along with their carry-on 
and checked luggage. However, the criteria used to select passengers, 
such as last-minute reservations, cash payment, and short trips are 
over inclusive. This is a very crude form of pattern-recognition 
analysis. So crude that it can flag up to 50% of passengers in some 
instances, mainly in short haul markets.\2\ These criteria are also 
widely known and thus readily avoided by any concerted terrorist, 
effort. Nor does CAPPS I attempt to determine whether or not the 
federal government has information that may connect a specific 
perspective passenger with terrorism or criminal activity that may 
indicate they are a threat to the flight. And it is costly--I've heard 
informal estimates as high as $150 million per year for domestic 
airlines to operate the system. As a result, we are wasting resources: 
it's likely that if Osama bin Laden tried to board a plane today CAPPS 
I would not identify him for arrest or further inspection.\3\
---------------------------------------------------------------------------
    \2\ See Robert W. Poole, Jr. & George Passatino, ``A Risk-Based 
Aiort Security Policy'' Reason Public Policy Institute at 11 (May 
2003).
    \3\ It has been reported that the CAPPS I system was partially 
effective, flagging nine of the 19 September 11 terrorists for 
additional screening. See National Commission on Terrorist Attacks Upon 
the United States, ``The Aviation Security System and the 9/11 Attacks: 
Staff Statement No.3'' (Jan. 27, 2004) (available at http://www.9-
11commssion.gov/hearings/hearig7 /staff statement 3.pdf]); see also 
Sara Goo and Dan Eggen, ``9/11 Hijackers Used Mace and Knives,Panel 
Reports,'' Wa. Post at A1 (Jan. 28,2004) (summarizing report). To the 
extent that is true it emphasizes both that some form of screening can 
be effective, that the limitation to bag-only screening was unwise, and 
that however effective electronic screening might be, the human element 
will always be a factor in insuring the success of any system.
---------------------------------------------------------------------------
    The Current System: In the immediate aftermath of September 11 it 
quickly became obvious that the failure to make any matching effort was 
problematic. The existing watch lists were disjointed and inconsistent 
and could not be effectively shared with airlines (for fear of 
disclosing sensitive or confidential national security information). 
But some watch list matching was, rightly, deemed necessary.
    To meet that perceived need the Administration took two steps. 
First, it created the Terrorist Screening Center in an effort to 
consolidate and coordinate the multiple government-wide watch lists. 
Second, the Administration created a system whereby watch list names 
were shared with individual airlines for them to match against their 
own customer lists.
    This current system is problematic for several reasons:
        <bullet> Most saliently, because of the national security 
        sensitivity of the watch lists only a portion of the lists can 
        be shared;
        <bullet> Because each airline administers the watch list 
        matching differently, there is no single common standard for 
        defining a watch list ``match'';
        <bullet> Because each airline uses different automated matching 
        programs, there is a high variability in the matching 
        operational methodology; and
        <bullet> Because of differing programs and standards a list of 
        ``cleared'' passengers who are on the watch list cannot be 
        readily propagated throughout the system (no doubt the cause, 
        for example, of Senator Kennedy's persistent screening).
    Recognizing the inadequacy of the system and the waste of resources 
that attends the disutility of screening those who do not need to be 
screened, TSA began developing potential replacement systems. In the 
post-9/11 world the question is not really whether we will watch list 
match, but how best to do it.
    CAPPS II Proposed: The TSA reasonably believes that screening what 
a passenger is carrying is only part of the equation and began 
developing CAPPS II as a successor to CAPPS I in order to determine 
whether the individual poses a threat to aviation security. CAPPS II 
was intended to use government intelligence and law enforcement 
information in order to assign risk levels to passengers based on real 
information not arbitrary models. The TSA would then be able to devote 
more of its resources to those with a higher score (indicating they 
pose a greater risk), than those deemed to be a lesser concern 
(although some degree of randomness will need to be retained).
    In January 2003, TSA released a Privacy Act notice for CAPPS II, 
the successor to CAPPS I.\4\ Many critics raised substantial concerns. 
Some thought that CAPPS II, as originally proposed, was too broad in 
scope and could infringe on passengers' privacy. Others were concerned 
that the government should not rely on potentially flawed commercial 
data to prevent individuals from traveling by air. Some asserted that 
the use of knowledge discovery technologies on a wide variety of 
personal data could pose privacy and civil liberty violations. Finally, 
many wondered if individuals would be able to challenge their score.
---------------------------------------------------------------------------
    \4\ See 68 Fed. Reg. 2101 (Jan. 15,2003).
---------------------------------------------------------------------------
    In August 2003, TSA made available an Interim Final Privacy Notice 
on CAPPS II, which included substantial modifications to the initial 
proposal based on many of the concerns voiced in response to the first 
Privacy Notice.\5\
---------------------------------------------------------------------------
    \5\ See 68 Fed. Reg. 45265 (Aug. 1,2003).
---------------------------------------------------------------------------
    Under the Interim Notice, TSA would not keep any significant amount 
of information after the completion of a passenger's itinerary. 
Furthermore, TSA promised to delete all records of travel for U.S. 
citizens and lawful permanent residents a certain number of days after 
the safe completion of the passenger's travels (7 days is the current 
anticipation). TSA also committed to developing a mechanism by which a 
passenger targeted for more thorough screening can seek to set the 
record straight if they think they have been identified in error.
    More importantly, the CAPPS II system addressed privacy concerns by 
severely limiting the types of private information collected and the 
way in which commercial data will be examined. The proposed CAPPS II 
system would have accessed only a ``passenger name record'' (PNR), 
which includes information collected at the time the passenger makes 
the reservations, prior to the flight. Selected PNR information 
(including name, address, date of birth, and telephone number) was to 
be transmitted to commercial data providers for the sole purpose of 
authenticating the passenger's identity. This process would be similar 
to the credit card application procedure used to check for fraudulent 
information.
    Secure Flight--In 2004, TSA again modified its pre-screening 
program, now renaming it Secure Flight. According to a Privacy Impact 
Assessment and Systems of Records Notice published in September 2004, 
the principal difference between Secure Flight and CAPPS II was to 
further tighten the privacy protections and to split into two distinct 
pieces the operational components of the system.\6\ One part of the 
system would match PNR data to existing Terrorist (and other ``no-
fly'') watch lists. The second part would test whether the fidelity of 
PNR data (that is the clarity with which the data unambiguously 
identifies a single unique individual) could be enhanced through the 
use of commercial data bases.\7\ Consistent with those notices, and 
with the Congressional mandate to do SO,\8\ Secure Flight began a test 
of its system using historical data from June 2004 provided under order 
by the airlines.
---------------------------------------------------------------------------
    \6\ 69 Fed. Reg. 57345 (SORN, 57352) (PIA) (Sept. 24, 2004).
    \7\ A more detailed summary of the differences between CAPPS II and 
Secure Flight can be found in GAO, Secure Flight Development and 
Testing Under Way but Risks Should Be Managed as System is Further 
Developed, at Table 3 (GAO-05-356, March 2005).
    \8\ In the Intelligence Reform and Terrorism Prevention Act of 
2004, Congress mandated testing of a passenger pre-screenig program. 
See IRTPA, Pub. L. No. 108-458, Sec. 4012, 118 Stat. screening 
3638,3714-19 (2004) (TSA directed to ``commence testing of an advanced 
passenger prescreening system. . .utilizing all appropriate records in 
the consolidated and integrated terrorist watchlist maintained by the 
Federal Government'').
---------------------------------------------------------------------------
    The results of this testing have not yet been fully disclosed. In 
public remarks, however, TSA representatives have stated that the watch 
list matching portion of the project appears to have worked well, both 
in effectively matching PNR data with watch list information and in 
stress testing to demonstrate that the system is capable of handling 
the volume of inquires anticipated.
    The best estimate is that after automated clearances, carriers 
operating independently have approximately a 2% ``close'' match rate--
that is a rate that requires further inquiry and human intervention. 
This means that, on average there are 35,000 matches per day (assuming 
an average of 1.8 million travelers each day. Preliminary results 
suggest that with an ``in-house'' matching system run by TSA and with 
the addition of only the date of birth of an individual, this close 
match rate can be reduced by 60% to 0.8% of the travelling public--an 
average of 14,000 matches each day. If so, this will be a substantial 
improvement--and the use of commercial data has the potential to drive 
the number even lower, though testing is still ongoing.
    Controversy has arisen regarding the program in the past few weeks, 
however, concerning its compliance with the original System of Records 
Notice (SORN) published in the Federal Register. The deviation was 
sufficiently great that TSA recently amended the notice of the scope of 
the system of records. In the original SORN \9\ the system included 
only PNRs; information from the Terrorist Screening Center (TSC); 
authentication scores and codes from commercial data providers; and the 
results of comparisons between individuals identified in PNRs and the 
TSC watch list. The revised SORN,\10\ issued last week, adds two new 
categories of information held in the system of records:
---------------------------------------------------------------------------
    \9\ 69 Fed. Reg. 57345 (Sept. 24, 2004).
    \10\ 70 Fed. Reg. 36319 (June 22, 2005).
---------------------------------------------------------------------------
        PNRs that were enhanced with certain information obtained from 
        commercial data--full name, address, date of birth, gender--and 
        that were provided to TSA for purposes of testing the Secure 
        Flight program; [and]
    Commercial data purchased and held by a TSA contractor for purpose 
of comparing such data with June 2004 PNRs and testing the Secure Flght 
program.
    The Privacy Officer has announced an investigation of Secure Flight 
to examine whether the actions which necessitated the modification of 
the SORN constituted a violation of Departmental privacy polices or 
law.

II. Secure Flight and Commercial Data
    Why Secure Flight?--The Secure Flight program poses some 
interesting and challenging problems in adapting the law to new 
technology and the realities of new technology to the law. First, if 
Secure Flight is to be effective its hallmark will be the idea that 
some form of ``result'' will necessarily be immediately available to 
TSA screeners on a ``real-time'' basis so that they can make near-
instantaneous decisions regarding whom to screen or not screen prior to 
allowing passengers to board the aircraft. If Secure Flight were 
designed so that detailed personal information on each passenger were 
transmitted to every TSA screener, all would agree that the 
architecture of the system did not adequately protect individual 
privacy. The analysis passed by the Secure Flight system to TSA 
employees at the airport must be (and under current testing plans, will 
be) limited to a reported color code--red, yellow or green--and should 
not generally identify the basis for the assignment of the code.
    Thus, Secure Flight proposes to precisely reverse the privacy 
protection equation being developed in other contexts. To protect 
privacy, other information technology program disaggregate analysis 
from identity by making the data available to the analyst while 
concealing the identity of the subject of the inquiry unless and until 
disclosure is warranted. In the reverse of this paradigm, Secure Flight 
will disclose the identity of the potential threat (through a red/
yellow/green system displayed to the screener, warning of a particular 
individual) but will conceal from the screener the data underlying the 
analysis--at least until such tie as a determination is made that the 
two pieces of information should be combined. The privacy protection 
built into Secure Flight is therefore the mirror image of the more 
common system. It is by no means clear which method of protecting 
privacy is ex ante preferable--but it is clear that the two systems 
operate differently and if we are to have any sort of Secure Flight 
system at all, it can only have privacy protections of the second kind.
    Nor is Secure Flight necessarily a decrease in privacy. Rather, it 
requires trade-offs in different types of privacy. It substitutes one 
privacy intrusion (into electronic data) for another privacy intrusion 
(the physical intrusiveness of body searches at airports). It will 
allow us to target screening resources, while actually reducing the 
number of intrusive searches: Currently 14% of the traveling public are 
subject to some form of secondary screening. Secure Flight may reduce 
that to as low as 4% selected for additional screening.\11\ More 
importantly, Secure Flight will also have the salutary effect of 
reducing the need for random searches and eliminate the temptation for 
screeners to use objectionable characteristics of race, religion, or 
national origin as a proxy for threat indicators.\12\ For many 
Americans, the price of a little less electronic privacy might not be 
too great if it resulted in a little more physical privacy, fewer 
random searches, and a reduction in invidious racial profiling.
---------------------------------------------------------------------------
    \11\ See Transcript of Media Roundtable with DHS Under Secretary 
Asa Hutchison (Feb. 12, 2004) (available at www.tsa.gov).
    \12\ Some purely random searches will need to be retained in order 
to maintain the integrity of the inspection system and defeat so-called 
``Carnival Booth'' attacks (named after a student algorithm proposing a 
method of defeating CAPPS). Adding a random factor to the inspection 
regime answers the problem. See Samidh Chakrabati & Aaron Strauss, 
``Carnival Booth: An Algorithm for Defeating the Computer-assisted 
Passenger Screening,'' (available at http://www.swiss.ai.mit.edu/6805/
student-papers/sprig02-papers/caps.htm) (describing program); KA. 
Taipale, ''Data Mining and Domestic Security,'' 5 CoOlum. Sci. & Tech. 
L. Rev. 2, at n.285 (2003) (explaining how addition of random screening 
guards against such attacks).
---------------------------------------------------------------------------
    Finally, and perhaps most saliently, Secure Flight is a useful idea 
because it will allow us to focus scarce resources. One of the truly 
significant improvements in homeland security has come from the use of 
risk assessment and risk management techniques to identify salient 
threats and vulnerabilties and target resources (like inspectors) at 
those situations where the threats and vulnerability are greatest. 
Thus, rather than attempt fruitlessly to search every container 
entering the United States, we use information about the shipper, place 
of origin and other factors to select for inspection containers about 
which there is some ambiguity or concern. So, too, with Secure Flight--
we can envision the day when TSA inspectors (and other resources such 
as Air Marshals), are allocated in the way we think best addresses 
actual risks of harm, increasing the chances of catching terrorists and 
minimizing the unnecessary intrusion into people's lives at times and 
places where there is no risk at all. Should Congress have any concerns 
at all about the intrusiveness of individual screening it should, at a 
minimum, recognize the utility of enhanced risk assessment 
technology.\13\ To fail to do so would be even worse than our current 
system.
---------------------------------------------------------------------------
    \13\ Risk assessment need not be used only to identify particular 
individual activity. We could also imagine a world in which Secure 
Flight were used only to identify resource allocation methods--surging 
TSA resources, for example, to at-risk flghts or airports without 
particularly singling out an individual for distinct scrutiny.
---------------------------------------------------------------------------
    Which brings us to the final question of effectiveness. Of course, 
before full deployment, Secure Flight needs to demonstrate that it can 
work. It holds great promise--but promise is far different from 
reality. Thus, the ultimate efficacy of the technology developed is a 
vital antecedent question. If the technology proves not to work-if, for 
example, it produces 95 percent false positives in a test environment-
than all questions of implementation may be moot. For no one favors 
deploying a new technology--especially one that impinges on liberty--if 
it is ineffective. Thus, Congress is right to insist that Secure Flight 
be thoroughly tested. Conversely, we are unwise to reject it before 
knowing whether the effectiveness problem can be solved.
    Some critics are skeptical that Secure can ever work, 
characterizing it as the search Bayesian probability problems.\14\ That 
broad statistical criticism is rejected by researchers in the field who 
believe that because of the high correlation of data variables that are 
indicative of terrorist activity, a sufficient for a ``silver bullet'' 
that cannot function because of number of variables can be used in any 
model to create relational inferences and substantially reduce the 
incidence of false positives.\15\ And, in other environments, enhanced 
technology allowing the correlation of disparate databases and 
information has proven to have potentially significant positive uses. 
American troops in Iraq, for example, use the same sorts of link and 
pattern analysis, prediction algorithms and enhanced database 
technology that would form a part of Secure Flight to successfully 
track the guerrilla insurgency.\16\
---------------------------------------------------------------------------
    \14\ E.g. Jeffrey Rosen, The Naked Crowd 105-06 (Random House 
2004).
    \15\ See Remarks, David Jensen, ``Data Mining in the Private 
Sector,'' Center for Strategic and International Studies, July 23,2003; 
David Jensen, Matthew Rattigan, Hannah Blau, ``Information Awareness: A 
Prospective Technical Assessment,'' SIGKDD '03 (Augst 2003) (ACM 1-
58113-737-0/03/0008).
    \16\See AP, ``Computer-sleuthing aids troops in Iraq,'' (Dec. 
23,2003). Any who doubt that, in some form, enhanced information search 
technology can work need only contemplate the recent arrest of LaShawn 
Pettus-Brown, whose date identified hi as a fugitive when she 
``Googled'' him. See Dan Horn, ``Fugitive Done in by Savvy Date and 
Google,'' USA Today (Jan. 29,2004) (available at http://
www.usatoday.com/tech/news/2004-01-29-google-bustx.htm). Compare that 
with the pre-September 11 prohibition (eliminated by the new FBI 
guidelines) on the FBI's use of Google. See L. Gordon Crovitz, 
``<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8f1d6ded7f8fefaf1dfd7ce">[email&#160;protected]</a>,'' Wall St. J. (June 5, 2002). At some fundamental level 
the ultimate question is how to reconcile readily available technology 
in commercial and public use, with the broad governmental monopoly on 
the authorized use of force. Whatever the proper resolution, we cannot 
achieve it by hiding our heads in the sand and pretending that data 
integration technology does not exist.
---------------------------------------------------------------------------
    It is also important to realize that there may be potentially 
divergent definitions of ``effectiveness.'' Such a definition requires 
both an evaluation of the consequences of a false positive and an 
evaluation of the consequences of failing to implement the technology. 
If the consequences of a false positive are relatively modest (e.g. 
enhanced screening), and if the mechanisms to correct false positives 
are robust (as recommended below), then we might accept a higher false 
positive rate precisely because the consequences of failing to use 
Secure Flight technology (if it proves effective) could be so 
catastrophic. In other words, we might accept 1,000 false positives if 
the only consequence is heightened surveillance and the benefit gained 
is a 50 percent chance of preventing the next terrorist flight attack. 
The vital research question, as yet unanswered, is the actual utility 
of the system and the precise probabilities of its error rates.\17\
---------------------------------------------------------------------------
    \17\One final note--though privacy advocates are concerned about 
the false positives, the existence of an available system also may 
create civil tort liability for the failure to deploy. It is not 
fanciful to imagine tort suits against airlines that either do not 
implement Secure Flight or refuse to cooperate with TSA if by doing so 
they give rise to a false negative.
---------------------------------------------------------------------------
    Commercial Data--One part of the efficacy answer lies in the 
question of the use of commercial data to disambiguate and resolve 
identities. Clearly, it is plausible to believe that the incidence of 
false positives can be reduced by the use of commercial data. Credit 
granting institutions do it all the time. Thus, in theory, there ought 
to be no reason why reliance on commercial data to enhance efficacy 
should be ruled out of bounds.
    Indeed, if using commercial data works to reduce the unnecessary 
screening of correctly identified individuals it will have the salutary 
effect of enhancing privacy. We need, of course, to test this aspect of 
Secure Flight as well to insure that it works, but if it does and if it 
can be implemented in privacy-protective ways, then identity 
verification should be welcomed, not opposed
    The question then, is whether it can be done in a manner that is 
sufficiently privacy protective. The outlines for such a privacy-
protective system can be seen in the original SORN issued for the 
Secure Flight testing phase. Most notably, that SORN limited the Secure 
Flight system of records to authentication scores and codes provided by 
commercial data providers--in other words, the actual data that forms 
the basis for the authentication score would remain with the commercial 
database and not be transmitted to TSA.
    In my judgment, that system architecture strikes the right balance. 
It allows Secure Flight to take advantage of the commercial 
authentication methodology while minimizing the risk of governmental 
misuse of commercial data. It should be the cornerstone of a broader 
oversight structure to guard against abuse, which would include 
additional components along the following lines:
    Though the details would need, of course, to be further developed, 
the outline of such an oversight system might include some or all of 
the following components:
        <bullet> Secure Flight should be constructed to include an 
        audit trail so that its use and/ or abuse can be reviewed;
        <bullet> It should not be expanded beyond its current use in 
        identifying suspected terrorists and threats to national 
        security--it should not be used as a means, for example, of 
        identifying drug couriers or deadbeat dads; \18\
---------------------------------------------------------------------------
    \18\ Cf. William Stutz, ``Local Policing After the Terror,'' 111 
Yale L. J. 2137, 2183-84 (2002) (use of expanded surveillance authority 
to prosecute only terrorists and other serious offenses).
---------------------------------------------------------------------------
        <bullet> The program should sunset after a fixed period of 
        time, thereby ensuring adequate Congressional review;
        <bullet> Secure Flight authorization should have significant 
        civil and criminal penalties for abuse;
        <bullet> The ``algorithms'' used to screen for potential danger 
        must, necessarily, be maintained in secret, as their disclosure 
        would frustrate the purpose of Secure Flight. They must, 
        however, also be subject to appropriate congressional scrutiny 
        in a classified setting and, if necessary, independent 
        (possibly classified) technical scrutiny;
        <bullet> As outlined below, there must be an adequate redress 
        procedure in place;
        <bullet> Because commercial databases may contain errors, no 
        American should be totally denied a right to travel (i.e. red-
        carded) and subject to likely arrest as a suspected terrorist 
        solely on the basis of public, commercial data. An indication 
        of ambiguous identification and lack of authentication should 
        form the basis only for enhanced screening. Adverse 
        consequences of arrest or detention should only be based on 
        intelligence from non-commercial sources.
        <bullet> The No-Fly/Red Card designation, though initially made 
        as the product of a computer algorithm, should never 
        transmitted to the ``retail'' TSA screening system until it has 
        been reviewed and approved by an official of sufficiently high 
        authority within TSA to insure accountability for the 
        system.\19\
---------------------------------------------------------------------------
    \19\ This would mirror the view of the European Union which styles 
it as a ``right'' to have human checking of adverse automated 
decisions. The EU Directives may be found at http://www.dataprivacy.ie/
6aii-2.htm#15.
---------------------------------------------------------------------------
    In my view, the recent controversy over commercial data provides an 
important lens through which to view the Secure Flight program. 
Evidently (though, of course, the facts are not yet known) TSA needed 
to enhance PNR data with commercial data in order to resolve residual 
identification ambiguities. This suggests, albeit indirectly, that the 
thesis of Secure Flight--that PNR data alone is sufficient to allow it 
to function--may be untenable. For the enhanced PNRs would probably not 
have been sought had they not been necessary. It also raises the 
question of whether the system's chosen architecture is the best--or 
whether in light of the necessity for enhancing PNRs we might not 
prefer a decentralized system.
    But those questions are relatively technical in nature and, it 
seems, capable of resolution. The most significant aspect of the recent 
controversy is one of public perception. To that I now turn.

III. Compliance and the Privacy Act
    Most Americans recognize the need for enhanced aviation security. 
They are even willing to accept certain governmental intrusions as a 
necessary response to the new threats.
    But what they insist upon--and rightly so--is the development of 
systemic checks and balances to ensure that new authorities and powers 
given the government are not abused. And to achieve a suitable system 
of oversight, we need adequate transparency. We do not seek 
transparency of government functions for its own sake. Without need, 
transparency is little more than voyeurism. Rather, its ground is 
oversight--it enables us to limit the executive exercise of authority. 
Paradoxically, however, it also allows us to empower the executive; if 
we enhance transparency appropriately, we can also comfortably expand 
governmental authority, confident that our review of the use of that 
authority can prevent abuse. While accommodating the necessity of 
granting greater authority to the Executive branch, we must also demand 
that the executive accept greater review of its activities.
    In that spirit, the Privacy Impact Assessments and Systems of 
Records Notices published by institutional actors like TSA serve 
several important functions. They define the program, they provide the 
opportunity for notice and comment on the program by the public and, 
most significantly, they provide a metric against which to measure the 
program's implementation. Prior notice of governmental activity is the 
hallmark of accountability--it fixes in time and place the ground for 
decision making and prevents ex post justifications from being 
developed.
    Thus, we should be at least somewhat concerned by the recent 
revision of Secure Flights notice regarding the system of records being 
maintained. As I said earlier, the original SORN developed the right 
theoretical methodology for accessing commercial data for identify 
verification--maintaining the data in private hands and reporting the 
government only an authentication score. The most notable change 
identified in the new SORN issued last week is the breakdown in this 
screening methodology paradigm. To be sure, that change may prove to be 
a technical necessity--but if so, it is a change that ought to be 
publicly disclosed and debated before it is made. The fundamental 
premise of my analysis of Secure Flight (and indeed the analysis of all 
supporters and opponents) is that what is described in the TSA's 
privacy act notices is an accurate description of what is planned and 
what has happened. It undermines the transparency of the program and 
public confidence when that premise is proven wrong.

IV. Redress
    Finally, the subject matter of the Secure Flight system calls for 
heightened sensitivity to the potential for an infringement on 
protected constitutional liberties. While Secure Flight will not 
directly affect personal physical liberty which lies at the core of 
constitutional protections, it does implicate at least one fundamental 
liberty, interest guaranteed by the Constitution. Since the 1960s the 
Supreme Court has recognized a fundamental right to travel \20\--
indeed, one might reasonably say that one purpose of the Federal union 
was to insure the freedom of commerce and travel within the United 
States.
---------------------------------------------------------------------------
    \20\ Shapiro v. Thompson, 398 U.S. 618 (1969).
---------------------------------------------------------------------------
    Thus, there is a risk that a poorly designed system will 
unreasonably impinge upon a liberty. The risk of such impingement 
should not result in fundamental constitutional abandonment of the 
program--especially not in light of the potentially disastrous 
consequences of Type II error if there is another terrorist attack in 
the United States. However, we will need stringent oversight to provide 
the requisite safeguards for minimizing infringements of civil liberty 
in the first instance and correcting them as expeditiously as possible.
    Any appropriate redress mechanism will need to solve two inter-
related yet distinct problems. First, it will need to accurately and 
effectively identify false positives without creating false negatives 
in the process. For though we know that any watch list system will make 
mistakes by wrongly singling out an individual for adverse 
consequences, we also know that a watch list system may err by failing 
to correctly identify those against whom adverse consequences are 
warranted. And we also know that any redress mechanism must be as 
tamper-proof and spoof-proof as possible, for it is likely that those 
who are correctly placed on a terrorist watch list will use any redress 
process available to falsely establish that they should not be subject 
to enhanced scrutiny.
    Second, any redress mechanism must effectively implement the 
requisite corrective measures. Already we have seen situations in which 
acknowledged ``wrongly matched'' errors in watch list systems cannot be 
readily corrected because of the technologically unwieldy nature of the 
information systems at issue. Even when TSA has recognized that a given 
person (for example, Senator Edward Kennedy) is repeatedly wrongly 
matched to a ``no fly'' list entry, correction proves challenging as 
one cannot just remove the more ambiguous watch list entry.\21\ Thus, 
the legal, policy, and technological mechanisms must be built in to the 
watch listing system to allow for the effective handling of redress.
---------------------------------------------------------------------------
    \21\ See Sara Goo, ``Sen. Kennedy Flagged by No-Fly List,'' The 
Washington Post, August 20, 2004, p. A1. Others on the list, like 
Representative John Lewis, avoided secondary screening by including 
their middle initial. See Jeffrey McMurray, ``Rep. Lewis says his name 
is on terrorist watch list,'' Associated Press, August 20, 2004.
---------------------------------------------------------------------------
    Sadly, the limitations of this forum prevent me from providing you 
a detailed of exactly what a system answering these questions would 
look like. But my colleague Jeff Jonas and I have written in detail 
about this question.\22\ In short, we envision a system of third-party 
ombudsman-like review; initial administrative review; limitations on 
disclosure if necessary to accommodate national security concerns; a 
private cause of action to correct any permanent deprivation of 
liberty; and a system design requirement tethering and attributing 
information so that corrections propagate through the system rapidly. 
Our conclusion is that these questions are soluble--and that prior to 
full-scale implementation TSA must solve them.
---------------------------------------------------------------------------
    \22\ See Rosenzweig & Jonas, Correcting False Positives: Redress 
and the Watch List Conundrum, Legal Memorandum No. 17 (The Heritage 
Foundation, June 2005) (avaiable at http://www.heritage.org/Research/
HomelandDefense/lm17.cfm)
---------------------------------------------------------------------------
    In short, Secure Flight continues to have some significant issues 
that need to be addressed. But it also is a system of great promise. 
Failing to make the effort to use new technology wisely poses grave 
risks and is an irresponsible abdication of responsibility.
    As six former top-rankig professionals in America's security 
services recently observed, we face two problems-both a need for better 
analysis and, more critically, ``improved espionage, to provide the 
essential missing intelligence.'' In their view, while there was 
``certainly a lack of dot-connecting before September 11,'' the more 
critical failure was that ``[t]here were too few useful dots.'' \23\ 
Secure Flight technology can help to answer both of these needs. 
Indeed, resistance to new technology poses practical dangers. As the 
Congressional Joint Inquiry into the events of September 11 pointed out 
in noting systemic failures that played a role in the inability to 
prevent the terrorist attacks:
---------------------------------------------------------------------------
    \23\ Robert Bryant, John Hamre, John Lawn, John MacGaffin, Howard 
Shapiro & Jeffrey Smith, ``America Needs More Spies,'' The Economist, 
July 12, 2003, p. 30.
---------------------------------------------------------------------------
        4. Finding: While technology remains one of this nation's 
        greatest advantages, it has not been fully and most effectively 
        applied in support of U.S. counterterrorism efforts. Persistent 
        problems in this area included a lack of collaboration between 
        Intelligence Community agencies [and] a reluctance to develop 
        and implement new technical capabilities aggressively. . .  
        .\24\
---------------------------------------------------------------------------
    \24\ Report of the joint Inquiry Into the Terrorist Attacks of 
September 11, 2001, House Permanent Select Committee on Intelligence 
and Senate Select Committee on Intelligence, 107th Cong., 2nd Sess., S. 
Rept. No. 107-351 and H. Rept. No. 107-792, Dec. 2002, p. xvi 
(available at http://wwwjas.org/irp/congress/2002&--rpt/911 rept.p4f 
(emphasis supplied). The Joint Inquiry also critiqued the lack of 
adequate analytcal tools, id. Findings 5, and the lack of a single 
means of coordinatig disparate counterterrorism databases, id. Findigs 
9 & 10. Again, aspects of the CAPPS II program are intended to address 
these inadequacies and litations on the research program are 
inconsistent with the Joint Inquiry's findigs.
---------------------------------------------------------------------------
    Or, as one commentator has noted, the reflexive opposition to 
speculative research by some is ``downright un-American.'' \25\ Though 
Secure Flight technology might prove unavailing, the only certainty at 
this point is that no one knows. It would be particularly unfortunate 
if Congress opposed basic research without recognizing that in doing so 
it was demonstrating a ``lack [of] the essential American wilingness to 
take risks, to propose outlandish ideas and, on occasion, to fail.'' 
\26\ That flaw is the way to stifle bold and creative ideas--a ``play 
it safe'' mindset that, in the end, is a disservice to American 
interests.
---------------------------------------------------------------------------
    \25\ See David Ignatius, ``Back in the Safe Zone,'' The Washington 
Post, August 1, 2003, p. A19.
    \26\ Id.
---------------------------------------------------------------------------
    Mr. Chairan, thank you for the opportunity to testify before the 
Subcommittee. I look forward to answering any questions you might have.

    Mr. Lungren. Thank you for your testimony, Mr. Rosenzweig.
    The Chair would now recognize Mr. James Dempsey, the 
executive director of the Center for Democracy and Technology, 
for his testimony.

  STATEMENT OF JAMES DEMPSEY, EXECUTIVE DIRECTOR, CENTER FOR 
                    DEMOCRACY AND TECHNOLOGY

    Mr. Dempsey. Chairman Lungren, Chairman Cox, Mr. Thompson, 
members of the subcommittee, good morning. Thank you for the 
opportunity to testify today.
    Let me start, Mr. Chairman, with two basic points. First of 
all, in my view, we need a passenger pre-screening system. 
Passenger airlines remain a target of terrorists. Every day, 
1.5 to 1.8 million passengers board airplanes in the United 
States for domestic flights. It is infeasible to intensively 
scrutinize each of those passengers. To focus resources, it is 
necessary to make judgments about them before they reach the 
security checkpoint. Therefore, one element of the layered 
security system for air transport should be the pre-screening 
of passengers.
    Second, in developing a passenger screening system, privacy 
is not a luxury. By privacy, I really mean fair information 
practices. How much information is collected? Is it accurate? 
How is it used? With whom is it shared? How long is it kept? 
Answering these privacy questions is not a distraction from the 
task of preventing terrorist attacks.
    To the contrary, addressing these information collection 
and use issues is part of the process for designing an 
effective system, from a security standpoint, as well as from a 
privacy and public trust standpoint, because as Mr. Rosenzweig 
said, every minute airport screeners spend inconveniencing an 
innocent person is an opportunity for the terrorist to slip by 
undetected.
    Here is how I would do it. First, I would preserve the 
CAPPS I behavioral rules. I have changed my own opinion on 
this. I now no longer believe that CAPPS I is broken. CAPPS I, 
after all, correctly flagged 9 of the 19 September 11 
hijackers. At the time, that only meant that their luggage had 
to be checked and the individuals themselves were not subject 
to more scrutiny. But the behavioral rules of CAPPS, even 
though to some extent they have been publicly discussed, are 
flexible, they are useful enough and they should be continued.
    Moreover, I believe that CAPPS rules should continue to be 
administered by the airlines. While Section 4012 of the Intel 
Reform Act requires the government to bring in-house the 
process of matching passenger data with watch lists, TSA seemed 
to be suggesting in its latest Secure Flight notice that it 
might also assume full responsibility for administering the 
behavioral rules of CAPPS. If so, that would be a big change 
with major implications for privacy since the application of 
CAPPS rules require a lot more data, even more data than is in 
the passenger name record, and I just do not see either 
technically or from a public policy standpoint how the 
government could possibly take in that kind of data. So leave 
that with the airlines.
    Second, put on top of it the screening of passengers 
against the watch list, and that should be done by the 
government, not the airlines. That is what the 9/11 Commission 
recommended, and that is what Congress mandated last December 
in the Intel Reform Act.
    We have many data quality issues to resolve with those 
watch list and with the matching process, but if we have that 
list of suspected terrorists, we should use it to decide who 
deserves closer scrutiny.
    In my view, however, the passenger name record is not a 
good source of information for matching. It does not have what 
is needed, full name and date of birth, and it has too much 
irrelevant information. I believe, currently, in my view, the 
airlines should be required to collect and provide to the 
government or only what is necessary to make a reliable match.
    The problem with watch list matching is that the categories 
of information in the watch list do not match the categories of 
information in the PNR record, the passenger name record. So 
you are trying to match apples and oranges, and name alone of 
course is worse than worthless; it is harmful trying to match 
on name alone because you get far too many hits.
    So now the third question and the possible third element of 
a passenger pre-screening system is the use of commercial data. 
It may be useful, but so far we have not seen the evidence. I 
do wonder why TSA has been looking at using commercial data to 
augment PNR on millions of passengers a day when I think there 
may be better value from using commercial data at the TSC to 
augment the watch list data on the 200,000 or so people in the 
watch list to try to figure out can we figure out better 
identifying information on them.
    There is a lot of commendable work that TSA has done, and 
we clearly rely upon the screeners for our safety, and they 
have an extremely difficult job. TSA stumbled badly when its 
testing procedures departed from its privacy notices, but we 
must not let this controversy detract from the more important 
issues that remain, still unanswered, about how Secure Flight 
will work.
    It is on those questions of data collection and use that 
this committee and TSA and my organization should focus.
    I am committed to working with you, Mr. Chairman, and this 
subcommittee as well as with TSA to resolve those questions to 
develop a more effective passenger screening system.
    Thank you.
    [The statement of Mr. Dempsey follows:]

                 Prepared Statement of James X. Dempsey

    Chairman Lungren, Ranking Member Sanchez, Members of the 
Subcommittee, thank you for the opportunity to testify today.
    I am Executive Director of the Center for Democracy and Technology. 
CDT is a non-profit, public interest organization dedicated to 
promoting civil liberties and democratic values for the digital age. I 
am also privileged to serve as an associate member of the Markle 
Foundation Task Force on National Security in the Information Age. The 
Markle Task Force, co-chaired by Zoe Baird and Jim Barksdale, is 
comprised of leading experts from the fields of national security, 
technology, and privacy, including CDT's President Jerry Berman. Its 
members have extensive experience in and out of government at the 
federal and state level, in both the legislative and executive 
branches, from the administrations of Presidents Carter, Reagan, George 
H.W. Bush, Clinton, and George W. Bush. The Task Force has published 
two reports, ``Protecting America's Freedom in the Information Age'' 
(2002) and ``Creating a Trusted Information Network for Homeland 
Security'' (2003), available at http://www.markletaskforce.org. The 
Task Force, which is continuing its work, has offered concrete 
recommendations for strengthening national security while protecting 
civil liberties by creating a decentralized network for sharing and 
analyzing information within a framework of accountability and 
oversight. This testimony is based in large part on recommendations the 
Task Force submitted to the Transportation Security Administration in 
February of this year.

I. Background and Summary of Conclusions
     Terrorists continue to target passenger airplanes. One element of 
a layered security system for air transport is the screening of 
passengers. Every day, over 1.5 million passengers board airplanes in 
the United States for domestic flights. It is infeasible to intensively 
scrutinize each of those passengers. To focus resources, it is 
necessary to make judgments about passengers before they reach the 
security checkpoint.
    The Transportation Security Administration (TSA) is testing a 
proposed passenger screening system named Secure Flight. The system is 
mandated by Section 4012 of the Intelligence Reform and Terrorism 
Prevention Act of 2004 (Pub. L. No. 108-458). It would implement a 
recommendation of the 9/11 Commission.
    Section 4012 of the Intelligence Reform Act requires TSA to 
``assume the performance of the passenger screening function of 
comparing passenger information to the automatic selectee and no fly 
lists and utilize all appropriate records in the consolidated and 
integrated terrorist watch list maintained by the Federal Government in 
performing that function.'' Section 4012 specifies that DHS must:
        <bullet> include a procedure to enable airline passengers who 
        are delayed or prohibited from boarding a flight because of the 
        system to appeal such determination and correct information in 
        the system;
        <bullet> ensure that databases that will be used to establish 
        identity of passengers will not produce a large number of false 
        positives;
        <bullet> establish an internal oversight board;
        <bullet> establish sufficient operational safeguards to reduce 
        the opportunities for abuse;
        <bullet> implement substantial security measures to protect 
        against unauthorized access;
        <bullet> adopt policies establishing effective oversight of the 
        use and operation of the system; and
        <bullet> ensure that there are no specific privacy concerns 
        with the technological architecture of the system.
    Section 4012 also requires the Secretary of Homeland Security, in 
consultation with the Terrorist Screening Center, to ``design and 
review, as necessary, guidelines, policies, and operating procedures 
for the collection, removal, and updating of data maintained, or to be 
maintained, in the no fly and automatic selectee lists.''
    In addition, section 522 of the fiscal year 2005 DHS Appropriations 
Act (Pub. L. No. 108-334), required the Government Accountability 
Office to assess 10 aspects of Secure Flight development and report to 
Congress, which GAO did in March of this year.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office, ``Aviation Security: 
Secure Flight Development and Testing Under Way, but Risks Should Be 
Managed as System Is Further Developed,'' March 2005, GAO-059-356.
---------------------------------------------------------------------------
    On September 24, 2004, even before the Intelligence Reform Act was 
adopted, but after the report of the 9/11 Commission was widely 
endorsed, the TSA released three documents that outlined plans for 
testing Secure Flight. As detailed in a Privacy Act Notice, Privacy 
Impact Assessment, and Emergency Clearance Request (collectively, the 
``September 2004 Notices''),\2\ Secure Flight would have three 
components:
---------------------------------------------------------------------------
    \2\ Notice to Establish System of Records, Docket No. TSA-2004-
19160, 69 Fed. Reg. 57345 (Sept. 24, 2004); Notice of Privacy Impact 
Assessment, Docket No. TSA-2004-19160, 69 Fed. Reg. 57352 (Sept. 24, 
2004); Notice of Emergency Clearance Request, Docket No. TSA-2004-
19160, 69 Fed. Reg. 57342 (Sept. 24, 2004).
---------------------------------------------------------------------------
        <bullet> collection from the airlines of identifying 
        information contained in the Passenger Name Records (PNRs) for 
        matching against the consolidated watch list of the FBI's 
        Terrorism Screening Center (TSC);
        <bullet> possible use of commercial databases of personally 
        identifiable information to verify the information provided in 
        the PNR; and
        <bullet> use of ``streamlined'' behavior rules drawn from the 
        current Computer Assisted Passenger Prescreening System (CAPPS 
        I), which uses behavioral factors such as purchase of a one-way 
        ticket to select passengers for enhanced scrutiny.
    While use of commercial data and continued use of CAPPS I rules 
were not required in Section 4012, they have remained part of the 
Secure Flight plan and test. Moreover, in regards to the use of 
commercial data, it is now clear that TSA is examining not merely its 
value to verify identity but also its value in augmenting PNR 
information to make a better watch list match. Furthermore, while 
Section 4012 requires the government to bring ``in-house'' the process 
of matching passenger data with watch lists, TSA seems to be saying in 
its latest Secure Flight notice that it will also assume full 
responsibility for administering the behavioral rules of CAPPS. If so, 
this is a big change, with major implications for privacy, since 
application of the CAPPS behavioral rules would require the government 
to access much more personal information than required for watch list 
matching.
    To test Secure Flight, TSA required airlines to turn over all 
Passenger Name Records (PNRs) from June 2004. TSA has been using this 
historical data to test the efficacy of its proposed system, including 
the possible use of commercial data, and to compare results under 
Secure Flight with results under the old CAPPS system. In general, 
passengers face no adverse consequences in the test phase, unless the 
search turns up a name on the watch list as having been on a flight 
last June, in which case the FBI will be notified. According to TSA, no 
such notification has been justified.
    There are several commendable elements of TSA's process in 
developing Secure Flight:
        <bullet> In response to congressional oversight and public 
        criticism, TSA fundamentally re-examined the previous proposal 
        for a new airline passenger security program, the second-
        generation Computer Assisted Passenger Prescreening System 
        (``CAPPS II'').
        <bullet> After issuing an opaque Privacy Act notice on CAPPS II 
        in January 2003, TSA took a more transparent approach, with 
        both the CAPPS II notice of August 2003 and the Secure Flight 
        notices of September 2004. This included the publication of a 
        Secure Flight Privacy Impact Assessment (PIA) before going 
        forward with the test phase, an important precedent within DHS 
        and for other agencies.
        <bullet> Before implementing a new passenger screening system, 
        TSA is conducting testing to determine what is most effective. 
        From the September 2004 Notices, it would appear that TSA has 
        not prejudged the outcome of the testing.
        <bullet> In its Secure Flight proposal, TSA appears to have 
        dropped some of the most troublesome aspects of CAPPS II, 
        including the probability-based review of all passengers based 
        on unidentified government data to determine each passenger's 
        ``risk'' score and the notion of using Secure Flight for 
        purposes other than enhancing the security of domestic flights 
        by identifying passengers who warrant further scrutiny prior to 
        boarding an aircraft based on possible terrorist connections.
    However, TSA stumbled badly when its testing procedures departed 
from the assurances it provided to Congress and the public in the 
September 2004 Notices. In particular, contrary to indications in the 
Notices, TSA and its contractors acquired and retained personal 
information from commercial databases, as TSA admitted in a revised 
notice issued earlier this month.\3\ This misstep has once again cast 
doubt on the credibility of the government.
---------------------------------------------------------------------------
    \3\ Notice to Supplement and Amend Existing System of Records and 
Privacy Impact Assessment, Docket No. TSA-2004-19166, ---- Fed. Reg. --
----(June 20, 2005).
---------------------------------------------------------------------------
    However, we must not let this controversy detract attention from 
much more important issues that remain unanswered about Secure Flight. 
Important efficacy, privacy and due process issues remain to be 
resolved before full implementation can begin. As the GAO found in its 
March 2005 report:
        <bullet> ``the effectiveness of Secure Flight in identifying 
        passengers who should undergo additional security scrutiny has 
        not yet been determined'' (p. 27);
        <bullet> ``the accuracy of commercial data is uncertain'' (p. 
        32);
        <bullet> ``key issues regarding how [PNR] data will be obtained 
        and transmitted have not yet been resolved'' (p. 29);
        <bullet> ``the ability of Secure Flight to make accurate 
        matches between passenger data and data contained in the 
        terrorist screening database is dependent on the quality of the 
        data [in the screening database]. . . .the accuracy of this 
        data has not been fully determined'' (p. 6).
    In particular, because expanded watch lists are the core of the 
proposed program, the fidelity, data quality and overall reliability of 
those watch lists will be very important. In June of this year, the 
Department of Justice Inspector General found that the Terrorist 
Screening Center could not ensure that the information in the watch 
list database was complete and accurate. The IG's report identifies a 
number of types of errors in TSC data.\4\ While TSA has begun to 
develop its own redress procedures, it should work with other agencies 
to develop standards for watch listing and redress mechanisms so 
passengers will have the ability to challenge a watch list entry or an 
erroneous watch list match. Proper resolution of those issues will be 
critical to the success of any air passenger screening system, in terms 
of both enhanced security and protection of civil liberties. The 
Intelligence Reform Act required the Executive branch to develop 
criteria and minimum standards for watch listing. As far as we know, 
those criteria and standards have not been developed.
---------------------------------------------------------------------------
    \4\ U.S. Department of Justice, Inspector General, ``Review of the 
Terrorist Screening Center,'' June 2005, Audit Report 05-27, at p. xi.
---------------------------------------------------------------------------
    Moreover, the controversy over collection of commercial data in the 
test phase of Secure Flight must not obscure more important questions: 
Where are the results of the test of matching June 2004 PNR data 
against the watch list and how will the lessons learned from the test 
affect implementation of Secure Flight? What has TSA learned from its 
test of commercial data, and what does it intend to do with commercial 
data if Secure Flight is permanently implemented? What has TSA 
determined is the best method for matching names? What is the quality 
of PNR data and what is the best way for the government to get the 
minimum amount of data to make reliable matches? These and other key 
questions should be the focus of Congressional and public oversight.

II. Watch Lists
    TSA has accepted--and Congress has mandated--the recommendation of 
the 9/11 Commission that airline passengers should be screened against 
terrorist watch lists and the government, not the airlines, should 
perform that such screening. Secure Flight should be an improvement 
over the current CAPPS, because the watch lists should offer a 
particularity of suspicion that behavioral rules cannot, and because it 
is not desirable to disclose the watch list to airlines. Despite these 
advantages, however, Secure Flight will only be as good as the watch 
lists on which it is based and the way in which they are searched. The 
watch list to be used by TSA is a subset of the consolidated watch list 
(known as the Terrorist Screening Database (TSDB)) managed by the FBI's 
Terrorist Screening Center (TSC).
    Watch list fidelity and data quality are critical to Secure 
Flight's success. ``Fidelity'' speaks to the robustness of entries: Do 
they contain enough information to resolve identity? ``Data quality'' 
refers to the accuracy, completeness and currency of the data. Related 
questions include: Are entries reviewed periodically for data quality? 
Has there been an evaluation of the reliability of criteria for 
designating individuals to the TSC watch list?
    There should be a focus across the intelligence community on 
improving the quality of watch list entries. We appreciate that TSA 
does not create terrorist watch lists, but rather is a consumer of 
them. Nonetheless, Secure Flight will be the first time that the TSDB 
is used regularly to screen a significant portion of the U.S. public, 
and TSA will receive the brunt of the criticism if the watch list 
produces a significant number of false positives. Accordingly, TSA 
should play a lead role in developing and refining watch list 
standards.
    Thus far, it is not clear whether there are adequate rules for 
watch list entries. While we understand the national security concerns 
associated with making public certain information about watch lists, we 
believe that, considering the critical importance of the watch listing 
process, the process and accountability measures associated with it 
should be publicly discussed.
    Section 4012(c) of the Intelligence Reform Act requires the 
Director of National Intelligence, in consultation with the Secretary 
of Homeland Security, the Attorney General and the Secretary of State, 
to report to Congress in June 2005 on the criteria for placing names on 
the watch list, the minimum standards for reliability and accuracy of 
identifying information, the degree of information certainty and the 
range of threat levels to be associated with an individual on the watch 
list, and the range of consequences that are to apply to an individual, 
if located. As far as we know, that report has not been submitted.
    It is clearly preferable that watch listing standards be 
government-wide. In the absence of government-wide standards, TSA has 
adopted its own internal standards as to what constitutes an 
``adequate'' watch list entry for purposes of Secure Flight. Such 
standards might include requirements like:
        <bullet> There should be minimum fidelity standards before a 
        watch list entry can be used. Each watch list entry used by TSA 
        should contain enough identifying information so that the 
        record can meaningfully be used for its intended purpose of 
        identifying an individual. For example, TSA may require 
        multiple data points, such as a first and last name as well as 
        another piece of identifying information, such as date of 
        birth. Name plus nationality or name plus gender is not enough.
        <bullet> Each watch list entry used by TSA should be reviewed 
        at least once a year by the agency that was responsible for its 
        nomination to the list, to ensure that that the record still 
        meets watch listing criteria and fidelity and data quality 
        standards.
        <bullet> To promote data quality and redress, each watch list 
        entry should be traceable to a specific transaction (i.e., 
        record) within the source agency, using an internal reference 
        number or some other means of ``tethering'' the data, so that 
        questions can be resolved and source system records can be 
        reconciled with watch listing system records.
    In addition, the use of any watch list for screening purposes 
depends on reliable match criteria. TSA should establish reliable 
matching criteria and should periodically reevaluate them.
    Finally, as indicated in Section 4012(c) of the Intelligence Reform 
Act, another aspect of watch listing concerns the seriousness of the 
threat posed by a watch-listed individual and the different types of 
consequences that a person may face as a result of being placed on a 
watch list. An individual on a watch list should face consequences 
appropriate to the threat that individual is believed to pose. More 
than 200,000 people are listed in the TSDB--ranging from those known 
with certainty to be members of a terrorist organization to those 
suspected of having some tie to terrorism. The current situation is 
very confusing. Each of the international terrorist names included in 
the TSC database is assigned one of 25 different codes that describe 
how a specific individual is associated with international terrorism. 
Each of the domestic terrorist records is assigned one of three codes, 
which the DOJ IG concluded do not provide an adequate description. In 
addition, all entries are marked with one of four levels of ``handling 
instructions,'' advising users what action to take when they encounter 
a watch listed person. On top of that, however, TSA draws a two-tiered 
distinction between ``no fly'' and ``selectee.'' As a matter of policy, 
these distinctions and their basis need to be clarified.

III. Collection of Passenger Name Records
    The Passenger Name Record (PNR) generated by airlines and 
reservation systems contains numerous pieces of information beyond the 
identifying information necessary to make a match for screening 
purposes, but, on the other hand, may not contain the data needed to 
make a reliable identification (e.g., the address and phone number on 
the PNR quite often is that of a travel agency, and date of birth is 
not included in the PNR). We understand that it would have been quite 
expensive for airlines to provide only certain PNR fields for the 
testing phase. Based, however, on the results of the test phase, TSA 
should determine exactly what data it needs to achieve the aviation 
security goal of Secure Flight. Then, if feasible, when Secure Flight 
is implemented permanently, TSA should collect from the airlines and 
reservations systems only those data elements that are necessary. One 
of the goals of the test phase should be to explore with the airlines 
and the reservations systems the feasibility of isolating and 
delivering to the government only those items of information for which 
the government has a justified need.
    If TSA requires airlines to collect any additional information that 
they do not currently collect, such as date of birth, TSA should ensure 
that passengers are given notice about the reasons for the new 
collection of information. Alerting passengers to the purpose for which 
their information will be gathered--telling them that it is for 
security purposes as opposed to, say, marketing uses--should give law-
abiding travelers an incentive to provide accurate information when 
booking air travel, enhancing privacy and effectiveness.
    Also, if TSA requires airlines and reservation agents to collect 
information they do not currently collect, the airlines and other 
ticketing agents should be prohibited from retaining and using that 
data for any other purpose. While TSA has promised that it will not be 
compiling travel dossiers on passengers, neither should the travel 
industry be able to turn a TSA security order into an opportunity to 
compile new categories of information on air travelers for the 
airlines' or travel agents' own use.
    TSA has announced that it intends to limit its retention of PNR 
data, but has not yet set specific retention periods. Once Secure 
Flight is implemented, TSA should not keep passenger data after a 
flight has safely completed its flight without incident, except that 
TSA may retain and disclose to the FBI and other relevant agencies the 
records of ``reds'' or no-flies who are not allowed to board and of 
``yellows'' or selectees who are identified based on a watch list match 
but allowed to board after a more intensive search. Also, TSA should be 
able to retain data with the consent of any passenger who has invoked 
the redress process. These retentions and disclosures, which would have 
a sound predicate in the form of the match to the watch list, should be 
documented and auditable. Of necessity, given the verification process 
that should occur for every red and yellow, the TSC would receive (and 
should be able to retain) a record of the hit.

IV. Use of Commercial Data
    Databases held by commercial entities contain a vast amount of data 
possibly relevant to screening activities, but they also pose 
challenges in terms of relevance and reliability. TSA and other 
policymakers, through a process with some transparency and outside 
input, need to make an assessment of what commercial data would be 
relevant to passenger screening. In the test phase, TSA has been 
exploring two potential uses of commercial data: (1) to augment PNR 
data with additional identifying information: and (2) to verify the 
identity of passengers. TSA should take a skeptical approach to the use 
of commercial data in the Secure Flight program, particularly regarding 
whether the identity scores provided by searching commercial data will 
significantly enhance TSA's certainty about passengers' identities.
    If TSA decides to use commercial data in connection with Secure 
Flight, it should be on the basis of a finding that the use of 
commercial data would give additional certainty about the identities of 
a substantial number of passengers or a more reliable watch list match. 
Some questions to be considered during testing include:
        <bullet> What minimum amount of information is required to even 
        test a person for a true identity likelihood score using 
        commercial databases?
        <bullet> How many people, when providing true identifying 
        information, fail to correlate with commercial databases? For 
        example, what percentage of people flying to, from or within 
        the United States will not have adequate information about them 
        in commercial databases to do identity verification?
        <bullet> How much reliability does the identity verification 
        process add?
        <bullet> Will identity verification work with individuals who 
        have privacy concerns and use a different address (e.g., PO 
        Box) than what appears on their driver's licenses, who 
        legitimately have multiple addresses and phone numbers or whose 
        addresses do not match because they use a different billing 
        address for their credit cards?
        <bullet> What consequences can flow from a poor ``identity'' 
        score (as opposed to a watch list match)? Will a poor identity 
        score in and of itself suggest a threat to aviation and trigger 
        secondary inspection?
    If TSA decides to use commercial data in Secure Flight, then a 
number of additional privacy protections will need to be implemented. 
First, TSA should clarify what passenger-provided information will be 
disclosed to commercial data aggregators. As explained above, passenger 
PNRs often provide sensitive and/or irrelevant information. TSA should 
not pass information on to commercial vendors without justification, 
and it should specify in advance which items of information it will be 
disclosing to the commercial aggregators.
    Second, TSA should, to the maximum extent possible, specify what 
commercial information its vendors will rely on for the passenger 
identity verification process. TSA has made clear that neither it nor 
its commercial vendors will use credit scores, but it has been silent 
on what information they would rely on. While there are national 
security concerns at stake, it may be possible to reveal what 
commercial data is being used. One approach to these kinds of issues is 
to require the commercial data aggregators who are government 
contractors to make available for free upon request (maybe just once a 
year) all data they have on an individual for review and correction, 
the same way they are required to under the Fair Credit Reporting Act. 
This is in keeping with the commercial data aggregator's interest in 
having accurate information. Alternatively, the TSA could be required 
to use aggregators that can guarantee reconciliation accuracy with 
their data source providers. The transparency into what is used would 
reveal sources such as public records, credit headers, phone books, 
driver's licenses, etc. In any case, the consumer should be able to 
request what information the TSA uses and its source, with instructions 
on how to remedy inaccuracies (at the source system). In this regard, 
providing travelers with notice and access to their data may increase 
the reliability and accuracy of the sources that TSA employs. TSA could 
include language in its contracts with commercial data vendors that 
provides for passenger access to and correction of that data directly 
or through the Passenger Advocate Office that TSA will establish.
    Third, TSA should make clear that commercial vendors will, by 
contract, be prohibited from retaining any airline passenger data other 
than minimum amounts of data for audit and accountability controls or 
using it for any purpose other than testing for Secure Flight.
    Finally, TSA should develop standards for assessing and verifying 
the accuracy of the commercial data on which it relies. TSA might base 
such standards on the answers to the following types of questions: (1) 
How often are the data updated? (2) How complete is the information? 
(3) How accurate is it? (4) How do the data sources protect against 
and/or mitigate the possibility of identity theft?

V. Redress and Oversight
    Redress and oversight are important aspects of any decision making 
process based on personally identifiable information. As TSA implements 
Secure Flight, redress will be a major issue.
    Major federal privacy laws offer sound models for Secure Flight 
redress procedures. As reflected in the Privacy Act, the Fair Credit 
Reporting Act, and other privacy laws, redress typically includes the 
following elements:
        <bullet> Notice of the fact of an adverse decision and of the 
        procedure for challenging it;
        <bullet> Access to the information on which the decision is 
        based;
        <bullet> An opportunity to correct erroneous information and an 
        obligation by the decision-maker to correct or delete 
        information that is erroneous, which is premised on the ability 
        to trace information to its source for verification;
        <bullet> Procedures for ensuring that erroneous information 
        does not re-enter the system;
        <bullet> Obligations on data furnishers to respond to requests 
        for reconsideration of data and to take corrective action when 
        justified; and
        <bullet> Independent administrative or judicial review and 
        enforcement.
    TSA has already committed to developing a ``robust review and 
appeals process'' to protect passengers' ability to seek redress where 
incorrect information or inferences cause them to be subjected to 
heightened scrutiny. As part of that process, TSA has indicated that it 
will create a Passenger Advocate Office, which will act on behalf of 
passengers and investigate complaints. The proposed Passenger Advocate 
is a desirable component of a passenger redress process, but TSA will 
need to flesh out the procedures that will govern the Passenger 
Advocate's review of passengers' complaints. It will be critical to the 
success of any new program that individuals have a meaningful process 
for challenging their ``yellow'' or ``red'' designations.
    As noted above, we believe that TSA should not keep data on cleared 
passengers after a flight is successfully completed. For the relatively 
small number of passengers who may complain due to being selected for 
whatever reason, TSA should be able to preserve data if a passenger 
makes a complaint at the airport at the time of screening.
    The Intelligence Reform Act requires TSA to establish a timely and 
fair process for individuals identified as a threat to appeal to TSA 
that determination and to correct any erroneous information. The 
process must include the establishment of a method by which TSA will be 
able to maintain a record of air passengers and other individuals who 
have been misidentified and have corrected erroneous information. To 
prevent repeated delays of misidentified passengers and other 
individuals, the TSA record shall contain information to authenticate 
the identity of such a passenger or individual.
    Particularly in the context of individuals who appear to be a risk 
because of a watch list match, TSA must work closely with TSC to ensure 
that people are not mistakenly flagged on a repeat basis. As we already 
have seen, there will be innocent individuals with the same or similar 
names as people on the watch list. Such mistakes must be investigated 
and rectified quickly so that the affected individuals are not 
repeatedly flagged and delayed. This will require TSA to work closely 
with TSC and various intelligence agencies.
    Passengers should have the ability to challenge the Passenger 
Advocate's decisions. First, passengers should be able to mount an 
administrative appeal within TSA or the Department of Homeland 
Security, perhaps to the Privacy Officer. Second, given that the right 
to travel is at stake, judicial review should also be available once 
administrative appeals are exhausted. In some cases, judicial review 
might require special ex parte procedures to deal with classified 
information, but such procedures have been successfully implemented in 
other contexts. See, e.g., Classified Information Procedures Act, 
Public Law 96-456.
    In addition to redress, TSA should implement other oversight 
mechanisms. Auditing should be an important part of the Secure Flight 
system. The DHS Inspector General, the Privacy Officer, and the Civil 
Rights and Civil Liberties Officer should jointly conduct an annual 
audit of the system's operations. Of necessity, the auditors should 
have security clearances enabling them to access all relevant 
information, including classified data. The auditors could conduct spot 
checks of actual screenings and retain some passenger records for the 
duration of the audit process as well as examine the aggregator' 
datasets. To the extent an audit report relies on classified 
information, portions of the report may need to remain classified, but 
much of the audit reports could be made public.
    TSA also should implement a real-time auditing function to monitor 
who accesses the system. TSA and TSC both must implement a documented 
information security program (to protect the data) and data governance 
models (to control access to the data and ensure access and 
modification are auditable). Such audit trials are crucial to prevent 
abuse and internal security breaches, ensuring that only authorized 
personnel are accessing the system and that they are using it only for 
authorized purposes.
    Other forms of independent oversight of Secure Flight are also 
essential to an effective privacy protection scheme. TSA should report 
annually and publicly to Congress, including (1) an explanation of the 
Secure Flight privacy policies; (2) a description of how those policies 
have been implemented; (3) a list of the types of passenger complaints 
that have been filed, with descriptions of how they have been resolved; 
(4) changes that TSA is making to minimize any identified problems; and 
(5) the ratio of hits, no hits, and disposition results to allow 
evaluation of the false positive counts. Other oversight mechanisms 
that TSA should consider are independent evaluations of the program by 
outside auditors and periodic consultations with privacy advocates.

VI. Scope
    Over the course of the evolution of CAPPS II and Secure Flight, 
there has been uncertainty about the mission that a passenger screening 
system should serve. In the spring of 2003, then-TSA Administrator 
Admiral James Loy assured Congress and the public that CAPPS II would 
be used only to identify foreign terrorists and prevent them from 
boarding airplanes, because foreign terrorists were the source of the 
threat to aviation security. Subsequently, TSA proposed broadening 
CAPPS II's purposes to include identification of domestic terrorists 
and those associated with domestic terrorist organizations as well as 
certain criminals and possibly immigration law violators.
    In the September 2004 Notices and in the June 2005 Notice, TSA 
refocused on the threat of terrorism. The task of creating an effective 
system to screen passengers against terrorist watch lists is so urgent 
and so challenging that it is preferable at this point for TSA not to 
pursue the additional and separate task of identifying other criminals 
not believed to pose a threat to aviation.
    Like CAPPS II, the proposal for Secure Flight includes not only 
foreign terrorists, but also members of domestic terrorist groups--
i.e., members of radical organizations like the KKK, anti-government 
militias, or certain radical environmental activists. It might be 
sensible to include domestic terrorists in Secure Flight if there is 
evidence that particular individuals or discrete groups pose a threat 
to civil aviation. In the absence of intelligence suggesting that 
particular individuals or groups are a threat, the expansion of Secure 
Flight into the realm of domestic terrorism raises a host of difficult 
issues that TSA appears not to have confronted. It could ultimately 
place TSA in the role of having to evaluate the political activities of 
Americans. The FBI's definition of who is a domestic terrorist has 
often been quite broad. In the absence of a specific threat, does the 
term ``domestic terrorist'' include all members of a environmental 
group, when a few of those members that have engaged in illegal acts 
and have been investigated by the FBI as domestic terrorist 
organizations? Does it include an anti-abortion activist who breaks the 
law by blocking access to abortion clinics or who may be 
organizationally or ideologically related to those who have killed 
doctors or committed arson at clinics, which some have called 
terrorism? Does it include protesters against the war in Iraq, whom the 
FBI interviewed in advance of the Republican National Convention?
    Furthermore, each added function puts further pressure on the 
system: more false positives, diversion of screener resources, loss of 
screener confidence in system results, and the risk of public 
disapproval. Accordingly, TSA should limit screening of passengers for 
associations with purely domestic terrorist organizations to those 
situations, if and when they arise, when information indicates that 
specific individuals or discrete groups pose a threat to civil 
aviation.

VII. Privacy Act
    The Privacy Act offers a sound framework for a number of issues 
posed by Secure Flight. In the September 2004 Notices, TSA proposed 
exempting the Secure Flight test data from various Privacy Act 
provisions. Moreover, TSA had indicated that it would invoke blanket 
exemptions for full implementation of CAPPS II.
    In the Notice issued last week, TSA announced that it would not 
pursue its Privacy Act exemptions. We commend this decision, and we 
urge that it be followed in the implementation of Secure Flight as 
well. TSA has always said that it plans to provide access to certain 
unclassified records such as PNR and the ability to correct them, as an 
important element of the integrity of the system. There seems to be, on 
the current record, no valid reason to take a exemption from the 
Privacy Act provisions on access and right to correct. If there are 
specific concerns that TSA has about application of the Privacy Act to 
Secure Flight in the implementation phase, it should identify them so 
they can be addressed based on a public dialogue.

Conclusion
    We firmly believe that a passenger screening system can be designed 
that that both enhances security and protects civil liberties. 
Developing sound privacy rules and sticking to them is crucial to the 
success of such a program. To facilitate public trust in the system 
that is eventually implemented, we encourage TSA to make public as much 
as possible about the results of Secure Flight testing and TSA's 
decisionmaking process. We look forward to working with TSA and the 
Congress.

    Mr. Lungren. Thank you very much, Mr. Dempsey.
    I thank all the witnesses on this panel for their 
testimony.
    At this time, I would yield myself 5 minutes to begin the 
questioning.
    To Mr. May, Mr. Rosenzweig and Mr. Dempsey, there has been 
a suggestion that CAPPS I ought to remain as it is. There seems 
to be some divergence of opinion with the three of you, but I 
will just ask you this question: We have had situations where 
people have been taken out for a secondary search that 
obviously do not belong there, and I keep harkening back to 
children, instances of 10-year-olds, 5-year-olds, 3-year-olds, 
2-year-olds being carried out.
    Every time I have asked the question of TSA, the answer is, 
``That is the airline's responsibility. If they see someone is 
under 12 years of age, they are not supposed to take them out 
of the secondary search.'' But it does not happen. And then it 
goes to the TSA people and they say, ``Well, since CAPPS I is 
not in our bailiwick, we cannot make that decision.'' Obviously 
when you see an infant in diapers, they are obviously under the 
12.
    That is my concern if you keep the CAPPS Program with the 
airlines. Who is on first? Who has got the responsibility? Is 
that a wrong conclusion on my part? How would you respond to 
that?
    Mr. Dempsey first.
    Mr. Dempsey. Well, Mr. Chairman, I would say that your 
facts are right but your conclusion I would probably disagree 
with, in that, yes, it results or appears to result in some 
ridiculous results, but I do not think the answer is to try to 
bring the administration of CAPPS behavioral rules into the 
government. The government sets the rules, it changes them from 
time to time based upon new information, it tries to refine 
them, it provides them to the airlines.
    As I understand it, application of CAPPS behavioral rules 
requires a lot of information--passenger name record 
information, frequent flier information, some historical data--
data that the government really cannot collect easily, cannot 
digest, cannot hold, would have a hard time. I think you might 
by bringing that in government produce a worse result, produce 
a gridlock.
    So I would say refine it, and it clearly needs to be 
refined, work with the airlines on those implementation 
questions, absolutely, but basically keep the current 
structure.
    Mr. Lungren. Mr. Rosenzweig?
    Mr. Rosenzweig. Well, as you will gather, I am somewhat 
more skeptical that the CAPPS I rules have a continued 
vitality. To the extent that they do, though, I would agree, I 
think, with Mr. Dempsey that they are better placed with the 
airlines. They are behavioral rules, and it is classified and 
so on, reading in the public record, but they are buying with 
cash, flying one way, and that is the type of personal behavior 
that is precisely the type of privacy-related material that we 
want to try if we can to keep out of governmental databases.
    So to the extent that we are talking not about factual 
record data, like a date of birth or a name that is a matter of 
public record that is okay, in my judgment, to take into a 
government database but rules about how often you fly, where 
you go frequently, whether you are paying cash or credit, that 
sort of thing. That would seem to me to raise more significant 
privacy concerns, and it would be better to be kept in the 
commercial data space rather than in the governmental data 
space.
    Mr. Lungren. Mr. May?
    Mr. May. Actually, Mr. Chairman, we think that CAPPS I, 
because it looks at behavioral activity, does present some 
opportunities down the road for continued good security. We do 
not think that the CAPPS Program, as it is currently crafted, 
all of the elements are necessarily as well done as they should 
be. At the end of the day, it has to be a government designed 
program we think we can continue to implement.
    But, remember, when we tag somebody for behavioral 
activity, it really then is up to the?what we are doing is we 
are making them a selectee, and they are going to be subject to 
additional scrutiny. I think what we are talking about today, 
Secure Flight, is an equally important part of the process, and 
I think that should, as Congress has said and others have said, 
be a function of TSA.
    I think to the extent it is improved upon and combined with 
some behavioral checks, I think it will be overall a much 
better system.
    Mr. Lungren. Let me just ask the three of you, and I do not 
mean to leave you out, Mr. Anderson, but the question of not 
having the proper information to do these checks, that is, you 
have got two different groups of characteristics, how much 
would it improve the systems that we are talking about here if 
you had in addition to the name the date of birth, and maybe 
even birthplace.
    Mr. Dempsey. It seems to be that the evidence is that 
adding date of birth for the watch list matching most watch 
list entries have at least name and date of birth, and so to 
make a match that is what you need, unless you can augment the 
watch list with additional data.
    Mr. Rosenzweig. There is every reason to think that 
something simple like that will work. The best analogy that I 
can think of that I have seen in the literature is by Dr. 
Latanya Sweeney of Carnegie Mellon who has demonstrated pretty 
effectively that zip code and date of birth uniquely identify 
about 97 percent of the people in the world--or in American, I 
should say, because she applied it in an American database. The 
only exceptions to that turn out to be collect campuses where 
there is a very high concentration of people with a very narrow 
birth range, all with the same zip code.
    So that suggests that name and date of birth, name, date of 
birth and zip code would be pretty darn close to effective in 
uniquely identifying each individual.
    Mr. Lungren. My time is up, but, Mr. May, on that, would 
that cause any considerable difficulty to the airlines to 
gather that information?
    Mr. May. I think that is doable, but what I would like to 
point out, Mr. Chairman, two things. One, TSA is not the only 
one that asks to collect information from the airlines. There 
are other parts of DHS that do that. Whatever system we have 
let's make sure it is standardized across the whole board.
    Mr. Lungren. I thank the gentlemen for their comments.
    The Chair now recognizes the Ranking Member of the full 
committee, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Following up on the questions, it is kind of related to Mr. 
Anderson's situation, but if I give those three forms of 
identification, under normal procedure, that would suffice for 
getting me off the list, am I correct?
    Mr. Rosenzweig. Provided that the list itself allows the 
clearance, the fact that you are cleared to propagate to all 
the users, which is one of the reasons to take it in-house at 
TSA, if we have hypothetically Mr. Anderson's name, date of 
birth and zip code, that uniquely identifies him, and if he is 
carrying something that has those three pieces of information 
on it, that should be a simple Google search-like click-through 
methodology. I mean, it is not technologically--
    Mr. Dicks. On what document do you have your zip code?
    Mr. Rosenzweig. Well, name and date of birth you have on 
your driver's license, and it is true that we do not normally 
carry zip codes. I offered that as a hypothetical additional 
one.
    Mr. Thompson. Well, I guess going forward to the next step, 
if I am picked up under Secure Flight, what redress will I have 
to get off the list?
    Mr. Dempsey?
    Mr. Dempsey. Well, that is one of the unanswered questions, 
okay? The TSA has not yet fully spelled out what its redress 
process will look like. It has said it knows it needs one, it 
needs to be robust, it needs to be effective, it needs to be 
user friendly. Getting from here to there requires some more 
work.
    I think there is apparently a John Anderson or somebody 
with a name like John Anderson on the watch list. You are never 
going to take John Anderson off the watch list. Presumably, he 
is on there correctly, although we do need to reverify and 
revet, I believe, on a yearly basis the names on the watch 
list.
    But the question is showing John Anderson but not this John 
Anderson, and that is where the additional forms of 
identification come in and some way to build into the system, 
and I do not think it is quite as easy as people have talked 
about so far, the ability to say, ``Stop all John Andersons 
except this John Anderson,'' and then every other John Anderson 
goes through the process.
    Mr. Thompson. What about the middle initial? I mean, that 
has got a get a few of them out of the list.
    Mr. Dempsey. Then you have to start collecting middle name 
on passengers, and you have to start having middle name or 
middle initial in the watch list.
    Mr. May. The point that was just made is critically 
important, Congressman. It is as important to have fully 
identified individuals on the watch list as it is to be able to 
check with the individual passengers.
    Mr. Dicks. So in other words, if you just have John 
Anderson on the watch list, then every John Anderson is in 
trouble, because they cannot distinguish between that and--
    Mr. May. Right. We need to--
    Mr. Dempsey. Well, and it is worse than that, Congressman, 
because it is possible they have J. Anderson, and when they 
search they are not going to only search for Anderson, S-O-N, 
but they are going to search for Andersen, S-E-N, and they may 
search for John and James and Jack and Johnny, and they may 
search for an Anderson with two As or Ss, et cetera. That is 
the way the searching of names works. That is why name search 
alone is so unreliable.
    Mr. Rosenzweig. Just to add a couple points, Mr. Dicks, I 
just checked, my driver's license actually has my zip code on 
it too.
    Mr. Dicks. It also has your social security number on it.
    Mr. Rosenzweig. Actually, in D.C., it does, yes. So it 
uniquely identifies me in several ways. But the point you 
asked, Mr. Thompson, is actually the hardest question, which is 
what process are we going to allow somebody to get off the 
list, the redress process. It is pretty easy for people like 
Mr. Anderson who are wrongly listed, who are not the John 
Anderson they mean.
    The tough question, the really hard question is, what if he 
is the guy that they meant but he contends he should not be on 
the list? There is a John Anderson that we have some suspicion 
about, presumably. What if that guy shows up and say, ``No, I 
am an innocent bricklayer from Terre Haute?
    How do we test it to allow--there has to be some 
adversarial process, clearly, but it cannot be a fully 
transparent process, because often the reason that John 
Anderson is on the list is because of some national security 
concern that cannot be fully disclosed. It is a very 
intractable problem.
    Mr. Thompson. I guess the other point is, do you think we 
are ready for the demonstration given what we are hearing here 
today?
    Mr. Dempsey. I do not think so.
    Mr. May. Congressmen, I do not know that we are ready for 
the demonstration, but I think it is only when you get to a 
demonstration and it is what it is, it is a demonstration, it 
is a test, that you begin to identify some of the problems that 
you are going to face in putting it out live, if you will. And 
so I think you need to go through that phase of it.
    I do not think TSA is ready right this minute, but I would 
hope they can become ready soon, recognizing that there are 
going to be some problems that show up that will have to be 
resolved. But it is only when you test it that you find that 
out for certain.
    Mr. Lungren. Gentleman's time has expired.
    The Chair would now recognize the chairman of the full 
committee, Mr. Cox, for 5 minutes.
    Mr. Cox. Thank you, Mr. Chairman.
    Thank you once again to all of our witnesses. This is a 
very important hearing, and I want to particularly thank a 
former colleague, Mr. Anderson, for coming and sharing your 
personal experience.
    I take it you have not flown since the Delta experience.
    Mr. Anderson. No, I have not.
    Mr. Cox. So you do not know what would happen if you tried 
to do this again.
    Mr. Anderson. I do not.
    Mr. Dicks. They just told him.
    [Laughter.]
    Mr. Cox. Mr. Rosenzweig, you pointed out in your testimony 
that each airline administers the watch list matching 
differently and that there is a high variability in the 
matching operational methodology and that there is no single 
common standard for defining watch list match, neither is there 
sharing among the carriers on a routine basis of all of this 
information. So isn't it likely that Delta did not take that 
information and spread it all around the industry?
    Mr. Rosenzweig. Well, I think it is quite likely.
    Mr. Cox. So that if John Anderson wants to fly to Germany 
again but takes a different airline, he is going to have to 
call up his congressman and start from scratch and go through 
this whole routine all over again, isn't he?
    Mr. Rosenzweig. Well, I would hope not, and it might have?
    Mr. Cox. Well, I would hope not too, but what reason do we 
have to think that this would not happen again?
    Mr. Dempsey. Congressman, Mr. Chairman, I think that is 
part of the reason for bringing the watch listing process into 
the government, to do the matching on a centralized basis in 
the government, both in order to use the best name-matching 
technology, whatever that might be, and it has not been 
determined yet--
    Mr. Cox. Well, I want to go even further--
    Mr. Dempsey. --and then, secondly--
    Mr. Cox. --and ask why it is that we think that if there 
are people who have been blessed by their parents with names 
like John Anderson in the world that we are going to single 
them out with that kind of a system?
    I mean, we have two objectives here. One is, and it is the 
primary objective, to find out which, if any, of the people 
that are boarding airplanes are terrorists. The other, which is 
ancillary to that primary purpose, is to reduce the size of the 
haystack that we are sifting through so that we can focus our 
energies and our attention on the right people.
    Now, Chairman Lungren pointed out he is concerned about 
infants being sent for secondary screening. There is no reason 
on Earth if we use CAPPS I that we are not going to look at 
infants because infants may well have had their tickets 
purchased with cash or may well have made a last-minute change 
in their reservation and bought a one-way ticket. Those kinds 
of things, dumb criteria, if you will, like that are going to 
focus us on the wrong people. Whereas, what we ought to be 
doing is reducing the size of that haystack.
    We have good information about people like John Anderson. 
Unfortunately, we do not always have good information about the 
terrorists. But what we can do is use the good information we 
have about Mr. Anderson to let him go through the airport 
quickly, reduce the size of the haystack and focus the 
attention on actual terrorists or suspected terrorists.
    Mr. Dempsey. Mr. Chairman--
    Mr. Cox. We will never be able to do that if we are relying 
on such primitive information as John Anderson. We have got a 
lot more information about Mr. Anderson, which he discovered 
himself when he Googled himself.
    Mr. Dempsey. Mr. Chairman, in terms of the infants and the 
grandmothers, I think a huge issue there is training and 
discretion and the judgment of the screeners. After all--
    Mr. Cox. Well, let me ask Mr. May, because it was suggested 
a moment ago by Mr. Dempsey that this is an airline issue 
that--or maybe it was Chairman Lungren that said this--that the 
airlines are the ones that are supposed to be not screening the 
infant. Why does this persist?
    Mr. May. I think it persists because we are using 
behavioral criteria that are established by TSA. We are not in 
the position of making the judgment as to who should or should 
not. We are in the position of enforcing the boarding pass 
identification based on those behavioral characteristics.
    They then go to the screening process, and if they are 
identified as a selectee based on those CAPPS I criteria, then 
it is up to TSA. I think it absolutely should be that if 
somebody has been identified as a selectee because of a 
behavioral characteristic, that TSA can look and see that it is 
an 11-month-old infant and that relieves the responsibility 
right there, as it would a 95-year-old grandmother.
    Mr. Cox. Let me ask my final question, because I have less 
than a minute left.
    Mr. Anderson, you have heard about Registered Traveler, a 
voluntary program that you might sign up for in order to avoid 
all of this hassle. What kind of incentive would you need as a 
traveler in order to want to sign up for such a program?
    Mr. Anderson. Well, I do not think I would ask for frequent 
flyer miles or any compensation of that kind. I think if it 
were available, if such a program were available, I would 
rather willingly cooperate.
    I do not deny there is a huge problem out there of 
eliminating the possibility that we are going to have another 
terrorist hijacking, and I would not want to stand in the way 
of all efforts that are made to try to screen out people, but a 
voluntary sign-up of some kind to eliminate, just as we 
voluntarily engaged in this program to get on the no-call list, 
not to be bothered during dinner hour by people--
    Mr. Cox. A national no wait in line list.
    Mr. Anderson. Exactly, some national list of that kind 
where you could relatively easily say, ``Yes, I subscribe to 
this,'' and then get the clearance you need.
    Mr. Cox. Thank you very much. This has been an excellent 
panel, and I am going to continue to listen intently.
    Thank you, Mr. Chairman.
    Mr. Lungren. I thank you.
    The gentleman from Washington, Mr. Dicks, is recognized for 
5 minutes, in which time that he wants to give to the chairman 
he can.
    Mr. Dicks. That is Mr. Thompson.
    Tell me what Secure Flight is going to be about. Explain 
what Secure Flight is going to be.
    Mr. Dempsey. Secure Flight is the matching of passenger 
names with a list of known or suspected terrorists in order to 
determine who deserves secondary screening in addition to the 
metal detector and luggage x-ray.
    Mr. Dicks. And what list is this passenger list from the 
government--this is a government list, I take it.
    Mr. Dempsey. Yes, sir.
    Mr. Dicks. What list is this?
    Mr. Dempsey. On the next panel is Justin Oberman, who is 
head of the Office of Credentialing and Vetting at TSA, and he 
can answer those, but I will say that the list is the 
consolidated--it is a subset of the consolidated watch list 
managed by the FBI from 11 or 12 watch lists that the 
government had been using prior to 9/11. The Terrorist 
Screening Center was created at the FBI to bring together these 
disparate watch lists.
    Mr. Dicks. They still have not got this done, you know.
    Mr. Dempsey. Well, to some extent--honestly, Congressman, I 
believe they have made progress on this. It is an incomplete 
system, it is better than it was on 9/11, although we read in 
the paper this morning that the State Department has not been 
using it to screen applicants for passports, which is bizarre. 
But, look, we have put a lot of effort into trying to figure 
out who are the terrorists.
    Mr. Dicks. But I am told that even on this list there are 
certain names that are left off.
    Mr. Dempsey. There are both names that are on the list that 
should not be, and there are names that should be on the list 
that are not, that is correct.
    Mr. Dicks. Explain that. Can you explain that?
    Mr. Rosenzweig. I guess the answer is, nothing is perfect. 
I mean, we have as a goal the creation of a unified watch list, 
but to expect, especially in the context of intelligence 
information, which is often indefinite and hazy, that it is a 
perfect list is unrealistic. If your objective is only to 
implement perfect systems, we will never implement any.
    Mr. Dempsey. But some of the flaws here, Congressman, one 
day the employee at the FBI who was responsible for loading the 
names into the list and that person's backup were both out. 
Therefore, that day no new names were loaded into the list and 
when people came to work the next day they did not go back and 
fill. So that is one reason that the Inspector General found as 
to why not all the lists that should be on the list are not 
there.
    Mr. Dicks. So, Jim, what is your major concern here? From 
ATA's perspective, you were kind of gentle, I noticed, in your 
testimony. You said it was not perfect but you hoped it would 
get better. What are you mainly concerned about here?
    Mr. May. Congressman Dicks, I think we want to see, number 
one, the federal Government take over the business of matching 
names on whichever list or combination of lists are going to be 
used. Number two, I think we want to have a simplified data 
collection process that, whether it is CBP or TSA or anybody 
else that is collecting information for the airlines, it is 
consistent fields of information.
    Number three, I think we need to have discussions with TSA, 
CBP and others, it has been discussed here that we have a 
number of different ways to implement the program based on 
different computer systems, carriers, things of that sort. Let 
us have those conversations so that we know how that 
information is going to be managed.
    Number four, do not forget that we are not the sole 
collectors of information. Travel agents, for example, collect 
information, and we may not even be in receipt of a lot of the 
required information on a number of passengers until they check 
in with us immediately prior to their flight on a connecting 
flight from another airline.
    Mr. Dicks. So that is where you say on the flight coming 
into the United States. It does sound ludicrous that we check 
these things 15 minutes after the flight leaves. I mean, if you 
have got the terrorist on there and he is, whatever, that is 
disconcerting. And then we have to land up in Maine or 
somewhere and get the person off.
    Mr. May. That is correct, and that is why we suggest a 
real-time process where you get a board/no board as we get that 
information in.
    Mr. Dicks. But it should be before the plane leaves, 
shouldn't it, I mean, in a perfect world?
    Mr. May. In a perfect world, it should be before the plane 
leaves, but we do not live or operate in a perfect world.
    Mr. Dicks. Would a real-time system allow you to do it 
before the plane leaves?
    Mr. May. A real-time system would allow us to do it better 
than we do it today. Do not forget that if we had it on an hour 
in advance, it still takes them 4 hours to process that 
information. When they have a conflict between John B. 
Anderson, III and John Anderson, it still is a human being that 
sits down and starts to look at other information to try and 
correct that. And in the final analysis, the airlines would far 
prefer to have some planes turned around over the Atlantic than 
have the huge delays that would be required of processing 
information on all of those passengers, all of the time prior 
to departure.
    Mr. Dicks. So in a real-time system, it still would take 4 
hours.
    Mr. May. Right now it is taking--we think it is taking--
    Mr. Dicks. That is why on these 8-or 9-hour flights they 
get it--
    Mr. May. Right. Right. So get a real-time system that 
allows us to put that information in 2 hours in advance, for 
example. When we have it an hour in advance, a half hour in 
advance, there is still probably going to be some passengers 
that are not prescreened prior to getting on. Now, they are 
going to be prescreened according to CAPPS I. They can be run 
against a watch list, et cetera. But in depth APIS screening 
will not necessarily take place for every single passenger, but 
that is a risk we will take because we think the disruption to 
the system of a mandatory 60 minutes prior to departure is 
going to be far greater.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lungren. The Chair now recognizes Mr. Linder for 5 
minutes.
    Mr. Linder. Thank you, Mr. Chairman.
    Mr. Dempsey, you said that it is clear that the terrorists 
are still seeking access to airliners. Where do you get that 
information?
    Mr. Dempsey. Well, I am not privy to any intelligence but 
it seems to me that it is one of the most powerful targets that 
they have. They have shown--
    Mr. Linder. Have more people died on airlines or trains?
    Mr. Dempsey. Excuse me, sir?
    Mr. Linder. Have more people died on airlines or trains?
    Mr. Dempsey. I honestly do not know the answer to that, but 
we have had some spectacular losses of life on airplanes.
    Mr. Linder. Do you think another airplane will ever be 
allowed to go into a building?
    Mr. Dempsey. Not if the passengers can help it.
    Mr. Linder. Do you think the passengers will help it?
    Mr. Dempsey. Yes, sir. They may die in the process, but 
they are going to probably rise up and prevent it.
    Mr. Linder. That is correct. And the value of the airliner 
on September 11 was that it was full of fuel and it was come to 
allow to fly into a building because the passengers up to that 
point had believed they were just going to be taken off 
somewhere. And it was spectacular because the jet fuel burned 
down the buildings.
    If it is the case that I think it is that the terrorists 
are looking for spectacular financial events, it does not seem 
much in their interest to just take down one airliner. And they 
can do that today by just putting a bomb in the cargo hold.
    Mr. Dempsey. When I fly on airplanes, I hope people have 
not given up on protecting airplanes.
    Mr. Linder. We had 690 million passenger flights on 
airlines in 2004, and we spent $5 billion on that. We have 9 
billion passenger rides on trains, we spend one-half of 1 
percent of the budget on that. Do you think that is fair?
    Mr. Dempsey. Well, I do think that you raise the question 
of risk assessment and prioritization, which is absolutely part 
of this. We obviously had a terrorist train bombing or subway 
bombing, commuter train bombing in Madrid. So our security 
system must look at and evaluate all of those risks. Whether 
too much money has been spent on air transport to that 
exclusion of other forms of transport is something that I am 
not going to offer an opinion on.
    I do stand by my position that terrorists see airplanes as 
potent targets, and if they can, they will take one and they 
will either blow it up or crash it. And we need to keep 
terrorists off of airplanes, which means we need to screen 
passengers, and we need to do so in a cost-effective way, I 
agree with you entirely.
    Mr. Linder. I do not think it really matters just who is on 
an airplane, because fake IDs are so easy to get in this day 
and age that anybody--no terrorists are going to get on there 
and identify themselves correctly and tell you where he is 
from.
    Mr. Dempsey. Most of the 9/11 hijackers flew under their 
true names.
    Mr. Linder. That was pre-9/11. That was pre-9/11.
    Mr. Dempsey. It is an excellent point, Congressman. The GAO 
noted in its report that identity theft does pose a serious 
challenge to screening. We have efforts underway, separate 
efforts, to improve the quality of identification documents. 
Identity theft and fake IDs pose a risk in a number of 
contexts. If we were to vet train passengers, the same problem 
would be posed there.
    So the fact that we do not have a perfect ID system, to me, 
does not say that we should not try to figure out who is 
getting on an airplane.
    Mr. Linder. If we take this system and move it to the train 
system, we would make a huge mistake, because this one does not 
work, for starters.
    Mr. May, let me ask you something.
    Mr. Dempsey. Congressman, just let me say I agree that this 
is not working yet and it should not be extended to any other 
forms of transportation until we can prove that it works in the 
air transport context.
    Mr. Linder. It appears to be a wholly owned subsidiary, the 
airline industry.
    Mr. May, nobody has mentioned biometrics here. In your 
judgment, if we had a background screening and I had a 
fingernail print, shouldn't I be able to just walk on that 
plane?
    Mr. May. Mr. Linder, we have long supported the concept of 
Registered Traveler because we think if you have a robust 
Registered Traveler database using biometrics and they use iris 
and fingerprint, that it removes the number of people or a 
number of people that would otherwise be potential selectees.
    Mr. Linder. But the ones we have right now they go through 
and identify themselves with a fingerprint at Reagan National, 
still go through the magnetometer, still take off their shoes--
    Mr. May. That was exactly the point of my testimony. We 
have to have TSA identify the benefits for belonging to that 
program, for providing the biometric information so that you do 
not have to take your computer out, you do not have to take 
your shoes off, you do not have to take your outer garment off, 
et cetera, so you can quickly move through the process. And 
then you have to have those six test programs learn how to talk 
to one another as just one other additional step in the 
process.
    Mr. Linder. Thank you, Mr. Chairman.
    Mr. Lungren. The Chair now recognizes the gentlelady from 
California, Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman, and I am sorry for 
having arrived late. I was caught in another committee meeting. 
And I did not get to hear the testimony of all of our gentlemen 
before us, but I do have one question.
    I have a constituent, Bob Lewis, has a regular sounding 
name, a businessman, he goes to the airport quite a bit. And 
every single time he gets stopped because there is a Bob Lewis 
on the list. Now, he is not that Bob Lewis.
    So with respect to that, he has talked to all of the 
agencies, he has finally gotten a letter that says he is not 
that Bob Lewis, so now he shows up to LAX and it can be normal 
procedure of showing them the letter and that is fine and goes 
through and takes off his shoes like everybody else or 
sometimes he is set aside for 4 hours, missing his flight 
because somebody is not trained or somebody does not believe 
the letter or something is going on. I mean, this is an 
occurrence that happens over and over to this gentleman.
    So my question is, what is the process to stop that from 
happening currently, because it is very aggravating. And he is 
not the only I have but this is not a--I mean, believe me, I 
have plenty of Middle Easterners and Muslims. I have the 
largest mosque in California in my district. But I am talking 
about just a regular Anglo-Saxon community leader type of 
person.
    Mr. Rosenzweig. Actually, ma'am, I think that that is 
probably the best argument for Secure Flight that you could 
make. The reason he keeps getting stopped is because the 
current distributed network system is not just distributed but 
disconnected. So they cannot disambiguate him from the other 
Bob Lewis, was it?
    Ms. Sanchez. Bob Lewis.
    Mr. Rosenzweig. They cannot disambiguate him from the other 
Bob Lewis. He is not that Bob Lewis. That Bob Lewis may be 42 
and Hispanic from El Toro and he is Anglo-Saxon and 37 from El 
Centro.
    Ms. Sanchez. He wishes he was 37.
    Mr. Rosenzweig. Okay. But the point is that in the 
disconnected system we have now, I mean, it is absurd.
    Ms. Sanchez. But he has been corrected. He has been 
corrected with the letter, so we are going back to this 
training issue.
    Mr. Rosenzweig. Well, it is a training issue, but it is 
absurd that we have a system where the correction has to be a 
hard copy that he has to carry with him, right?
    Ms. Sanchez. But even when he carries it with him the 
problem is still whoever has not been trained correctly.
    Mr. Rosenzweig. That is true. That is true. And obviously 
training and implementation issues need to be addressed as we 
transition. I guess the point of what I would take away from 
your experience is that if we actually transition to a better 
system, the training problems diminish substantially. I mean, 
let's be honest, there are 43,000 TSA people. You are never 
going to have all of them trained perfectly. There is a lot of 
turnover. We cannot expect human systems to be error free, much 
as we would like it to. We can expect better of automated 
systems that use additional data about the good Bob Lewis to 
distinguish him.
    Ms. Sanchez. So the Secure Flight would have the real 
information on the good Bob Lewis in there, ``Do not stop this 
guy, he looks like this.''
    Mr. Rosenzweig. If properly implemented, I believe that 
the--and you should ask Mr. Oberman back there when he comes--
    Ms. Sanchez. Well, I will when he comes up.
    Mr. Rosenzweig. --but if properly implemented the good 
Secure Flight system should have identification about the good 
Bob Lewis, maybe his biometrics, probably more likely simply 
his date of birth, which I am sure is different from whoever 
the bad Bob Lewis is, that he carries with him already on his 
driver's license. And if that is all that it takes to 
distinguish the two, then the good Bob Lewis will be carrying 
with him not a letter but a driver's license that just type it 
in, bam, he is the good John B. Anderson, not the bad John B. 
Anderson.
    It can work. It does not yet, to be sure.
    Ms. Sanchez. Any of the rest of you have a comment?
    Mr. May. I would simply note, as we said with Mr. Linder a 
minute ago, if you have got biometrics attached to a Registered 
Traveler Program that has absolute positive benefits for the 
traveler, Bob Lewis could become a registered traveler with 
biometrics and breeze through the system on a regular basis. 
And I think that needs to be a component of the overall 
process.
    Ms. Sanchez. Well, just to mention that so far it is only 
one airline at LAX at a certain terminal, in a certain way, and 
so, you know.
    Mr. May. We agree with you. And that program does not talk 
to the one in Minneapolis, it does not talk to the one at 
Washington National and so forth.
    Ms. Sanchez. Exactly. A lot of work to be done.
    Thank you, Mr. Chairman.
    Mr. Lungren. The Chair recognizes the gentlelady from 
California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. And I appreciate this 
hearing because I think we need to examine what we are doing 
here from really the very beginning. We are spending a lot of 
money, not only in terms of expenditures, but the public is 
spending a lot of money in terms of their time, and the 
question is, what are we getting for that investment? I guess 
my current operating belief is not too much.
    How many names are on the watch list, do you know, Mr. May? 
Anyone?
    Mr. Dempsey. About 200,000.
    Ms. Lofgren. Now, do we believe that there are 200,000 
people who want to either blow up a plane or hijack a plane?
    Mr. Dempsey. No.
    Ms. Lofgren. So we have got a lot of data there that we are 
checking the bad John Andersons or the bad Bob Lewis's, but 
there is no reason at all to believe they are going to hijack a 
plane or blow it up.
    Mr. Dempsey. Congresswoman, let me just also clarify that a 
little bit further. The consolidated terrorist screening 
database has, according to the DOJ Inspector General's report, 
I think currently about 260,000 names.
    Ms. Lofgren. Well, reclaiming--
    Mr. Dempsey. But then only a subset of that is used as the 
no-fly and selectee lists.
    Ms. Lofgren. And that is about 37,000?
    Mr. Dempsey. Right.
    Ms. Lofgren. And we do not believe there are 30,000 people 
on that list that intend to blow themselves up.
    Mr. Dempsey. No, but what we are talking here about, I 
believe, Congresswoman, and your point is 100 percent, as Mr. 
Linder's point, is 100 percent correct, we do need to do a 
little baseline questioning here. But these are people who are 
being referred for secondary screening.
    Ms. Lofgren. Well, it is worse than that. I will just give 
you a little personal story. My husband and I were in Los 
Angeles and we were going to fly back to San Jose on Southwest 
Airlines. It was a nightmare. I mean, it was like a two and 
half hour security line. I went fine. We found a line to the 
kiosk, got my little boarding pass, and then we could not get 
John's boarding pass. And finally we found?we are in another 
hour-long line and it is a J. Collins is on the list.
    I will tell you to get cleared by the Southwest people took 
like--they said, ``Oh, well, you are not him,'' and gave a 
boarding pass. But there is no way to get off the list, and it 
is not him, and I do not know who the J. Collins is, whether 
this is somebody who really would blow themselves up, but 
Senator Kennedy went through it, Mr. Lewis went through it, Mr. 
Anderson went through it, my husband is going through it, and 
it bears no relationship to keeping the nation safe. So that is 
a stupid system, and we are spending a lot of money on it, and 
it does not make us any safer at all.
    So I think we need to start from the very beginning. What 
is this list and how does it inform us about who is really 
going to be a threat to the nation? And if we have a small 
group of people who we have reason to believe are going to blow 
themselves up or hijack and airplane, it is not going to be 
37,000 people, it is going to be a much smaller group, and then 
we should look at those people pretty carefully when they try 
and board an airplane. But the system we have now, and I cannot 
believe and I heard it took 4 hours to do a database search. I 
mean, who is doing our software here? I mean, that is 
astonishing.
    So I just think this system is--you know, we always look at 
the last problem not the next problem. We are throwing 
resources at this system foolishly. We are not providing value, 
we are not providing safety, and we are completely ignoring the 
exposure we have in other transportation modes that is likely 
to be the next target.
    So we can do biometrics. I mean, the chairman and I had all 
of our fingerprints taken when we sworn into the state bar. The 
government has my fingerprints. But until we know what we are 
sorting for, I think we are just causing a lot of problems 
here.
    Mr. Rosenzweig. Can I just gently disagree with you 
slightly?
    Ms. Lofgren. Certainly.
    Mr. Rosenzweig. And, certainly, the person you should talk 
to is Donna Bucella who runs the Terrorist Screening Center who 
we heard from in the Privacy Committee that I am on a couple 
weeks ago, and she can do much better at this. But it strikes 
me that 37,000 is not as big a number as you think it is, 
because it is not 37,000 Americans. It is 37,000 people out of 
3 billion worldwide, which is--I was trying to do the math 
while you were talking, but I think it is one one-hundredth of 
1 percent.
    And if you ask the question, do we think that there are 
37,000 people worldwide who are bent on terrorist impulses, I 
have no personal knowledge. I do not get any classified 
briefings, but I am going to guess that there probably is that 
many that we know about.
    Ms. Lofgren. I see that my time has expired, but, Mr. 
Chairman, I think at a future hearing and maybe even in a 
classified session it would be of value to explore what this 
list is and what it is made up of and what kind of information 
is provided, just as a baseline for the beginning of the 
discussion.
    I yield back and thank the chairman for his recognition.
    Mr. Lungren. I thank the gentlelady, and that is something 
I think we ought to do. And I would just say that that list 
changes from day to day. And without revealing any classified 
information, in investigations we know from Judiciary Committee 
experience in the intelligence area sometimes someone is put on 
a list of suspicion based on the fact that they had lunch with 
someone that we know is a known suspected terrorist. And until 
further investigation reveals them not to be someone, they 
would probably be on that list. So it is an expanding and 
contracting target.
    And I think our real question is, how do we get people such 
as your husband and Mr. Anderson who are clearly not the person 
that is meant to be on that list, how do we clear them, and do 
we utilize, for instance, commercial information? Do we use 
commercial databases? And if that is the case, does the 
government have that or do we query those as opposed to having 
the government set up their own systems, which brings up 
questions of privacy? And until we create that context for 
discussion, you will have criticism of the government ever 
looking at commercial databases.
    And I think that is part of our inquiry here. We have tried 
in this hearing to set up the dimensions of the problem, and 
how do you get out of that problem I think is the next inquiry, 
and that goes into the question of databases and who utilizes 
the databases, for what purpose, and who keeps them? And in 
which way do we protect privacy to a greater extent? So I 
appreciate--
    Ms. Lofgren. Would the gentleman yield for--
    Mr. Lungren. Yes.
    Ms. Lofgren. --for a comment, because I think what is 
missing here is the connection of information to risk. There 
are people on that list, I will use an Ireland example, people 
who donate to the widows and orphans but it might actually be 
the IRA and they could end up on that list and it has nothing 
to do with whether they are going to blow themselves up on an 
airplane. And so the information does not match to the risk, 
and we are spending a huge amount of money, consequently.
    Mr. Lungren. That is part of our inquiry, but the other 
part is, as I suggest, if you do have a defined number of 
people on a list, and yet we know John B. Anderson is not that 
person, how do we create a system that is more efficient in 
removing this John B. Anderson, his progeny and so forth, from 
that? And I think those two areas of inquiry, and then on top 
of that how do we protect appropriate privacy concerns?
    Mr. Dempsey. Mr. Chairman, if I could just comment upon 
that for one second because everything that Congresswoman 
Lofgren has said I agree with. Last December, Congress required 
the administration to report by the end of this month on what 
are the criteria, how do you get on, how do you get off? As far 
as I know, that report has not yet been submitted. I certainly 
have not seen any reports about it. But we have been over this 
ground once before, but we have to o over it again.
    The Intel Reform Act also said that that watch list should 
have better information about how you got there and why you are 
there and what level of risk you pose, because I agree with you 
entirely. Whether it is 260,000 or 37,000, there are different 
levels of suspicion there, and, clearly, when that consolidated 
watch list was first created, and the TSC admits this, it was 
overbroad. They dumped a lot of stuff in there because they 
were in a hurry and they did not want to miss something.
    But now we are seeing the consequences of that, and it is 
time to go back and reconsider who is in there, why, what is 
the validity of the information, and then what is the quality 
of that identifying information so we can begin to tell one 
person from another.
    Mr. Lungren. The gentlelady from Texas wish to inquire? 
Okay. The gentlelady is recognized for 5 minutes.
    Ms. Jackson-Lee. I thank the chairman for this hearing, and 
I guess I just want to pursue the line of questioning that my 
colleagues have been, and I will ask a broad question to all of 
you.
    We are a team dealing with homeland security, and the more 
precise we can be, the more effective that we will be, in 
addition to the watch list and the backlog that I understand in 
terms of refining the watch list. Many of us have had 
constituents raise questions about that. Are you in need of 
more resources, more technology, more training? And out of the 
watch list, can you account for me any arrests or any terrorist 
that was deterred or any act that was deterred because we have 
the existence of a watch list?
    Why don't I let whoever--
    Mr. Dempsey. I am sorry, Congresswoman, none of us 
represent the watch list, none of us work for the government, 
so I do not know that any of us are in a position to answer 
that question. The next panel does have a witness from the 
government.
    Ms. Jackson-Lee. Do you have any comment about the 
existence of a watch list?
    Mr. Dempsey. Well, I will say that part of the effort to 
prevent and combat terrorism is to identify terrorists, and we 
have an effort to identify them. There are various screening 
points in life, in society where individuals are seeking a 
government benefit or in this case to travel, and there is an 
interesting question there, where we have to determine is the 
person entitled to enter this country? And terrorists are not 
entitled to enter this country. Is the person entitled to a 
visa? Terrorists are prohibited from acquiring visas. So we try 
to figure out who the terrorists are and are they entitled to 
certain benefits or rights.
    Ms. Jackson-Lee. But we need to be right in doing so, and I 
appreciate you trying to take a stab at a question that you 
think you might not be prepared for.
    Let me just go right to Mr. Anderson, and I am sure you 
have been probed extensively, Congressman. I am delighted to 
see you.
    Mr. Anderson. Thank you.
    Ms. Jackson-Lee. And we all owe you a debt of gratitude for 
your service. But you have lived in different periods of our 
country's history, and we all know how we had to change our 
thought processes after 9/11, but as the constitutionalist that 
you are, a person who obviously applauded and utilized the 
freedom that this country represents, tell us the stress, the 
strain and the enormous difficulty that you had in clearing 
your name.
    And when we talk about insurance issues, we talk about 
risks. Insurers will say, ``I am willing to give this certain 
amount or even products based upon we are willing to accept 
this amount of loss on this product.'' Is it equal to what 
safety we are getting by what you had to go through or the 
existence of lists like this?
    Mr. Anderson. Well, I think the general consensus, and I 
would not presume to speak for the other members of the panel 
this morning who have far more expertise than I, really, on a 
day-to-day basis of dealing with this problem, but I think 
there has been a consensus that there is definitely overbreadth 
in the list and that there are serious questions as to whether 
or not the methods that are employed to compile that list 
comport with recognition, as it should have for standards of 
privacy and indeed whether or not the standards that are 
employed to compile the list are even very sensible and 
reasonable and that the system is broken and that it needs to 
be reworked.
    No one challenges, as I think is also implicit in your 
question, the need to protect ourselves against terrorists 
boarding airplanes and all the rest, but we cannot tolerate a 
system that involves your fellow congresswoman testified to the 
difficulty that she and her husband have had.
    Ms. Jackson-Lee. Well, it cries out for action.
    Mr. Anderson. I am only one, I think, of literally many, 
many people who feel that this system is very badly flawed, and 
this committee has the responsibility, and I am happy that they 
see it the same way, of undertaking to find out what can be 
done to correct the present system.
    Ms. Jackson-Lee. Thank you very much.
    Mr. Lungren. Thank you.
    Ms. Jackson-Lee. Thank you very much.
    Mr. Lungren. I again thank all the witnesses for their 
testimony. It has been a very interesting hearing. You are 
helping us in our inquiry as to where we are and where we wish 
to go. The witnesses are excused, and I would call up our 
second panel for testimony.
    The Chair now recognizes Mr. Justin Oberman, the Assistant 
Administrator for Secure Flight and Registered Traveler Program 
at the Department of Homeland Security to testify.
    And I would say, Mr. Oberman, that your written testimony 
will be put in the record in its entirety, and we would ask you 
to make your oral presentation in 5 minutes, and then we will 
have some questions for you.
    Thank you for being here.

 STATEMENT OF JUSTIN OBERMAN, ASSISTANT ADMINISTRATOR, SECURE 
  FLIGHT AND REGISTERED TRAVELER, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Oberman. Thank you, Chairman Lungren, for calling this 
hearing. Chairman Cox, Congresswoman Sanchez, Congressman 
Thompson, pleasure to be here to discuss one of the most 
important programs we are trying to launch at the Department of 
Homeland Security.
    As you know, the issue of protecting security on domestic 
aviation is one of the nearest and dearest threats to 9/11 and 
one of our most important missions, not only at TSA but also at 
the Department.
    As you also know, the 9/11 Commission recommended that the 
government assume the responsibility for checking domestic 
passengers against terrorist watch lists, and of course the 
Congress built on that recommendation in the Intel Reform Act 
last December and also required us to stand up this system, and 
of course that is exactly what we are doing.
    We have been in a testing and planning phase since we 
launched the program last September and have done quite a bit 
of work to define our capabilities as well as areas where 
additional progress is needed. Our testing, for example, has 
shown that our existing technology does have the ability to vet 
the names of 1.8 million people who fly in the United States 
every day and to do so far more accurately than the air 
carriers do today, particularly if we have every passenger's 
full name and date of birth.
    As you also know, we are conducting a test to determine 
whether the use of commercially available information can 
assist us in carrying out our pre-screening function, 
particularly with respect to making our watch list matching 
capability even more accurate and also to see if we can get at 
the critical issue mentioned by several members today regarding 
verifying the identities of people who fly.
    In addition to that, the test also looked at our ability to 
assume the responsibility for CAPPS I from the airlines, and it 
was a very useful test because it showed that it was in fact 
very difficult for us to take that over for the reasons that I 
think Mr. Dempsey alluded to, that information far beyond what 
is in the passenger record is required to run CAPPS I.
    Partly in response to that, the Department amended the 
CAPPS I rules in January and gave the carriers 90 days to make 
those changes. That 90 days, of course, has come and gone, and 
we have seen selectee rates due to CAPPS I drop significantly 
across the industry. The major carriers have a CAPPS I selectee 
rate of under 10 percent, and the regional and low-cost 
airlines who are disproportionately impacted by criteria that 
are publicly known, such as paying for tickets in cash and 
flying one way, have seen their selectee rates drop in some 
cases by half or more as a result of the changes that TSA 
authorized in January. That is a big improvement.
    I do want to address, though, several other key issues 
right now and hopefully during the course of my testimony that 
I think are very important and of course are on the minds of 
members of the committee and others, and they include the 
following: Number one is our budgetary situation. We are in a 
very difficult situation with respect to funding for Secure 
Flight. The President requested $60 million for fiscal year 
2005 and we were funded at $35 million. That is a 40 percent 
reduction, which required us to significantly curtail our plans 
for the current fiscal year.
    Furthermore, the President's request for 2006 is $81 
million, and the House mark, which is obviously now public, is 
at $66 million. That is about a 20 percent cut. The Senate mark 
is at $56 million, which is about a 30 percent cut.
    And what I can tell you is that if the enacted level is 
less than what the President requested, our ability to meet our 
timelines, which we have set ourselves and as well are required 
by the Intel Reform Act, will be in serious jeopardy. The 
program needs to be funded at the President's requested level 
for us to be successful, and we are in, as I said, serious 
jeopardy at the current amounts marked up, particularly coming 
on the heels of a major reduction for us in fiscal year 2005.
    Another key issue, of course, is the issue of privacy, and, 
as I have said from the moment I assumed responsibility for 
this program, privacy and security are the two goalposts of 
Secure Flight. We have tried to design the system with privacy 
at its very core, and, as you know, we are undergoing very 
close consultations with GAO as well as the Privacy Officer at 
the Department, and we determined several weeks ago that the 
documents that we had issued to govern testing, which of course 
will be scrapped and renewed for the implementation of the 
program, did not adequately and fully reflect everything we had 
done during testing.
    And so we took the initiative on our accord to amend those 
documents publicly, which we published a week ago today, to 
more fully explain what we have been doing. Of course, 
everything that is in those documents we have briefed 
extensively to the committee, others in the Congress and to GAO 
and the public, so it was a matter of making sure that our 
documents were aligned.
    In addition to that, the Deputy Secretary has directed the 
Privacy Officer to conduct a review of all aspects of privacy 
in Secure Flight. We of course welcome that. We are working 
with the Privacy Officer on a daily basis, and so this is just 
more useful support for the program, and we are appreciative of 
that.
    With respect to GAO's overall effort, which I know is of 
great interest to the committee, there are 10 separate criteria 
regarding Secure Flight that the Congress has directed GAO to 
review. GAO issued a preliminary report in March describing our 
progress in all 10 areas, and in that report included 6 
recommendations, all of which we concur with, all of which were 
in progress at the time of publication and all of which we are 
nearing completion on. And we intend to meet all 10 GAO 
criteria before we start the program. That is our objective. 
Those criteria are things that we would normally do anyway, and 
so we are appreciative of that.
    And then the final issue, of course, deals with redress, 
which has been a great topic of conversation today. I think 
Secure Flight offers significant improvements in terms of how 
people who are particularly close matches to the list can 
navigate through the system much more efficiently than they do 
today. And I will be happy to discuss that in more detail.
    So I really do appreciate the opportunity to testify. This 
is a very important program. We need to be talking with the 
American people as often as we can about what we are doing, 
because it is so broad based, and I look forward to your 
questions and questions from other members of the committee.
    [The statement of Mr. Oberman follows:]

                Prepared Statement of Justin P. Oberman

    Good morning Mr. Chairman, Congresswoman Sanchez, and Members of 
the Subcommittee. I am pleased to have this opportunity to appear 
before you today on behalf of the Transportation Security 
Administration (TSA) to discuss our efforts and challenges relating to 
improving pre-screening of aviation passengers against terrorist and 
other watch lists, particularly in the context of our Secure Flight 
Program. The Department of Homeland Security (DHS) and TSA are 
committed to the development of Secure Flight as an essential layer in 
our system of systems approach to aviation security. We envision Secure 
Flight as a unique opportunity to leverage technology and information 
management practices to implement a program that enhances the security 
of the civil aviation system. An additional benefit of Secure Flight is 
the prospect for improving and facilitating travel for the broad 
public. We are working to quickly resolve remaining policy, technical, 
cost, and privacy considerations.

BACKGROUND
    Currently, aircraft operators are required to compare the name of 
each passenger to the names of individuals on two Federal Government 
watch lists known as the No-Fly and Selectee Lists. When an aircraft 
operator has a reservation from a passenger with a name that is the 
same as, or similar to, a name on the No-Fly list, the aircraft 
operator is required to notify law enforcement personnel and TSA to 
verify whether that passenger is in fact the individual whose name is 
on either list. If the passenger is verified as an individual on the 
No-Fly List, the aircraft operator is prohibited from transporting the 
passenger and all accompanying passengers. When an aircraft operator 
has a reservation from a passenger with a name that is on the Selectee 
List, the aircraft operator is required to identify the individual to 
TSA for enhanced screening at security screening checkpoints.
    In addition, domestic air carriers perform passenger pre-screening 
through their use of the Computer-Assisted Passenger Prescreening 
System (CAPPS). CAPPS, which was developed jointly by the airlines and 
the Federal government in the mid-1990s, analyzes information in 
passenger name records (PNRs) using certain evaluation criteria to 
determine whether a passenger and his property should receive a higher 
level of security screening prior to boarding an aircraft.
    As part of the Aviation and Transportation Security Act (ATSA) 
(P.L. 107-71), Congress directed that the Secretary of Transportation 
ensure that ``the Computer-Assisted Passenger Prescreening System, or 
any successor system--is used to evaluate all passengers before they 
board an aircraft; and includes procedures to ensure that individuals 
selected by the system and their carry-on and checked baggage are 
adequately screened.'' This requirement became part of the mission of 
TSA, with overall responsibility transferring with TSA to DHS on March 
1, 2003, as provided for in the Homeland Security Act of 2002 (P.L. 
107-296).
    The need to expedite implementation of an effective passenger pre-
screening system was reinforced and reemphasized in the final report of 
the National Commission on Terrorist Attacks Upon the United States (9/
11 Commission), which states at page 392:
        ``[I]mproved use of ``no-fly'' and ``automatic selectee'' lists 
        should not be delayed while the argument about a successor to 
        CAPPS continues. This screening function should be performed by 
        TSA and it should utilize the larger set of watch lists 
        maintained by the Federal Government. Air carriers should be 
        required to supply the information needed to test and implement 
        this new system.''
    Spurred by the recommendations of the 9/11 Commission, Congress 
enacted in relevant part Section 4012 of the Intelligence Reform and 
Terrorism Prevention Act of 2004 (IRTPA)(P.L. 108-458). The provision 
directs that TSA commence testing of and ultimately assume 
responsibility for ``the passenger prescreening function of comparing 
passenger information to the automatic Selectee and No Fly lists 
[utilizing] all appropriate records in the consolidated and integrated 
terrorist watch lists maintained by the Federal Government in 
performing that function.''
    Secure Flight is TSA's program to move the existing watch list 
vetting process of domestic passengers from the air carriers into the 
Federal Government in order to make the process more effective, 
consistent, and efficient for the traveling public from a security and 
customer service standpoint. Under this program, TSA will assume the 
function of conducting pre-flight comparisons of domestic passenger 
information to Federal Government watch lists, to include expanded 
versions of the No-Fly and Selectee Lists. TSA is also reviewing 
whether the Secure Flight system may be able to incorporate a 
streamlined version of the existing CAPPS system to evaluate 
information in PNRs that passengers otherwise provide to aircraft 
operators in the normal course of business.

BRIEF OVERVIEW OF SECURE FLIGHT'S GOALS
    The importance of an effective Secure Flight program is hard to 
overstate. Because the airlines have varying systems by which they 
implement passenger prescreening, the effectiveness, efficiency, and 
consistency in response for airline passengers of the current system is 
limited. In developing Secure Flight, TSA is seeking that greater 
effectiveness, efficiency and consistency, but doing so requires the 
consolidation of functions that are now being carried out separately by 
65 air carriers, for 1.8 million passengers on 30,000 flights fly each 
day, at approximately 450 airports where security screening is 
required. Once implemented, however, Secure Flight would enable TSA to 
better focus its resources and security screening efforts on those 
passengers who are identified to be more likely to pose a threat to 
aviation security. In addition to resulting in a more secure system, 
the benefits to legitimate travelers, who comprise the vast majority of 
the traveling public, will be evident. TSA fully appreciates the 
frustration felt by individuals posing no threat to aviation security 
who are selected for additional scrutiny at airports because of a false 
positive report that they match or resemble a name on a watch list. 
Once operational, Secure Flight will result in fewer individuals 
undergoing additional scrutiny, thus reducing one element of the 
``hassle factor.'' Furthermore, by reducing false positives, additional 
passengers will be able to avail themselves of expedited check-in 
procedures on the Internet and at self service ticket kiosks. The 
overall result would be a more secure system that is also more 
efficient and user-friendly to travelers.
    In assuming the watch list checking role from the air carriers, we 
recognize that they are indispensable partners, without whom the Secure 
Flight program will not succeed. The carriers have been extremely 
cooperative, for example, in providing the necessary historic PNR data 
relating to domestic flights in June, 2004 to enable TSA to conduct its 
preliminary testing, and we expect that this cooperation will continue 
as we make preparations for beginning operational testing of Secure 
Flight. We are also partnering with U.S. Customs and Border Protection 
(CBP) on the transmission of passenger data because most domestic 
carriers already have pre-existing information technology connections 
to CBP relating to passenger data.
    TSA also acknowledges that carriers are concerned with not only the 
technical issues relating to connectivity but also with the initial 
start-up costs that they might have to bear. TSA will continue to work 
with the airline industry to develop cost estimates for implementation 
and continued operations and is committed to working with the carriers 
in managing the start-up costs of Secure Flight, including the costs 
associated with aligning the IT systems. However, ultimately, the 
anticipated economies of scale that will be achieved by consolidating 
the watch list vetting function into the government, a function whose 
attendant costs are currently borne by the carriers, will likely lead 
to significant savings to the carriers. An additional benefit of Secure 
Flight is that the increased efficiency that it will afford at 
checkpoints and ticket counters should assist carriers in maintaining 
and improving passenger satisfaction and customer service--objectives 
that we share with the carriers as TSA carries out its primary mission 
of ensuring civil aviation security.

TERRORIST WATCH LISTS AND FUNCTIONALITY OF SECURE FLIGHT
    Before I discuss further our efforts to develop and test Secure 
Flight and the issues that must be resolved prior to its actual 
deployment, please allow me to provide some information regarding the 
underlying terrorist databases on which passenger information will be 
compared. Homeland Security Presidential Directive 6 (HSPD-6) and an 
accompanying Memorandum of Understanding (MOU) dated September 16, 
2003, directed the creation of the Terrorist Screening Center (TSC) and 
reengineered the terrorist watch list process.
    Since its creation on December 1, 2003, TSC has developed and 
maintained the Federal government's Terrorist Screening Database 
(TSDB). TSDB receives international terrorist-related identity data 
from the National Counterterrorism Center (NCTC), also created under 
HSPD-6, and purely domestic terrorist information from the FBI. The 
NCTC receives nominations from U.S. Government agencies, such as CIA 
and FBI, for placement on specific Federal watch lists. The NCTC then 
creates records in its terrorist identities database and forwards the 
originator nomination to the TSC. The TSC then provides unclassified 
identity data to TSA for use in its No-Fly and Selectee lists, based on 
specific No-Fly and Selectee nominations from agencies. TSA personnel 
at the TSC provide quality assurance and monitor the transmission of 
this data.
    Currently, TSA's role is to provide the No Fly and Selectee lists 
to foreign and domestic air carriers that service U.S. airports. TSA 
has provided the air carriers with guidance on how to handle and 
operate the lists via Security Directives and Emergency Amendments, and 
TSA's 24x7 watch centers take air carrier reports and coordinate No-Fly 
and Selectee operational issues. TSA continues to work closely with TSC 
to ensure as much as possible that the watch lists are accurate and 
comprehensive. Additionally, TSA maintains a list of cleared 
individuals whose names are similar to those contained in the watch 
lists. Cleared lists with identifying information are attached to the 
No Fly and Selectee lists to assist carriers in distinguishing between 
watch listed and non-watch listed passengers.
    Secure Flight will involve the comparison of passenger information 
for domestic flights to names in the TSDB maintained by the TSC, 
including the TSA No-Fly and Selectee Lists, to identify individuals 
known or suspected to be engaged in terrorist activity. Secure Flight 
will automate the vast majority of watch list comparisons, will allow 
TSA to apply more consistent procedures where automated resolution of 
potential matches is presently not possible (due to the current 
reliance on separate procedures at each airline), and will allow for 
more consistent response procedures at airports for those passengers 
identified as potential matches.
    Bringing the watch list matching function into the Federal 
government will also permit expansion of these lists to include 
sensitive information that could not be disclosed to the airlines. 
Under the current system, TSA has great concerns over the security 
aspects of providing air carriers and many of their employees with 
information contained on the No-Fly and Selectee Lists. These security 
concerns would be reduced once the Federal government assumes the 
responsibility for administering watch list comparisons, thus 
permitting integration and consolidation by TSC of additional 
information relating to individuals known or suspected to be engaged in 
terrorist activity.

PROGRESS AND CHALLENGES
    On September 24, 2004, TSA published in the Federal Register a 
number of documents necessary to allow the agency to begin testing the 
Secure Flight program. These included: (1) a proposed order to U.S. 
aircraft operators directing them to provide a limited set of 
historical passenger name records (PNRs) to TSA for use in testing the 
program (69 FR 57342); (2) a Privacy Act System of Records Notice 
(SORN) for records involved in testing the program (69 FR 57345); and 
(3) a Privacy Impact Assessment (PIA) of program testing (69 FR 57352). 
These documents explained that in addition to testing TSA's ability to 
conduct automated watch list comparisons for purposes of the Secure 
Flight program, TSA intended to conduct a separate test to determine 
whether the use of commercial data would be effective in identifying 
passenger information that is incorrect or inaccurate. TSA updated the 
SORN and PIA on June 22, 2005 (70 FR 36320).
    On November 15, 2004, TSA published in the Federal Register a 
document setting forth, among other things: TSA's response to public 
comments on the September 24, 2004, proposed order; revisions made to 
the proposed order in response to comments; and the text of the final 
order. (69 FR 65619). The final order directed U.S. aircraft operators 
to provide to TSA, by November 23, 2004, a limited set of historical 
PNRs for testing of the Secure Flight program.
    Utilizing the data provided by air carriers, TSA commenced testing 
of the watch list matching function for Secure Flight beginning in 
November, 2004. The testing involved 15 million PNRs relating to 
flights flown domestically on every U.S. carrier in June, 2004. That 
test demonstrated that the system was effective in matching PNR data 
with data contained in terrorist watch lists and that the system can 
handle the expected load of more than 1.8 million passengers per day. 
The preliminary testing also enabled TSA to determine that it must 
obtain, at a minimum, an individual's full name and date of birth in 
order to perform an effective comparison of that individual against 
those individuals identified on the No-Fly and Selectee Lists. Testing 
showed that use of date of birth is helpful in distinguishing a 
passenger from an individual on a Federal watch list with the same or 
similar name and significantly reduced the number of false positive 
watch list matches.
    In addition to the testing to determine TSA's ability to compare 
passenger information with data maintained by TSC, TSA is continuing 
with a separate set of testing involving commercial data. Our purpose 
is to test the Government's ability to verify the identities of 
passengers using commercial data and to improve the efficacy of watch 
list comparisons by making passenger information more complete and 
accurate using commercial data. In conducting commercial data testing, 
procedures have been put in place to ensure strict adherence by 
contractors and their personnel to privacy standards and data security 
protections. No decision has yet been made on whether commercial data 
will ultimately be used in Secure Flight. If TSA decides to use 
commercial data for Secure Flight, it will not do so until the agency 
publishes a new SORN and PIA announcing how commercial data will be 
used and how individuals' privacy will be protected. TSA will not be 
using commercial data upon the initial rollout of Secure Flight.
    Let me say a bit more about the importance TSA gives to 
incorporating privacy rights protections in the design of Secure 
Flight. The protection of privacy is an omnipresent concern as TSA 
tests, develops, and implements Secure Flight. We are resolute in our 
commitment to adhere to the letter and intent of the Privacy Act and 
applicable policies on privacy protection and are endeavoring to 
resolve all of the outstanding issues relating to privacy. Moreover, we 
have continuously consulted with various privacy advocates to seek best 
practices and share details about this important program, and we will 
continue to work with the DHS Privacy Officer on the privacy issues 
relating to Secure Flight.
    As you are probably aware, recently, the Deputy Secretary requested 
the Department's Privacy Officer to assess the handling of PNR 
information and commercial data during the testing phase and to provide 
any recommendations about how to strengthen our focus on privacy 
protection as we continue testing and contemplate deployment of Secure 
Flight. The Deputy Secretary has made the same request of the 
Department's new Data Privacy and Integrity Advisory Committee. I met 
with this group in Boston last week to brief them and to solicit their 
counsel. Throughout our testing of commercial data, Government 
Accountability Office (GAO) and interested committees in Congress have 
been made fully aware of the details surrounding our goals and 
methodology in conducting this testing.
    On June 22, 2005, TSA amended the scope of the SORN and PIA to 
clarify and describe with greater particularity the categories of 
records and categories of individuals covered by the Secure Flight Test 
Records system. The GAO also has conducted extensive assessments of 
Secure Flight, including recently our use of commercial data testing. 
TSA is cooperating fully to ensure that all privacy concerns are 
addressed in an appropriate manner.
    TSA has employed data security controls, developed with the TSA 
Privacy Officer, to protect the data used for Secure Flight testing 
activities. The procedures and policies that are in place are intended 
to ensure that no unauthorized access to records occurs and that 
operational safeguards are firmly in place to prevent system abuses. 
Measures that are in place include the following:
        <bullet> Access to private information is limited to only those 
        TSA employees and contractors who have a ``need to know'' to 
        perform their duties associated with Secure Flight operations;
        <bullet> A real-time auditing function is part of this record 
        system to track all whoaccesses information resident on 
        electronic systems during testing, and all instances when 
        records are transmitted between TSA and contractors are 
        meticulously kept;
        <bullet> Data is maintained at a secure facility, and the 
        information is protected in accordance with rules and policies 
        established by both TSA and DHS for automated systems and for 
        hard copy storage, including password protection and secure 
        file cabinets;
        <bullet> Each employee and contractor associated with the 
        Secure Flight program has completed mandatory privacy training 
        prior to beginning work on the program.
    Many technical challenges remain as TSA continues its work on 
testing Secure Flight in preparation for implementation and deployment. 
To ensure that these hurdles are overcome, it is absolutely necessary 
that Congress fully support the request in the President's budget for 
FY06, which proposes that Secure Flight be funded at $81 million. I 
would emphasize that if the program is ultimately funded at levels 
comparable to the $66 million or $56 million in the bills that have 
been approved by the House and reported in the Senate that a delay in 
implementation will be unavoidable.
    TSA recognizes the importance of having in place a redress system 
that is readily available to passengers. TSA has already developed and 
implemented a clearance protocol for persons who are flagged for 
additional screening due to the similarity of their names to those of 
individuals who are appropriately on the watch lists. A passenger may 
initiate the clearance protocol by submitting a completed Passenger 
Identity Verification Form to TSA headquarters. TSA reviews the 
submission and reaches a determination of whether these procedures may 
aid in expediting a passenger's check-in process for a boarding pass. 
It is important to emphasize, however, that this clearance process is 
distinct from the ongoing internal review process to ensure that 
persons do not remain on the watch lists if they are found not to pose 
a security threat. TSA's clearance process distinguishes passengers who 
are not a security concern from persons who are on the watch lists by 
placing their names and identifying information in a cleared portion of 
the lists. This information is transmitted to the airlines. Following 
TSA-required identity verification procedures, airline personnel can 
then quickly determine that these passengers are not the person of 
interest whose name is actually on the watch lists.
    In conjunction with the Secure Flight program, TSA has charged a 
separate Office of Transportation Security Redress to further refine 
the redress process under the Secure Flight program. The redress 
process will be coordinated with other DHS redress processes as 
appropriate. Utilizing current fiscal year funding, resources have been 
committed to this Office to enable it to increase staffing and to move 
forward on this important work. TSA recognizes that additional work 
remains to ensure that there is a fair and accessible redress process 
for persons who are mistakenly correlated with persons on the watch 
lists, as well as for persons who do not in actuality pose a security 
threat but are included on a watch list.
    In addition to the mandates of IRTPA, Section 522 of the Homeland 
Security Appropriations Act, 2005 (P.L. 108-334) requires TSA to 
satisfy and GAO to report that TSA has addressed ten areas of 
Congressional interest relating to the Secure Flight program. On March 
28, 2005, GAO released a report concluding that while ``TSA has not yet 
completed these efforts or fully addressed these areas, due largely to 
the current stage of the system's development'', ``TSA is making 
progress in addressing each of the key areas.'' GAO also issued six 
recommendations to assist TSA in managing the risks associated with the 
implementation of the Secure Flight program:
        1. Finalize the system requirements document and the concept of 
        operations, and develop detailed test plans--establishing 
        measures of performance to be tested--to help ensure that all 
        Secure Flight system functionality is properly tested and 
        evaluated. These system documents should address all system 
        functionality and include system stress test requirements.
        2. Develop a plan for establishing connectivity among the air 
        carriers, CBP, and the TSA to help ensure the secure, 
        effective, and timely transmission of data for use in Secure 
        Flight operations.
        3. Develop reliable life-cycle cost estimates and expenditure 
        plans for Secure Flight--in accordance with guidance issued by 
        the Office of Management and Budget--to provide program 
        managers and oversight officials with information needed to 
        make informed decisions regarding program development and 
        resource allocations.
        4. Develop results-oriented performance goals and measures to 
        evaluate the effectiveness of Secure Flight in achieving 
        intended results in an operational environment--as outlined in 
        the Government Performance and Results Act--including measures 
        to assess associated impacts on aviation security.
        5. Prior to achieving initial operational capability, finalize 
        policies and issue associated documentation specifying how the 
        Secure Flight program will protect personal privacy, including 
        addressing how the program will comply with the requirements of 
        the Privacy Act of 1974 and related legislation.
        6. Prior to achieving initial operational capability, finalize 
        policies and procedures detailing the Secure Flight passenger 
        redress process, including defining the appeal rights of 
        passengers and their ability to access and correct personal 
        data.
    TSA has systematically proceeded within the framework outlined by 
GAO to address the ten areas of Congressional interest identified in 
P.L. 108-334. With regard to the fifth recommendation, TSA is 
absolutely committed to safeguarding personal privacy and to complying 
with the letter and intent of the Privacy Act of 1974. As I previously 
discussed, many safeguards are already in place, and as we learn more 
through our ongoing testing, we will devise and implement the 
appropriate measures and will be updating the associated documentation 
as illustrated by our actions last week in issuing a revised SORN and 
PIA.
CONCLUSION
    The implementation of an improved program for pre-screening of 
passengers against watch lists, as identified by the 9/11 Commission 
and Congress, is a vitally important mission and is a high priority for 
TSA and the Department. We appreciate the support that you have voiced 
for expeditious implementation of Secure Flight and your recognition of 
the program's great potential for further improving aviation security. 
We acknowledge the concerns over our progress in development of the 
program and other related issues and are heavily engaged in resolving 
issues of concern. We will continue to work with you and other 
interested Members and Committees in Congress on Secure Flight and will 
keep you apprised of important developments as they occur.
    Mr. Chairman, Congresswoman Sanchez, and other Members of the 
Subcommittee, this concludes my prepared remarks. I would be pleased at 
this time to answer any questions.

    Mr. Lungren. Thank you, Mr. Oberman, for your testimony.
    I recognize myself for 5 minutes of questions.
    First of all, if you could describe the Secure Flight 
Program and how it would improve, if at all, the question that 
was raised by Mr. Anderson's experience and the one related by 
the Ranking Member of the person in her district, as well as 
Ms. Lofgren's husband. How will the mechanics of the Secure 
Flight Program in any way impact those situations?
    Mr. Oberman. They will positively impact them in several 
different ways, which I would be happy to describe.
    Mr. Lungren. Okay. Maybe you need to sort of describe the 
program and then show how this would specifically affect that.
    Mr. Oberman. Absolutely. Firstly, we are going to require 
passengers to provide us with their full name and their date of 
birth when they travel. The reason for that is twofold: Number 
one, most of the records in the watch list contain name and a 
date of birth, and then the data elements that are there 
significantly drop off. And that is because we do not have 
perfect information on terrorist threats by virtue of the fact 
that they are terrorist threats, not making themselves visible.
    So by having a full name and date of birth, we will be able 
to resolve a significant number of close matches before the 
person ever arrives at the airport at all. And our testing has 
shown that we can reduce that false-positive rate by at least 
60 percent.
    Secondly, we will be the only--
    Mr. Lungren. Is that because you will have the date of 
birth?
    Mr. Oberman. That is right.
    Mr. Lungren. Which is an identifier you do not have now?
    Mr. Oberman. That is correct.
    Mr. Lungren. And when you say, ``full name,'' does that 
include middle initial, middle name?
    Mr. Oberman. Yes, it does. It is the name that you present 
on your travel documents, for example, your driver's license, 
which we also do not have in every passenger record today.
    Mr. Lungren. Thank you.
    Mr. Oberman. The second thing that will be different under 
Secure Flight and also will help mitigate the difficulties that 
people such as Congressman Anderson are having is the fact that 
we will be the only entity responsible for vetting. There are 
65 carriers in the United States, all of whom do this process 
slightly differently from one another, leading to 
inconsistencies like the one that Congresswoman Sanchez 
described with a passenger on a specific airline having trouble 
and then on another carrier, another day not having the same 
kind of difficulty.
    As a result of our being able to be the only vetting entity 
and the fact that this is a core function for TSA, not a core 
function for an airline, we will have state-of-the-art 
technology to do name matching. That is not what the air 
carriers use today. We have the best available, and we are 
continuing to partner with the Terrorist Screening Center and 
others to make sure that we have state-of-the-art technology, 
much greater accuracy in terms of matching.
    The third thing is, we are going to have a team of very 
experienced intelligence analysts looking at all of these close 
matches and making judgments about whether somebody is in fact 
on the list. The carriers do an excellent job of this today by 
necessity so they can keep their system operating, but our 
folks are trained to do this and have been doing it in almost 
every case since before 9/11.
    Finally, we will be the only entity applying these so-
called cleared lists of people who were never on the list in 
the first place, went through our redress process and received 
relief, for example, Congressman Anderson who is now on the 
cleared list. Again, we will not have 65 separate airlines 
running that list differently, and we will also have a new 
redress office, triple the staff that is there today, with new 
procedures. It is going to be far better than?
    Mr. Lungren. So right now, if you clear Mr. Anderson, you 
then give notice to all the airlines of that, correct?
    Mr. Oberman. That is right.
    Mr. Lungren. And then you have to rely on however they 
operate their systems.
    Mr. Oberman. That is correct.
    Mr. Lungren. And under the Secure Flight Program, you will 
no longer put that responsibility on the airlines, it will be 
your responsibility solely.
    Mr. Oberman. That is correct.
    Mr. Lungren. Let me ask you with respect to the question of 
commercial databases, you have said that with the additional 
information of the full name and the date of birth, that will 
eliminate 60 percent of the names, correct?
    Mr. Oberman. Sixty percent of the close matches, that is 
correct.
    Mr. Lungren. Of the close matches, yes. So then you are 
still dealing with 40 percent. Obviously, you have got more 
names on there than there are people that you want to keep off 
the airplane or more people that you are checking against then. 
How do you then go through that second analysis and what bits 
of information or data do you need for that?
    Mr. Oberman. Couple different things that we are going to 
do under Secure Flight. Firstly, as I said, we will have a team 
of very experienced analysts take a look at Bob Lewis flying 
out of LAX on a particular day, which now will be given to us 
as Robert M. Lewis with a date of birth. So it may not be 
flagged in the first place, but if he still is, we will have a 
team of experienced analysts with access to underlying 
classified information, supports the watch list record, to be 
able to make a determination.
    In addition to that, one of the things that we have tested 
over the last 4 or 5 months, which we are still doing the 
testing, it is not conclusive enough yet to be able to make a 
judgment, is looking at whether bringing additional information 
into that passenger's record, for example, their address, their 
phone number, things of that nature would enable us to further 
distinguish it.
    Comments Mr. Rosenzweig made about dates of birth and zip 
codes being very good identifiers is precisely one of the 
things we have been looking at, and we have not been pulling in 
just the street address but also the zip code to make a 
differentiation. And that is one potential benefit of using 
commercial data, which is the subject of a test and ongoing 
work to see if it will be effective.
    Mr. Lungren. My time has expired.
    The Ranking Member of the full committee, Mr. Thompson, is 
recognized for 5 minutes.
    Mr. Thompson. Thank you very much.
    Let me welcome you, Mr. Oberman, to the committee.
    There are a couple of questions I would like to get 
answered in my mind about Secure Flight. Would Secure Flight 
pick up a person with strong community roots but who is in a 
terrorist sleeper cell or would a person have to be a known 
terrorist in order for Secure Flight to pick him up?
    Mr. Oberman. Let me answer that this way: It will identify 
people who are known or suspected terrorists contained in the 
terrorist screening database, and it ought to be able to 
identify people who may not be on the watch list. It ought to 
be able to do that. We are not in a position today to say that 
it does, but we think it is absolutely critical that it be able 
to do that.
    And so we are conducting this test of commercially 
available data to get at that exact issue. Very difficult to 
do, generally. It is particularly difficult to do when you have 
a system that transports 1.8 million people a day on 30,000 
flights at 450 airports. That is a very high bar to get over.
    It is also very difficult to do with a threat described 
just like you described it, which is somebody who has sort of 
burrowed themselves into society and is not readily apparent to 
us when they are walking through the airport. And so I cannot 
stress enough how important we think it is that it be able to 
have that functionality. And that is precisely the reason we 
have been conducting this commercial data test, why we have 
extended the testing period and why we are very hopeful that 
the results will prove fruitful to us so that we can then come 
up here, brief them to you and explain to you why we need to 
include that in the system.
    Mr. Thompson. Well, since we have used Mr. Anderson as our 
person, what happens if a terrorist is traveling on stolen 
identity? How can this system pick that person up?
    Mr. Oberman. Again, it is a critical threat area that we 
are worried about and something that we are hopeful that the 
use of commercial data will be able to address. Right now if we 
take the names of passengers as they are provided to the 
carriers and we compare them to the watch list, we will 
generate matches.
    It happens dozens of times a day across the country in all 
modes of transportation, including aviation, today. That is a 
terrorist giving us an identity that is known to the 
government. But, as I said, it will not be adequate for an 
aviation pre-screening system in the United States if it relies 
only on information provided by the passenger. We do not think 
that is enough.
    And so the purpose of testing the use of commercial data is 
to see if we can attain that functionality. As I said, it is a 
very high bar to get over because of the complexities of our 
system, but we think it is just fundamental to our overall 
mission to secure the aviation system in the United States.
    Mr. Thompson. And I will follow up that line of questions, 
Mr. Chairman, with some additional questions for our witness, 
but I want to go to another point.
    It is my understanding that Carol DiBattiste, formerly of 
TSA, has been hired as ChoicePoint's chief privacy officer. Are 
you aware of that?
    Mr. Oberman. Yes.
    Mr. Thompson. But I am also told that there was a point in 
time that a contract had been offered to ChoicePoint through 
EagleForce Associates. Are you aware of any of this 
information?
    Mr. Oberman. It is not correct, Congressman. EagleForce is 
conducting a commercial data test on behalf of TSA and has 
contracted with three separate commercial data providers.
    Mr. Thompson. Is ChoicePoint one of them?
    Mr. Oberman. ChoicePoint is not one of them.
    Mr. Thompson. So ChoicePoint is not involved in it at all.
    Mr. Oberman. That is correct.
    Mr. Thompson. Well, I am glad to know that. Now, I have a 
letter that I sent to the Department in March of this year 
which has yet to be responded to. I will provide you with 
another copy of that letter in hopes of within the next 10 days 
we can get it responded to.
    Mr. Oberman. We will get it up here quicker than that.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T6959.001
    
    [GRAPHIC] [TIFF OMITTED] T6959.002
    
    [GRAPHIC] [TIFF OMITTED] T6959.003
    
    [GRAPHIC] [TIFF OMITTED] T6959.004
    
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Lungren. The gentleman from California, Mr. Cox, is 
recognized for 5 minutes.
    Mr. Cox. Thank you, Mr. Chairman.
    I am sure you were here for the first panel and saw all 
that testimony, and everyone has to be very sympathetic with 
the plight of John B. Anderson. At least all of us in Congress 
know who John B. Anderson is and the fact that not only was he 
a member of the House of Representatives but a pretty well 
known at the time candidate for President of the United States.
    Do you believe that what happened to him when he tried to 
fly to Germany with formers Members of Congress is likely to 
happen again if he chooses a different carrier next time?
    Mr. Oberman. I do not know, and the reason is every airline 
applies this cleared list in a slightly different manner.
    Mr. Cox. So since you do not know, the answer is it could 
happen again.
    Mr. Oberman. Yes, it could.
    Mr. Cox. What can we do to make sure that it does not or to 
ask the question more broadly, what can we do to make sure that 
this system learns? My understanding is that we have thousands 
of false matches every day and that a lot of John Andersons 
exist and these people then are going to extraordinary lengths 
to educate the system, at least in connection with their 
upcoming trip about why they are not the person that the system 
thinks they are. Having gone to those lengths, doesn't the 
traveler deserve to just do it that once?
    Mr. Oberman. We need to fully fund Secure Flight so that we 
can put in place a system--
    Mr. Cox. Yes, and I am all for Secure Flight, I hope it 
happens, but we have got a system in place right now.
    Mr. Oberman. Yes.
    Mr. Cox. Are you saying that it is absolutely incapable of 
learning?
    Mr. Oberman. I am not saying it is incapable of learning, 
but the issue is that the carriers are not as a matter of their 
first priority in the watch list checking business. And when we 
put someone on a cleared list, it is the same mechanics of 
checking names of people who are flying against names on a 
cleared list. And the problem is--
    Mr. Cox. But why do we have to keep doing it over and over 
and over again the same way so that the system does not learn 
anything? Every time that I show up at the airport, even if I 
have been there many, many times, the system thinks it is my 
first time.
    Mr. Oberman. Yes. The answer is that some carriers are 
working right now before Secure Flight is up and running on 
systems that I do not think remember is necessarily the 
priority, it is more that we can differentiate and know that 
this particular John B. Anderson is the former Member of 
Congress and presidential candidate and not the person that is 
on the watch list. And they are using other identifiers.
    Now, they do not have the date of birth currently, so some 
carriers are working on systems which, for example, the would 
use the frequent flyer number. But it is the same premise that 
we are trying to get to under Secure Flight, which is to have 
additional identifiers to distinguish these passengers.
    And the issue is, from a TSA standpoint and I think also 
from a congressional standpoint, it is a matter of coaxing and 
urging and consulting with the air carriers to help them get 
there in what is admittedly a very difficult financial 
environment, while we are also asking them to make changes to 
their system to comply with Secure Flight.
    But I am aware of some carriers now who are trying to make 
their systems smarter so that they can distinguish between the 
John B. Anderson who may or may not have flown the day before 
but is already on the cleared list and the John B. Anderson 
that may in fact be on the terrorist watch list, and other 
identifiers are the way that they are doing it.
    Mr. Cox. So we are just leaving it to every air carrier to 
do their own thing and the TSA is not going to fix this 
problem.
    Mr. Oberman. TSA is not in a position under the current 
system to fix it in the way that you are describing, and that 
is because we issue security directives that require the 
carriers to use these lists. We have some specific requirements 
as to how they are supposed to run those lists, but that 
security directive does not come with a software package.
    Mr. Cox. You know, what happens then as a result is that 
the federal government, TSA included, is spending a whole lot 
of money looking at the wrong people. To the extent that we are 
looking at John B. Anderson as he goes again through the 
airport, definitionally we are wasting resources that should be 
focused on potential terrorists. So the fact that our system in 
incapable of learning is not only diverting our attention away 
from actual counterterrorism but it is wasting resources and 
taking us a step backwards. Those resources should be applied 
to finding real terrorists.
    The main job here since we are dealing with the domestic 
U.S. population has to be to reduce the size of the haystack. 
By and large, we can rest assured that 300 million Americans 
are not a problem and yet our system right now seems intent on 
increasingly drilling down into the population that we know is 
not the problem.
    In my own case, just in this town, with the same zip code, 
there is Chris Cox over at the White House and Legislative 
Affairs responsible for homeland security. There is Chris Cox 
who runs the NRA. My first name is Charles. There is a Charles 
Cox who in the Reagan administration was a Commissioner of the 
Securities and Exchange Commission.
    None of these people is me, but if we have a name-based 
system, we are going to make it very, very difficult on 
ourselves. We are going to make it a big time waster and a 
resource consumer when the real job is to look for terrorists 
who in the main are overseas people.
    The software that we are using of the National Tracking 
Center for international flights, trying to match passengers to 
lists, I was advised, worked an awful lot better with Anglo-
sized names than it does with foreign names. This name approach 
that we have got is not anywhere near to a system of unique 
identifiers that we are going to need. And I do hope that we 
can quickly remember what--get back to first principles and 
remember what this is supposed to be all about, which is 
finding terrorists.
    Let me just ask one final question and that is about the 
problem of screening of infants, which the chairman raised. 
TSA's view is that is not supposed to happen. Indeed, I think 
your guidance is do not automatically shunned to secondary 
screening anyone under 12; is that right?
    Mr. Oberman. Correct.
    Mr. Cox. Right now I cannot get a boarding pass in advance, 
I cannot print it out on my home computer or even at a kiosk, I 
do not believe, if I have been flagged for secondary screening 
according to the behavioral criteria; is that right?
    Mr. Oberman. Right.
    Mr. Cox. So what happens is I have to show up at the 
airport, and if I have got an infant in tow then what should 
happen from TSA's standpoint so that we do not keep having baby 
John Andersons go through this process?
    Mr. Oberman. Let me answer that, and I do want to just pick 
up on the other point you raised before the alarm there.
    You are correct in your understanding of how the procedures 
are supposed to work, and we are making additional changes, 
which are not finalized yet at TSA, some of which are 
classified in nature so I cannot discuss them in detail here, 
to further mitigate that problem, to give us more discretion so 
that we can move people through the airport faster. We can 
brief you about that in a secure setting, but we are making 
changes in response to some of these issues, literally, in the 
imminent future.
    Mr. Cox. I am very happy to hear that.
    Mr. Oberman. Okay. And then just with respect to the other 
issue, let me just make two points. I think, as I have said, 
you are starting to see the air carriers innovate to some 
extent. And, again, it is a very difficult environment for them 
to innovate given all the other challenges they face. And that 
is going to help this problem before we fully roll out Secure 
Flight. I think that is going to hopefully take off across the 
industry.
    The second thing, though, is we are applying state-of-the-
art technology at TSA to this problem, and you need two things. 
You need state-of-the-art technology, and so, you are right, 
CBP has the technology that is excellent, we are going to use 
that at the State Department the same way, the private sector 
as well, and we are going to put all that together and have a 
state-of-the-art matching system.
    The second thing, though, is we need to be able to have 
unique identifiers into the system, and we agree that a name-
based system is not adequate but we have to remember that the 
terrorist watch list starts with names, it goes to dates of 
birth and then the unique identifiers drop off. And so that is 
why Secure Flight will require full name and date of birth to 
mitigate so many of those false matches before the person ever 
gets to the airport.
    Mr. Cox. I am sorry, Mr. Oberman, just if you would answer 
the question about the baby John Anderson.
    Mr. Oberman. That is going to be addressed in the 
procedural changes that we are making.
    Mr. Cox. Oh, you have to address that in the classified 
setting.
    Mr. Oberman. That is correct.
    Mr. Cox. Thank you.
    Mr. Lungren. Mr. Dicks is recognized for 5 minutes.
    Mr. Dicks. Mr. Chairman, our staff put together a Secure 
Flight missed milestones. I just would like to put a copy of 
that in the record if that is possible.
    Mr. Lungren. I do not think there is any problem.
    Mr. Dicks. Let me just of forward. TSA is making progress--
this is a GAO report--in the development and testing of Secure 
Flight and it attempting to build in more rigorous processes 
than those used for CAPPS II. Specifically, TSA has drafted a 
number of key documents to assist in providing program 
oversight, including a draft concept of operations, a draft 
requirements document and a draft project schedule. However, 
TSA has not yet finalized these documents.
    Further, although TSA uses a working milestone chart to 
coordinate its many activities, key milestones for the Secure 
Flight Program have slipped. For example, the date when Secure 
Flight is expected to achieve initial operating capability with 
two air carriers slipped by about 4 months. TSA is also 
completing initial Secure Flight testing to determine data 
needs and system functions, which are basic to defining how 
Secure Flight will operate.
    However, key systems testing, including stress testing to 
verify that the entire system will function as intended in an 
operational environment, has not been completed, and we are now 
July almost.
    Further, although TSA expects to complete stress testing 
prior to initial operational development scheduled for August 
2005, it has not yet designed the procedures that we will use 
to conduct these tests.
    Until TSA finalizes key program documents and completes 
additional system testing, it is uncertain whether Secure 
Flight will perform as intended and whether it will be ready 
for initial operational deployment by August of 2005. What do 
you have to say about that? Is that all true? Is all that 
accurate?
    Mr. Oberman. No. Here is what I have to say, a few things. 
Firstly, several of those documents have subsequently been 
completed since the GAO report was issued in March, and we, as 
you know, have turned over hundreds of thousands of pages of 
documents and continue to do it on a daily basis with GAO. The 
concept of operations is done, for example.
    The second thing is we are in very serious jeopardy of 
missing our planned dates, because we do not have the funding 
we need to turn the program on.
    Mr. Dicks. Okay. Explain that.
    Mr. Oberman. Okay. I would be happy to.
    Mr. Dicks. Congress cut the money?
    Mr. Oberman. Yes.
    Mr. Dicks. How much did they cut?
    Mr. Oberman. In 2005, the President requested $60 million; 
we got $35 million. That is a 40 percent cut. In 2006, the 
President requested $81 million. The House mark is $66 million. 
That is a 20 percent cut. The Senate mark is $56 million. That 
is a 30 percent cut. We cannot make it go at those funding 
levels.
    And the reason for that is several-fold. Firstly, it is 
very costly to test and develop a system of this complexity 
that has to connect to 65 air carriers and run more than 1.8 
million transactions every day with no failure, including the 
day before Thanksgiving, Spring Break and so forth.
    The second thing is the costs associated with connecting to 
each individual carrier--
    Mr. Dicks. Is all that work being done by contractors?
    Mr. Oberman. It is being done by contractors and federal 
employees together.
    Mr. Dicks. Okay. Go ahead.
    Mr. Oberman. Okay. And so it is important that the way we 
spend the money is understood. The costs associated with 
connecting each individual carrier because of the vagaries in 
their systems and the differences in the way that United might 
add the passenger's date of birth compared to how American 
might do it is very costly. Okay? So that is number one.
    The second thing is the way we connect to an airline is a 
process that takes about 5 or 6 months per carrier, because a 
lot of that testing that GAO described has to be done once my 
regulation is issued, and I have got real--
    Mr. Dicks. None of it has been done yet.
    Mr. Oberman. A lot of testing has been done, and a lot of 
testing is still to be done.
    Mr. Dicks. Stress testing?
    Mr. Oberman. Yes, absolutely. We were able to run 2.7 
million records in a 24-hour period. One point eight million 
people fly daily; we beat that stress test. We have to run 31 
records a second. There are 28 records a second. We only run 31 
records a second. All of our stress tests we met those 
thresholds, but that was with test data from June of 2004 that 
was historical and in a lab.
    What GAO is referring to, which we fully concur with, is 
running a live test when I have actual passenger data coming in 
and I am really vetting it. That is considered a test and it 
has not begun yet, and what I cannot do is start the test, turn 
it off because I run out of money and try to turn it on again. 
It is a continuous incline to get every carrier connected. I am 
40 percent sure in 2005, and I need the President's budget 
funded.
    Mr. Dicks. Now, if you have the watch list, if you have the 
responsibility for doing the watch list, which you say you 
want, the Commission says you want, Congress has told you to 
do, you will have a better and more comprehensive list to use; 
isn't that correct?
    Mr. Oberman. That is correct.
    Mr. Dicks. Because one of the problems up to now is the 
lack of willingness of these intelligence agencies to share 
with the airline some of these names; isn't that true?
    Mr. Oberman. Yes. I am not sure it is a lack of 
willingness. I think that there are real legitimate--
    Mr. Dicks. Okay. Well, that means there is a lack of 
willingness.
    Mr. Oberman. We will have a bigger and more comprehensive 
watch list for Secure Flight.
    Mr. Dicks. So we should do better. You saw this story about 
the processing of passports in the New York Times today?
    Mr. Oberman. Yes.
    Mr. Dicks. I mean, that is pretty bad, isn't it? Doesn't 
that undermine your whole ability to do your job if passports 
are not properly issued?
    Mr. Oberman. It does not undermine my ability to do my job 
in the sense that I am focused on domestic passengers, and if 
somebody uses their passport as their travel document and 
submits me their full name and date of birth, as required under 
Secure Flight, I am using the full terrorist screening database 
to flag that person.
    Mr. Dicks. It says here, ``The names of more than 30 
fugitives, including 9 murder suspects and one person on the 
FBI investigations Most Wanted list did not trigger any warning 
in the test of the nation's passport processing system, federal 
auditors have found.''
    Mr. Oberman. I cannot speak to the details of that, because 
I am not responsible for the testing or administration of that. 
I just cannot speak to those specific details about those 
records and the names that were cleared.
    Mr. Dicks. Well, let me just say what they tell you. I 
think it is important for you to know. Maybe you can talk to 
Mr. Moss. We are certainly going to do that, I hope. The lapses 
occurred because passport applications are not routinely 
checked against comprehensive lists of wanted criminals and 
suspected terrorists, according to the report, which was 
provided to the New York Times by an official critical of the 
State Department who has access to it in advance. For example, 
of the 67 suspects included in the test managed to get a 
passport 17 months after he was first placed on the FBI wanted 
list, the report said. I mean, that is not acceptable.
    Mr. Oberman. All I can say is that--
    Mr. Dicks. And I see people out there at the airport using 
their passport as their document to identify themselves, so 
that has got to be a problem.
    Mr. Oberman. All I can tell you is we have our hands full 
trying to get Secure Flight started. We are going to use the 
terrorist screening database of known or suspected terrorists 
from boarding domestic flights of the United States. I am not 
in a position to speak to those details.
    Mr. Dicks. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lungren. I hope it is not a sting program to bring them 
into the State Department.
    The gentlelady from Texas, Ms. Jackson-Lee, is recognized 
for 5 minutes.
    Ms. Jackson-Lee. I thank you.
    Thank the witness very much for his presence.
    I understand one of my colleagues raised this and raised it 
earlier, but I will raise it with you again with respect to the 
watch list. I believe it would be appropriate to pose it to 
you. What information can you give on the value or the results 
of the utilization of the watch list in terms of deterring a 
tragic terrorist act, arresting a terrorist, getting 
information about terrorism or terrorist cells? What is it that 
we can secure that shows the validity of this watch list as it 
is presently constructed?
    Mr. Oberman. I can discuss some of that. I think some of 
that information is more appropriate for classified setting, 
and I think much of that information is more appropriately 
provided by the Bureau and others.
    What I can tell you is that--
    JJackson-Lee. And if you would just yield for a moment.
    Mr. Chairman, I would, Ranking Member, appreciate that we 
have an opportunity for a classified briefing on some of these 
questions so that we can both constructive and probative in our 
decision-making on this issue.
    Mr. Lungren. I thank the gentlelady for her suggestion, and 
Mr. Oberman has suggested that he would be available for that 
in his prior testimony, and I am sure we are going to take him 
up on that.
    Ms. Jackson-Lee. I appreciate it very much. And let me 
just, if you can take this other question so that as you 
answer, you can answer this as well.
    The enormous problem that we have is also a privacy 
question that we are all concerned about. I note on September 
21, 2004, TSA released Privacy Act notices for the Secure 
Flight data. These notices included a privacy impact 
assessment, system of records notice, et cetera. In the notice, 
TSA claimed several exemptions from Privacy Act requirements 
for the test. On June 22, TSA issued a revised privacy notice 
for Secure Flight that amends the scope of the system and 
clarifies and describes with greater particularity the 
categories of records and categories of individuals.
    Can you explain that dilemma or that different step? Can 
you also explain, as you answer this other question, this whole 
issue of behavior that the airlines use, and I consider it 
ineffective and whether it should be under their jurisdiction.
    And my last point is the training, which is off the point, 
but I just simply hope you convey this. We need to work with 
TSA and the training of your airline screeners. I just want to 
go on record on that. You have a deficit in the training and 
the style and the appropriateness. You have hardworking 
individuals there, let me acknowledge that on the record, but 
you have got a deficit, as I travel and many of my constituents 
travel, in the treatment that these individuals provide. We 
would like them to be the first-line defense, but we do not 
like them to attack a grandmother, suggesting that that person 
is a terrorist and their treatment acts accordingly.
    I yield to the gentleman.
    Mr. Oberman. Thank you. Let me try to take all four of 
those in turn if I could.
    Firstly, with respect to watch list effectiveness, what I 
can tell you is that today numerous U.S. government agencies 
are identifying known or suspected terrorist threats in and 
around the transportation system who would mean to do us harm. 
And that is happening in aviation and at border crossings and 
so forth, and it is of great concern to us, but of course we 
are very gratified that our systems are working to deter these 
people. And of course our capabilities under Secure Flight will 
be significantly improved. Of course, we need to be fully 
funded, I need to stress that again, so that we are able to 
stand up the system and be as effective as we need to be to 
secure domestic aviation in the United States.
    Secondly, with respect to privacy, let me reiterate that 
privacy is one of two goalposts for Secure Flight, the other of 
course being security. And that is a critical priority for us. 
This program is going to be as broad as anything the Department 
does. It will screen 1.8 million people flying domestically 
every single day in the United States. We need to be fully open 
and transparent with the American people and have total 
credibility with the American people to be able to effectively 
operate a system that is that broad.
    And so we did issue a series of documents in September, and 
we made some adjustments to those documents a week ago today, 
as you point out, to more fully and clearly reflect exactly 
what we have been doing during our test period so that it would 
be on record exactly the nature of the test.
    However, in addition to what is in the Federal Register, we 
have been up to brief congressional staff, committee staff. 
Numerous times we have given GAO literally hundreds of 
thousands of pages of documents and we have spent a lot of time 
with the media, the air carriers, the privacy groups and so 
forth so that, again, we have transparency and credibility with 
the American people. And the privacy documents, as I said, 
reflect that.
    Finally, let me just say that with respect to the existing 
CAPPS I system that you alluded to, we do think it retains some 
security benefits. We do think it is, at least initially, more 
effectively operated by the air carriers, as I think Mr. May 
alluded to in his testimony, and our focus at the moment is 
standing up the system whereby we are going to check passengers 
against the watch list, as required by the statute.
    Ms. Jackson-Lee. And the professionalism training?
    Mr. Oberman. I am not responsible for screener training at 
TSA--
    Ms. Jackson-Lee. I understand that.
    Mr. Oberman. --but I will take it back, absolutely.
    Ms. Jackson-Lee. I have some further questions on the 
privacy issue, and I hope we will have an opportunity to 
provide you that in writing. Thank you.
    Mr. Lungren. Time of the gentlelady has expired.
    Let me just mention that the document prepared by the 
minority staff of the committee entitled, ``Secure Flight's 
Missed Milestones,'' will be entered into the record in its 
entirety.
    Now the gentleman from Massachusetts is recognized for 5 
minutes.
    Mr. Markey. Thank you, Mr. Chairman. I understand that 
ChoicePoint will not be involved in the Secure Flight Program; 
is that correct?
    Mr. Oberman. Well, ChoicePoint is not involved in the test 
phase of the Secure Flight Program. We have not made any final 
decisions with respect to implementation. That will all be done 
in an open competitive process.
    Mr. Markey. Well, I believe that ChoicePoint's contract 
would represent a poor choice for American taxpayers given the 
company's recent involvement in a massive privacy breach that 
has enabled hundreds of ID thefts, and I think you should know 
that is how that decision would be viewed. The Pentagon 
recently confirmed that it had hired a Massachusetts company to 
protect personal information on potential recruits.
    Beyond the Secure Flight Program, does TSA currently have 
any contracts with ChoicePoint or LexisNexis?
    Mr. Oberman. I am not aware of any existing contracts with 
ChoicePoint. One of my contractors uses LexisNexis as a 
subcontractor but not for the provision of any data. We have 
some technology experts that help us with technology. We do not 
have any LexisNexis data.
    Mr. Markey. Do you have any relationships with any 
companies that have been involved in privacy breaches?
    Mr. Oberman. No.
    Mr. Markey. None. None. Is TSA in negotiation with 
ChoicePoint or LexisNexis or any company that has been involved 
in a privacy breach beyond the Secure Flight Program?
    Mr. Oberman. I am not aware of that, but it is obviously 
outside of my specific jurisdiction. I am not aware of any.
    Mr. Markey. Has TSA always conducted security review of all 
contractors that access personally identifiable information, 
such as passenger name records before entering into contracts 
with third parties?
    Mr. Oberman. Yes.
    Mr. Markey. Has TSA ever terminated a contract with a third 
party contractor because it failed to provide adequate security 
to prevent unauthorized access to passengers' personal 
information?
    Mr. Oberman. Not aware of that.
    Mr. Markey. You are not. As you know, TSA recently admitted 
it collected personally identifiable information, such as 
passenger names, addresses and credit card numbers as part of 
testing for the Secure Flight Program. TSA's admission came 
after it reportedly stated it would not do so.
    Given this retreat from its commitment to passenger 
privacy, why should this committee and the American flying 
public have any confidence that TSA will secure and safeguard 
passengers' private information when the Secure Flight Program 
is fully implemented?
    Mr. Oberman. I respectfully disagree with the 
characterization that we retreated or changed what we have 
done. I want to just take a minute to explain that.
    We developed a methodology for how this commercial data 
test would work in December, and from that point forward we 
have provided every document that we have generated and every 
document that our contractor has provided to GAO and in often 
cases directly to this committee and to other committees in the 
Congress. We have also fully discussed what that test would be 
with the media, the air carriers, privacy groups and so forth.
    What we did in our most recent privacy notice was expand 
and clarify the discussion of commercial data testing that were 
in the documents that were issued in September. The September 
documents discuss our use of commercial data, and the June 
documents are designed to expand what was issued in September 
to reflect everything that was briefed between December and the 
current day.
    And so there was no retreat or change. In fact, we are not 
making any changes to the manner in which the test is being 
conducted, because we do not need to. We just had to expand and 
clarify those existing documents, which is what we have done, 
and also I think it is important to note we have not taken any 
action against any passengers.
    This was all using historical information from June of 2004 
that we used our regulatory authority to collect and it is 
simply a test and it is being used to generate results, by the 
way, which are not yet conclusive, and so we decided to extend 
our test period so we can get better information.
    Mr. Markey. I mean, I will just again for the record make 
it clear that privacy groups in America disagree with your 
assessment of the role that TSA is playing in protecting that 
information.
    On May 20, I sent a letter to Secretary Chertoff along with 
Mr. Thompson and Ms. Sanchez regarding the Department's 
inability to check the names of international passengers 
against terror watch lists prior to departure of the flight to 
the United States. We have not yet received a letter in 
response to our letter.
    Mr. Oberman, I believe our policy should actually be 
called, ``no wheels up until the watch list has been checked 
off.'' What we have had as a policy is, ``fly now and we will 
check the list later when the plane is in mid-air heading for 
the United States.'' When will the Department give us an answer 
to our question?
    Mr. Oberman. I do not know, sir, but I will take that back 
and find out. That is the responsibility of Customs and Border 
Protection, and I will reach out to my colleagues today and 
find out.
    Mr. Markey. So TSA has no role in that?
    Mr. Oberman. That is correct.
    Mr. Markey. Okay. So I would appreciate it if you could get 
us an answer. It is now a month and I think a month is a long 
time in homeland security terms to get an answer to such a 
question. We had two planes coming into Boston that both had to 
be diverted to Maine a month ago with people on board whose 
final security clearance actually had not been completed. And 
you just cannot have a system where potential terrorists are 
already on board and the final checks are now being completed 
back on land. It is just absolutely unacceptable, and TSA has a 
responsibility to get us this answer along with the entire Bush 
administration.
    And, finally, could I ask him one final question? Any 
relation?
    Mr. Oberman. To?
    Mr. Markey. The famous Oberman?
    Mr. Oberman. There are several famous Obermans.
    Mr. Markey. Oh, there are?
    Mr. Oberman. Which are you referring to?
    Mr. Markey. That have television shows on MSNBC.
    Mr. Oberman. Oh, it is spelled a little differently.
    Mr. Markey. Oh, it is?
    Mr. Oberman. Yes.
    Mr. Markey. Oh, okay.
    Mr. Oberman. He has got an L and a couple extra N's, I 
think.
    Mr. Markey. Okay. Who was the famous Oberman that spells 
their name like you?
    Mr. Oberman. My dad is a politician--
    Mr. Markey. He is proud of you. He is very proud of you.
    Mr. Oberman. He is more infamous than famous, but I was not 
sure if that is who you were referring to.
    Mr. Markey. Okay. Thank you. Thank you.
    Mr. Lungren. A Chicago politician.
    Mr. Oberman. That is right.
    Mr. Lungren. The gentleman from Oregon is recognized for 5 
minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. I regret I was unable 
to hear the early questions. I was in the highway conference, 
which may or may not be coming to a conclusion soon.
    If I could revisit the CAPPS I issues. When I was able to 
be here, one person testified CAPPS I had continuing value, 
another witness said it does not since it has all been on the 
front page of the USA Today. We know exactly what the criteria 
are, these terrorists are not casual people or people who may--
they spent a lot of time planning the original attacks. It is 
likely they would have read USA Today, they visit Web sites, 
they would know what the criteria are.
    Do you think that CAPPS I has continuing value, and if so, 
why?
    Mr. Oberman. I do think it has continuing value, and the 
reason is that all of the criteria are not publicly known. So 
there are criteria that are still in use today that we think do 
provide a security benefit to identify passengers for further 
scrutiny, and we have made adjustments to the system directed 
at some of the criteria that are more publicly known that have 
dropped the selectee rates for CAPPS I significantly over the 
last 3 to 6 months.
    Mr. DeFazio. So why wouldn't we just drop all the ones that 
are publicly known then, because some of those are ones that 
trip up business travelers. For instance, you know, you bought 
a ticket within 24 hours. Okay, well, what business traveler 
has not done that how many times this year?
    Mr. Oberman. I would like to answer that question in a 
classified setting because it does not lend itself to a very 
simple yes or no answer with respect to how we would do that.
    Mr. Lungren. If the gentleman would yield, while he was 
gone we talked about having a classified briefing on a number 
of elements that they are changing.
    Mr. DeFazio. Great. Okay. Well, I would look forward to an 
explanation of that.
    Let me ask this: We had another witness question the 
validity of the Trusted Traveler, as it is currently 
envisioned, and what the real benefits would be. Is a potential 
benefit of Trusted Traveler that if one were targeted under one 
of these CAPPS I criteria as a trusted traveler, a previous 
witness from TSA said you would look at the potential for 
waiving certain requirements of people, whether it is shoes or 
overcoats or laptops. Would it also be considered if someone 
was SSS by CAPPS I but they also had the Trusted Traveler card? 
Which one would trump?
    Mr. Oberman. Today, participants for Registered Traveler 
are exempted from selectee screening if they are selected by 
CAPPS I. That is already in place today.
    Mr. DeFazio. Okay. So you would envision that would--you 
have not had a problem or concern about that?
    Mr. Oberman. No.
    Mr. DeFazio. Okay. Well, I think the rest of my questions 
are really going to lend themselves to the classified portion.
    When are we going to do that, Mr. Chairman, sometime soon, 
after the break or something?
    Mr. Lungren. Well, we will do it as soon as we can schedule 
it.
    Mr. DeFazio. Okay. Great.
    Thank you, Mr. Chairman.
    Mr. Lungren. Just a couple questions, Mr. Oberman. I would 
like us to be more explicit on the record as to the need for 
commercial database queries. As I understand what you were 
saying, when you have the watch list, if we have the full name 
and the birth date, that will take us down 60 percent of those 
who would otherwise be checked against the watch list. Then, as 
you say, your personal identifiers drop off rather 
significantly.
    So as I understand it, that is when in addition to other 
sorts of classified data you might have, you would then utilize 
certain commercial databases as a way for determining whether 
the person who is standing there at the airport is in fact a 
person of real interest on the terrorist group; is that 
correct?
    Mr. Oberman. Yes.
    Mr. Lungren. And you are still in the testing phase of 
that?
    Mr. Oberman. That is correct. In fact, we have just 
recently extended the test period, because we do not have 
conclusive results. They are very promising but they are not 
conclusive enough for us to be able to say this is exactly the 
way we would like to proceed, here is what it would cost and so 
forth. We are still testing.
    Mr. Lungren. As I understand it, you would propose if you 
really rolled out the program that you would not own or retain 
the information from the commercial databases but rather you 
would be involved in a contractual situation where you would 
query these to find out positives or negatives in terms of the 
responses that you would wish to get.
    Mr. Oberman. That is correct, and we would go one step 
further than that, which is we would destroy and discard all 
that information after the trip is completed. Do not need to 
retain any of it in our system at all.
    Mr. Lungren. What about information that in fact cleared 
this person, tells you this person should not be on the watch 
list? You would get rid of the information that was utilized to 
do that but somehow you would identify that person thereafter 
as not being on the watch list?
    Mr. Oberman. Yes. The way the system is structured is we 
are going to retain the so-called vetting history, which says 
that Ms. Smith was cleared. What I do not want to retain is any 
commercial available data because I am not going to use it for 
any further purpose. By virtue of having that vetting history, 
when the same Smith comes through the next day, I will know 
that that person was already in fact cleared. Assuming they 
have not been added to the watch list, they will be cleared 
again to fly, and they should not continue to be hassled.
    In addition to that, some people will obviously go through 
the redress process in which they submit identifying documents 
to TSA, we place them on a cleared list, and we will be able to 
administer that cleared list much more effectively than the 
carriers do today because we will be the only entity running 
the cleared list, and it will not matter to us what air carrier 
you are on. So those two features of the system will provide 
significant further reductions in the number of people stopped 
at the airport.
    Mr. Lungren. So you are reducing that haystack we keep 
talking about.
    Mr. Oberman. By a great deal.
    Mr. Lungren. I thank you very much. I thank you for your 
testimony.
    Mr. DeFazio. Could I have one--
    Mr. Lungren. Yes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Earlier, the issue of the overseas travelers was brought up 
and the potential problems with the diversion of flights and 
that. And there were concerns raised about the logistical 
problems with early check-in or late check-in or whatever. I 
mean, to come to the United States of America or leave the 
United States of America or any other country, as far as I 
know, you have got to have a passport when you show up at the 
airport, right? And the ticket agent is going to look at your 
passport and then let you have the ticket. So they are going to 
see your passport, they are going to see the number, they are 
going to then transmit, I guess, that data to us at the 
airport.
    Why couldn't we simply negotiate or try and negotiate with 
other countries that people when they make?this would get you 
down to a very small universe, which is people who fly 
internationally who book their ticket less than an hour in 
advance. If you said when you book your ticket you are going to 
have to give your passport information and then it will be 
provided to us as much as 6 months in advance, a month in 
advance, whatever, however long in advance that person made the 
reservation. Why wouldn't that work?
    Mr. Oberman. Short answer is, I do not know why it would 
not work. It very well could. We are not responsible at TSA for 
vetting international flights which have unique attributes. All 
I would tell you is that I think that is something that Customs 
and the carriers are working on. I cannot--
    Mr. DeFazio. Right.
    Mr. Oberman. --speak to it beyond that, but of course that 
is the approach and maybe it is easier, although I do not feel 
like I have an easy job right now. That is of course the 
approach we are using for Secure Flight domestically, which is 
you will provide your full name and date of birth at the time 
you book your ticket. We are not going to look at your 
reservation until 3 days before because the watch list can 
change so much. And then between 72 hours and an hour or 
something before departure, that data will stream into TSA, be 
vetted, will provide results to the air carriers, notify the 
Bureau if there is a hit and start it again the next day.
    Mr. DeFazio. Right. Well, I was involved in some of the 
discussions with the Europeans on the current system from the 
Aviation Committee during the last session of Congress. They 
had these huge privacy concerns about the data fields we 
wanted.
    Mr. Oberman. Yes.
    Mr. DeFazio. But there was never, as far as I know, any 
denial on their part that if that person is going to leave, 
say, Belgium or France and fly to the United States they have 
to have a passport to get on the plane. So I do not think that 
would go to their privacy concerns. I do not remember that it 
was raised at the time, because we had a whole other field of 
things that we were arguing over in terms of what disclosure 
would have to be made at the time of booking a ticket or at the 
time of embarkation in Europe.
    But this seems to me fairly simple. I mean, if it is a 
document you have to have to get on the plane, then you have 
probably got it when you book your ticket, and if that 
information is provided then, we would get down to this really 
infinitesimal universe of people who are going to come here, 
buy an international ticket at the counter an hour before the 
plane leaves and that raises other questions about who that 
person is.
    Mr. Oberman. I will be happy to take that back to Customs. 
That is easily done.
    Mr. DeFazio. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lungren. I thank you.
    I thank you, Mr. Oberman, for your testimony, as I thank 
all the witnesses in the previous panel.
    The members of the committee may have some additional 
questions for you, and we will ask if you would respond to them 
in writing. The hearing record will be held open for 10 days.
    And without objection, the committee stands adjourned.
    [Whereupon, at 12:32 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
